<html>
<title> - PENDING MONTGOMERY GI BILL LEGISLATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 PENDING MONTGOMERY GI BILL LEGISLATION 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2008

                               __________

                           Serial No. 110-64

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-364 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               JERRY MORAN, Kansas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.











                            C O N T E N T S

                               __________

                            January 17, 2007

                                                                   Page
Pending Montgomery GI Bill Legislation...........................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    33
Hon. John Boozman, Ranking Republican Member.....................     3
    Prepared statement of Congressman Boozman....................    33
Hon. Susan A. Davis, prepared statement of.......................    34

                               WITNESSES

U.S. Department of Defense:
  Thomas L. Bush, Acting Deputy Assistant Secretary of Defense 
    for Reserve Affairs..........................................    22
        Prepared statement of Mr. Bush and Mr. Gilroy............    54
  Curtis L. Gilroy, Ph.D., Director for Accession Policy, 
    Military Personnel Policy, Office of the Under Secretary of 
    Defense for Personnel and Readiness..........................    23
  U.S. Department of Veterans Affairs, Keith M. Wilson, Director, 
    Education Service, Veterans Benefit Administration...........    25
    Prepared statement of Mr. Wilson.............................    57

                                 ______

American Legion, Ronald F. Chamrin, Assistant Director, Economic 
  Commission.....................................................    10
    Prepared statement of Mr. Chamrin............................    49
Iraq and Afghanistan Veterans of America, Patrick Campbell, 
  Legislative Director...........................................     6
    Prepared statement of Mr. Campbell...........................    42
Military Officers Association of America, Colonel Robert F. 
  Norton, USA (Ret.), Deputy Director, Government Relations......     5
    Prepared statement of Colonel Norton.........................    35
Veterans of Foreign Wars of the United States, Eric A. Hilleman, 
  Deputy Director, National Legislative Service..................     8
    Prepared statement of Mr. Hilleman...........................    46

                       SUBMISSIONS FOR THE RECORD

Larsen, Hon. Rick, a Representative in Congress from the State of 
  Washington, statement..........................................    66
Matheson, Hon. Jim, a Representative in Congress from the State 
  of Utah, statement.............................................    67
Paralyzed Veterans of America, statement.........................    67
Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
  from the State of Virginia, statement..........................    69
Vietnam Veterans of America, Washington State Council, Jim Pace, 
  President, letter..............................................    70

                   MATERIAL SUBMITTED FOR THE RECORD

Reports:
  Campus Kit for Colleges and Universities, Student Veterans of 
    America, Compiled by John T. Powers, July 1, 2008............    71


                 PENDING MONTGOMERY GI BILL LEGISLATION

                              ----------                              


                       THURSDAY, JANUARY 17, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:38 p.m., in 
Room 340, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Donnelly, Hall, 
Boozman.
    Also Present: Representative Davis of California.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs Economic Opportunities 
Subcommittee hearing on pending Montgomery GI Bill (MGIB) 
legislation will come to order.
    Before I begin with my opening statement, I know that we 
may be joined by some of our colleagues who do not serve on the 
Subcommittee or the full Committee. In the event that they join 
us later, I ask unanimous consent that those individuals, which 
include Congressman Vic Snyder of Arkansas, Congresswoman Susan 
Davis of California, and Congressman John McHugh of New York be 
invited to sit at the dais for the Subcommittee hearing today. 
Hearing no objections, so ordered.
    Welcome, all of you, to the Subcommittee. Happy New Year to 
you.
    As many of you know, Congressman Snyder, who again may be 
joining us, sits on our full Committee. Until recently, he 
chaired the House Armed Services Subcommittee on Military 
Personnel, and now chairs another Subcommittee on the Committee 
on Armed Services. The Subcommittee on Military Personnel now 
falls to the leadership of Chairwoman Davis and Ranking Member 
McHugh who has served in leadership capacities on that 
Subcommittee for a number of years. I look forward to 
continuing our work with the Armed Services Committee's 
Subcommittee on Military Personnel, in particular, as we seek 
to improve existing educational entitlements for our Nation's 
veterans.
    Also, I want to call attention to the fact that the 
Honorable Jim Matheson of Utah, the Honorable Bobby Scott of 
Virginia, and the Honorable Rick Larsen of Washington have 
asked to submit written statements for the hearing record. If 
there is no objection, I ask for unanimous consent that their 
statements be entered into the record. Hearing no objection, so 
entered.
    [The statements of Hon. Rick Larsen, Hon. Jim Matheson and 
Hon. Robert C. ``Bobby'' Scott appear on p. 66-69.]
    Like many of my colleagues here today, I recently had the 
opportunity to meet with veterans in my district, State and 
local governing officials, county veterans officers, and 
Veterans Service Organizations (VSOs) to discuss: the work of 
the 110th Congress, the accomplishments of the first session, 
and the advancements we hope to continue to make in the second 
session.
    I had the opportunity to speak to South Dakota's Governor, 
the Honorable Mike Rounds, the State's Department of Military 
and Veterans Affairs, and the Deputy to South Dakota National 
Guard's Adjutant General, Major General Steven Doohen, among 
others, about the changes that were made to the Montgomery GI 
Bill in the fiscal year 2008 ``National Defense Authorization 
Act (NDAA).''
    We also discussed this Subcommittee's efforts, along with 
the Armed Services Committee, to further update the Montgomery 
GI Bill, particularly for our National Guard and Reserve 
forces. This support from the local level for our efforts tells 
me that we are on the right track. However, we know there is 
some heavy lifting yet to be done.
    The NDAA for fiscal year 2008, which has been delayed 
momentarily, but hopefully will be signed into law soon, failed 
to include language to recodify Chapters 1606 and 1607 from the 
authority of the U.S. Department of Defense (DoD) to the U.S. 
Department of Veterans Affairs (VA). This is an area that will 
require some ongoing attention and discussion.
    While this is a disappointment to some advocating for this 
change, I am glad that we succeeded in making progress for our 
Nation's Reserve forces.
    Included in the final version of the NDAA, among other 
important changes to education benefits, is language that would 
allow certain members of the Reserve forces to use their 
Reserve Educational Assistance Program (REAP) education 
benefits during the 10-year period beginning on the date in 
which they separate from service. I support these provisions 
and look forward to the President signing the bill into law.
    Today's hearing will focus on several bills that have been 
identified as containing components advocated by the veterans' 
community. I appreciate the positive responses of the VSOs in 
helping us identify areas of interest by submitting their top 
five legislative priorities for us to review as we consider 
updating the existing Montgomery GI Bill entitlements.
    Ranking Member Boozman, I look forward to working with you, 
as we have done over the past 3\1/2\ years. I also look forward 
to working with all of the Members of the Subcommittee, our 
colleagues on the House Armed Services Committee, and others in 
the Congress to streamline, update, and expand existing MGIB 
benefits.
    I would now recognize the distinguished Ranking Member, Mr. 
Boozman, for any opening remarks he may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 33.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair. I appreciate your 
bringing us together to discuss the future direction of the GI 
Bill.
    As in the other programs under our jurisdiction, GI Bill 
education and training benefits provide veterans and surviving 
dependents with the opportunity to achieve financial 
independence outside of any other VA benefits they may receive.
    According to the College Board, those with a Bachelor's 
Degree will make at least 1 million dollars more over a 
lifetime than someone with a high school diploma. Clearly it 
pays to invest in education and training for veterans.
    You and I, Madam Chair, have held several hearings on the 
subject over the last 3 years and we have heard from literally 
dozens of witnesses about the need to make changes to reflect 
today's operational environment.
    Today members of the National Guard and Reserves are 
carrying a huge portion of the Global War on Terror and if 
nothing else, I hope we can find a way to improve their 
benefits in a way that reflects their expanded role in our 
Nation's defense.
    I am also very concerned that 30 percent of those who sign 
up for the GI Bill never use a penny of the benefit. There are 
many reasons they do not use their GI benefits, some of which 
would be difficult to overcome. But I think we can reduce that 
30 percent to a significantly lower number by adding 
flexibility to the program. And I hope that we can all work 
together to get that done.
    Several of today's bills would pay veterans what is 
described as the full cost of education. If that is to be our 
goal, I think we need a real understanding of the true cost of 
education to a veteran considering the many sources of 
financial assistance available today.
    Today there is a mix of Federal, State, and institutional 
financial aid packages available that did not exist for earlier 
generations of veterans. Let us just consider one option and 
that is the Pell grant. The max grant now is about $4,300 per 
school year. If the grant program did not consider military 
pay, most freshly discharged veterans would qualify for the 
full amount.
    The Pell Grant Program also includes several income waivers 
for veterans that would allow a vet to work part time without 
impacting the Pell grant amount.
    So between the GI Bill and Pell grant, a vet could receive 
over $14,000 for a standard 9-month school year that would not 
include any kickers or back amounts or other Title 4 education 
benefits.
    It is also important to recognize that many States offer 
significant education benefits to veterans or those on active 
duty or serving in the Guard.
    There is some really good news. The VA has made significant 
progress in lowering the processing time for original and 
supplemental claims for education benefits. In fiscal year 
2007, VA averaged about 32 days for an original claim. Today it 
averages about 23 days. Supplemental claims are down to under 
10 days from 13 last year.
    I wish that the folks at Compensation and Pension (C&P) 
could do as well. I note the education services achieved a high 
level of automation to accomplish that decrease. And, again, 
hopefully C&P will follow suit.
    Finally, Madam Chair, you and I would make many 
improvements if we had the PAYGO offsets. However, PAYGO is a 
fact of life that we must live by until we decide to do 
something differently.
    There are lots of education bills out there, some of which 
are estimated to cost up to over $75 billion over 10 years. 
That type of legislation, you know, appears to be very 
difficult under the PAYGO challenges that we have.
    Again, though, I would say, and I think you mentioned this 
in the past, you know, we have to be responsible and it is a 
matter of priorities. And certainly the priorities of this 
Committee are to expand our veterans' benefits as much as we 
can.
    So thank you, Madam Chair.
    [The prepared statement of Congressman Boozman appears on 
p. 33.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Boozman.
    As I mentioned previously, we have now been joined by 
Chairwoman Susan Davis of California, former Member of this 
Committee. I certainly look forward to working with her in 
making continued improvements to Montgomery GI Bill benefits, 
given her work on the Military Personnel Subcommittee of the 
House Armed Services Committee.
    Let me invite our first panel to join us here. We have 
Colonel Robert Norton, Deputy Director of Government Relations 
for the Military Officers Association of America (MOAA); Mr. 
Patrick Campbell, Legislative Director for the Iraq and 
Afghanistan Veterans of America (IAVA); Mr. Eric Hilleman, 
Deputy Director for the National Legislative Service, Veterans 
of Foreign Wars (VFW) of the United States; and Mr. Ronald 
Chamrin, Assistant Director on Economic Commission for the 
American Legion.
    Gentlemen, welcome back to the Subcommittee and happy New 
Year. We look forward to working with you in 2008. We want to 
remind you that your entire written statement will be submitted 
and made part of the hearing record. If you could limit your 
opening remarks to 5 minutes to give us ample time for 
questions and follow-up, we would appreciate that very much.
    Colonel Norton, we will begin with you. You are recognized 
for 5 minutes.

  STATEMENTS OF COLONEL ROBERT F. NORTON, USA (RET.), DEPUTY 
 DIRECTOR, GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION 
 OF AMERICA; PATRICK CAMPBELL, LEGISLATIVE DIRECTOR, IRAQ AND 
   AFGHANISTAN VETERANS OF AMERICA; ERIC A. HILLEMAN, DEPUTY 
  DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN 
  WARS OF THE UNITED STATES; AND RONALD F. CHAMRIN, ASSISTANT 
         DIRECTOR, ECONOMIC COMMISSION, AMERICAN LEGION

                 STATEMENT OF ROBERT F. NORTON

    Colonel Norton. Thank you, Madam Chair, and happy New Year 
to you as well and to Ranking Member Boozman.
    I am honored to have this opportunity to appear before you 
today on behalf of the Military Officers Association of 
America. We are indeed grateful for this Subcommittee's 
continuing interest and leadership in improving the Montgomery 
GI Bill.
    We also want to thank Congress for pending final passage of 
the Partnership for Veterans Education's top priority last 
year, establishment of a 10-year readjustment benefit for 
Reservists who serve the Nation on active duty.
    I want to add a special thanks to Representative Vic Snyder 
for his pivotal role and leadership in the Armed Services 
Committee and this Committee for making that happen.
    Turning to the bills before the Subcommittee today, MOAA 
supports elements of all seven bills as indicated in our 
statement, but we do have some concerns either of a technical 
or equity nature on some of them. I would be happy to address 
any of these bills in the Q and A period.
    But stepping back for just a moment, Madam Chair, I want to 
help frame the consideration of these bills by letting the 
Subcommittee know that MOAA's top two priorities for the MGIB 
this year are, one, raising reimbursement rates and, two, 
establishing month-for-month entitlement for Reservists who 
serve cumulative tours of active duty of at least 90 days per 
tour.
    On raising GI Bill rates, I will focus on H.R. 2702 because 
this bill is similar to a bill that is getting a lot of 
attention in the Senate sponsored by Senator Jim Webb, S. 22.
    We strongly endorse the most important feature of H.R. 
2702, namely raising GI Bill rates to cover more of the cost of 
education. That is our top priority this year.
    We also like extending the readjustment period to 15 years 
and opening up the GI Bill to all men and women who enter the 
service. That will help both recruiting and readjustment for 
today's warriors.
    Translating that to the Montgomery GI Bill, opening the GI 
Bill to all new recruits would mean repealing the $1,200 
payroll reduction at some point.
    But we do have some concerns over establishing a new GI 
Bill program that directly competes, if you will, with the 
Montgomery GI Bill in Chapter 30. Unless the Subcommittee were 
to repeal the MGIB or somehow put it on hold, we do not see how 
the proposed post 9/11 GI Bill in H.R. 2702 and the Montgomery 
GI Bill can coexist side by side.
    Moreover, since there is no sunset clause in the bill, it 
would operate alongside the Montgomery GI Bill for the 
indefinite future.
    In raising the rates, our top priority, MOAA would 
recommend instead of the metric used in H.R. 2702 that the 
Subcommittee endorsed using the average cost at a 4-year public 
college or university as the benchmark.
    Right now, according to Department of Education data for 
this academic year, the MGIB pays about 75 percent of the 
average cost for full-time study at a public college.
    Turning to Reserve benefits, with adoption of the 
readjustment benefit for Reservists' service on active duty, it 
now makes more sense than ever to integrate the Reserve program 
in Title 38. That leads to our second major priority.
    In moving Chapter 1607, the REAP Program, to Title 38, MOAA 
recommends changing the rates for Reservists who serve active-
duty tours to month-for-month entitlement.
    When you look at, for example, Madam Chair, the Minnesota 
Guard and Reserve, the New York, Arkansas, South Dakota, and 
California Reserve forces, eventually all of these great young 
men and women will serve three or more tours of active duty. 
Because of that service, many will have completed 3 cumulative 
years of active duty. They should be entitled to the full 
Montgomery GI Bill rate, presently $1,101 per month. But the 
pending Defense authorization would only allow them 80 percent, 
the ``80 percent solution'' of the full Montgomery GI Bill even 
though they will have served 3 cumulative years of active-duty 
service.
    The principle should be in our view same service, same 
battlefield, same benefits.
    We are encouraged that Chairman Filner has said that the 
Montgomery GI Bill will be a top three priority this year and 
we look forward to working with you to create a better GI Bill 
that matches the extraordinary demands of service today and 
gives better support to Armed Forces' recruitment programs.
    Thank you, Madam Chair and Ranking Member Boozman. I look 
forward to your questions.
    [The prepared statement of Colonel Norton appears on p. 
35.]
    Ms. Herseth Sandlin. Thank you, Colonel Norton.
    Mr. Campbell, you are now recognized.

                 STATEMENT OF PATRICK CAMPBELL

    Mr. Campbell. Happy New Year. A lot has happened for me in 
the last New Year. I had my 30th birthday and I graduated law 
school, so I appreciate it. This is my first foray back into 
veterans' issues.
    Thank you for this opportunity to testify and also thank 
you for bringing this issue up. You know, I am glad that we are 
starting the dialog about how we are going to renew our social 
contract with this generation of veterans.
    I want to use this time to discuss IAVA's, the Iraq and 
Afghanistan Veterans of America's top three priorities. Just 
like Bob said, you know, our number one priority is raising the 
GI Bill rates so they cover the full cost of education.
    Number two is that we deal with the issue of Reservists who 
have been deployed multiple times.
    And third, and very important to me, is how do we provide 
meaningful protections for deploying servicemembers.
    And since I know my esteemed colleagues are going to be 
spending a lot of time on the first two issues, I want to start 
with the last, how do we provide meaningful protections for 
deploying servicemembers.
    In 2003, Congress passed the ``HEROS Act'' which granted 
the Secretary of Education the power to waive certain student 
loans for deploying servicemembers. The ``HEROS Act'' was 
actually a direct copy of the ``Persian Gulf Conflict Higher 
Education Assistance Act,'' just with a cooler name.
    The bill said that it is the sense of Congress that all 
institutions offering postsecondary education should provide 
full refunds to students who are activated and that these 
schools should make every effort to minimize deferral of 
enrollment or reapplication requirements.
    I testify before you today that servicemembers deserve more 
than a sense of Congress. Deploying servicemembers across this 
country are not receiving refunds and are facing numerous 
bureaucratic hurdles to reenroll in school. Over 400,000 
Reservists have deployed and last year, 40,000 of them were 
enrolled in school.
    I can say from personal experience that these bureaucratic 
hurdles are both infuriating and can be a complete roadblock 
for returning students. When these servicemembers get home, 
their only thoughts are about, you know, taking classes, 
remembering what they learned before they left, or trying to 
figure out, you know, how to figure out life in an air 
conditioned classroom when the last year they spent was in a 
Humvee.
    I spent my year on a trash pile in Iraq and I come back, 
you know, with a comfy chair and air conditioning. I did not 
know which way was up.
    What few returning students are prepared for is how schools 
refuse to make any reasonable accommodations to the fact that 
we spent the last year of our lives in a war zone.
    I personally know of servicemembers who were denied 
enrollment because of a paperwork snafu or because they were 
gone too long. I also know of servicemembers who were denied 
refunds. And I am sad to find out that my own alma mater does 
not provide refunds for deploying servicemembers.
    To be fair, most schools do the right thing. But for those 
returning servicemembers who are not so lucky, they suffer 
through a bureaucratic nightmare. That is why returning 
students need Uniformed Services Employment and Reemployment 
Rights Act (USERRA) type protections. I guarantee that they 
will get their refund and when they get home, they will be 
reinstated to the same status they were before they left.
    We thank Congresswoman Susan Davis for introducing the 
``Veterans Education Tuition Support Act,'' H.R. 2910, and we 
encourage this Committee to take up that bill as soon as 
possible because the issue is growing.
    The second I want to discuss is the issue of Reservists who 
are doing multiple tours. Right now, as most of you know, 
education benefits are based on the longest single tour and not 
the longest cumulative amount of tour.
    A pointed example of this is I, an Army National Guard, had 
served 16 months active duty while my co-worker, Todd Bowers, a 
Marine Reservist, has served the same amount of time, but he 
did his in two tours. That means I am entitled to $220 more a 
month in education benefits because I did mine in one tour and 
he did his in two. That just does not make any sense.
    I learned yesterday, from the Army Times, that 25 percent 
of Reservists have been deployed more than once. So we are 
talking 100,000 Reservists have served multiple tours. And if 
you look at the Air Force and Air National Guard, most of them 
are working on their third or fourth tour.
    There are two practical ways to deal with this issue. First 
is to modify the REAP Program, which is the Chapter 1607, which 
says the more service you do, the higher the benefit you get, 
or you look to a month for month as Colonel Norton just said.
    I posit to you that the modification of the REAP Program 
would produce a better education benefit for Reservists.
    If you indulge me and turn to page five of my testimony, 
you will see some charts. You will see that although the month-
for-month process seems simpler, it actually produces a worse 
benefit in the end for two reasons.
    One is once you run out of the month for month, for every 
month of active-duty service, you earn a month of active-duty 
benefits, once you run out of that benefit, you will have 
$1,100 a month, 1 month. The very next month, you are going to 
get $330 a month.
    If you happen to get out of the Reserves and separate, 
there is no portability for Chapter 1607 benefits. So if you 
are out the Reserves, once you use your month-for-month 
entitlement, you are done. You are not entitled to any more 
education benefits.
    So Iraq and Afghanistan Veterans of America strongly 
encourages looking at modifying the current Chapter 1607 
program by making it cumulative as it is suggested in H.R. 4148 
and adding intermediary steps so that it goes at 90 days, 6 
months, 1 year, 1 year and a half so that you are always going 
up. You are never going to experience a drop in education 
benefits.
    My time is up, but I just want to say thank you for having 
this hearing. The social contract, you know, we fulfilled their 
social contract after World War II and Korea and we sent 
veterans to school for free. This country was rewarded with the 
greatest generation. How will we fulfill our end of the social 
contract with this generation?
    [The prepared statement of Mr. Campbell appears on p. 42.]
    Ms. Herseth Sandlin. Thank you very much for your 
testimony.
    Mr. Hilleman, you are now recognized.

                 STATEMENT OF ERIC A. HILLEMAN

    Mr. Hilleman. Thank you, Madam Chairman and Ranking Member 
Boozman.
    On behalf of the 2.3 million members of Veterans of Foreign 
Wars and our auxiliaries, I would like to thank this Committee 
for its diligence, its dedication, and its bipartisanship 
exhibited in updating the Montgomery GI Bill.
    We applaud this Committee and Congress for including the 
post-service usage for the Guard and Reserve members in the 
``National Defense Authorization Act of 2008.'' We laud this 
accomplishment and we ask that this Committee and the Congress 
continue to update the GI Bill.
    The VFW's top two priorities for the GI Bill this year are 
like that of my colleagues, increase the Montgomery GI Bill 
rate. We would like to see it cover the full cost of tuition, 
education, room, board, and provide a cost-of-living stipend.
    And secondly, allow National Guard and Reserve members to 
count every month of service toward accruing a GI Bill benefit. 
Remove the qualifying impediment that a longest, continuous 
service period creates.
    Since the inception of the GI Bill, every generation of 
warriors has had a benefit to ease their transition back into 
civilian life, providing an opportunity for education and 
serving as an investment in the future of our Nation.
    Today's GI Bill is not meeting the needs of our veterans. 
Skyrocketing education costs are forcing veterans to shoulder 
the bulk of their college expense. Our military in the wake of 
current conflict is suffering from recruiting shortages. 
Moreover, young veterans are more likely to become unemployed 
and homeless than their peers. A new approach to veterans' 
transition, stabilization, and education is needed.
    The increasing cost of education are diminishing today's GI 
Bill. According to the Department of Education, the national 
average cost of an undergraduate tuition, fees, room, and board 
charged to full-time students in degree-granting institutions 
for the 2005, 2006 period was $17,447. A veteran receiving the 
full-time, active-duty GI Bill for the same period only 
received $9,306. That is approximately 53 percent of the total 
cost of education.
    This disparity makes it difficult for a single veteran to 
attend college and prohibitive for a veteran with a family.
    The U.S. Department of Health and Human Services set the 
2005 poverty line for individuals earning at or below $9,570. A 
two-person household was $12,830. A three-person household, 
$16,090.
    A student veteran earning no additional income is living 
below the poverty line, accumulating large student loans, and 
struggling to afford an education.
    For a veteran with a family, they are dramatically below 
the poverty line. And if they are relying solely on the GI Bill 
to sustain them and their dependents through college, they face 
an uphill battle.
    The GI Bill has evolved from its origins as a transition 
and stabilization benefit, to serve as a recruitment tool.
    With each successive year of war in Iraq and Afghanistan, 
we face the increased challenge of meeting projected 
recruitment and retention numbers for the military. A robust 
education benefit would provide a positive recruitment tool to 
broaden the socioeconomic makeup of the military, improving 
overall quality of individual recruits and, thus, the overall 
quality of the force.
    Veterans are increasingly at a disadvantage to their peers 
in the job market. Of the 200,000 men and women that annually 
leave service to enter the workforce, a veteran is twice as 
likely to become unemployed.
    According to the U.S. Department of Labor, unemployment 
among veterans between the ages of 20 and 24 is 15.6 percent in 
2005. Nonveterans of the same age group face an unemployment 
rate of 8.7 percent.
    Through education benefits, a veteran's marketability, 
their long-term career growth, and positive readjustment can be 
enhanced through creating such a powerful benefit.
    Near the end of World War II, our Nation's economy was 
recovering from depression and showing promise of expansion. 
With the creation of the World War II GI Bill, millions of 
servicemembers took seats in classrooms across the Nation. 
Seven point eight million veterans took advantage of the bill 
ushering in an era of prosperity. For every tax dollar spent, 
the government received approximately seven in return.
    The original bill vastly expanded the middle class, 
improving American lives, veteran lives, and profoundly 
affected American families.
    The VFW urges Congress to pass a comprehensive GI Bill for 
the 21st Century as an investment in our troops, our veterans, 
and our Nation. Thank you.
    [The prepared statement of Mr. Hilleman appears on p. 46.]
    Ms. Herseth Sandlin. Thank you very much.
    Mr. Chamrin, you are recognized for 5 minutes.

                 STATEMENT OF RONALD F. CHAMRIN

    Mr. Chamrin. Thank you, Madam Chair, and happy New Year. 
And it is an honor to be back before the Committee once again.
    The American Legion appreciates the opportunity to present 
our recommendations and observations of the current state of 
veterans education and related programs, proposed legislation, 
and laws.
    Recent legislative activities in relation to the fiscal 
year 2008 ``National Defense Authorization Act'' that contains 
significant changes to the GI Bill, place this hearing at an 
opportune time.
    With the final disposition of the NDAA unclear as it is now 
in the Senate and hopefully will be presented to the President, 
the American Legion will comment on proposed legislation in 
reference to the current established statutes.
    The American Legion asks the Committee to refer to our 
written statement for a full explanation of the top priorities 
of modification and enhancement of veterans education benefits. 
Portability of benefits, raising the rates, equity of benefits 
for time served on active duty, termination of the $1,200 
contribution, transferability of benefits, accelerated 
payments, and recodification are viewed as extremely important 
to our organization.
    In regards to recodification, the American Legion 
recommends that Congress move the REAP Program and the GI Bill 
Selected Reserve from Title 10 to Title 38. The American Legion 
recommends that once all the Reserve benefits are moved to 
Title 38, all the GI Bill funding will become annual and 
mandatory appropriations.
    Traditionally seen as a recruitment tool, the GI Bill is a 
readjustment tool that more closely falls in line with the 
purview of the VA. The VA Education Service has a proven track 
record of improving delivery and facilitation of services, as 
well as a dedication to veterans.
    Furthermore, the Committees on Veterans' Affairs are better 
equipped in that they have established oversight protocol of 
veterans and VA programs. It is our hope that transferring 
oversight from the Committees on Armed Services to the 
Committees on Veterans' Affairs will expedite legislation 
seeking to improve educational benefits for veterans.
    I would like to share a story of Staff Sergeant Jimmy 
Marrello, a Reservist from Illinois. He has made the Dean's 
List while he was in school and was a finalist for the 
Noncommissioned Officer of the Year competition. Unfortunately, 
none of his Federal activations were 2 consecutive years and, 
thus, he is ineligible to enroll in the GI Bill active duty.
    Staff Sergeant Marrello will only receive a maximum of 
$23,000 of REAP benefits. If he had served 2 consecutive years, 
he would be able to enroll in GI Bill active-duty benefit and 
receive $31,000 and have the ability to use those benefits 
after leaving service.
    Amazingly, when he completes his upcoming tour in the Horn 
of Africa, he will have completed 48 months of active-duty 
service starting in 2003, but never in a 2-year sequential 
period.
    I want to talk about two pieces of legislation containing 
entitlement of benefits for aggregate time served, H.R. 1211 
and H.R. 2702. While these two bills are steps in the right 
direction by providing benefits for time served, the American 
Legion is concerned that it fails to recognize those veterans 
that complete their tours honorably, but do not serve an 
aggregate of 2 years and do not meet the other requirements for 
eligibility. These veterans have served their country 
honorably, yet are excluded from earned benefits.
    The eligibility requirement as proposed by bills H.R. 1211 
and H.R. 2702 requires a servicemember to serve an aggregate of 
at least 2 years of honorable active-duty service in the Armed 
Forces after September 11th, 2001.
    However, the American Legion supports a GI Bill participant 
reimbursement rate adjusted for time spent on activation and 
supports Reservists utilizing their educational benefits even 
after release from the Selected Reserve. Therefore, equity of 
benefits will remedy the situation.
    The American Legion recommends benefits for time spent on 
Federal activation at the full-time rate proposed in the 
legislation for those veterans that have served less than 2 
years, but also allow them to use their benefits after 
completion of a service contract.
    If a servicemember does serve an aggregate of 2 years due 
to multiple deployments, extensions, or enlistment in the 
active-duty force, then they would be in receipt of the full 
duration of benefits as proposed in H.R. 1211 and H.R. 2702.
    Focusing now on H.R. 2702, it grasps the essence of the 
original GI Bill in 1944 and seeks to provide this Nation's 
veterans with an educational benefit package similar to that 
earned by veterans in the late forties, fifties, and sixties.
    Following World War II, wartime veterans saturated colleges 
and then used their advanced degrees to gain employment in all 
sectors of our country.
    H.R. 2702 will pay up to the maximum amount of tuition 
regularly charged for in-state students for full-time pursuit 
of programs of education. Furthermore, it will pay for an 
amount equal to the room and board of the individual plus a 
monthly stipend in the amount of $1,000.
    Therefore, the American Legion fully supports the intent of 
H.R. 2702 to provide additional educational benefits for full-
time, active-duty servicemembers and those individuals who are 
ordered to active duty as members of the Reserve components of 
the Armed Forces.
    However, we do reiterate our recommendation to amend this 
proposed legislation to allow for use of benefits after service 
and entitlement of benefits based on time spent on Federal 
activation.
    The final bill that I will address is H.R. 2910, the 
``Veterans Education Tuition Support Act of 2007.'' This 
proposed legislation identifies the current plight that 
returning college-bound servicemembers have been unjustly 
enduring from some institutions of higher learning and, 
accordingly, the American Legion supports this bill.
    2910 recognizes the complete transformation of the Reserve 
components into an operational force. Activations and 
intermittent duty such as training or duty in support of 
operations are now an obligation of service.
    A refund of tuition and fees prepaid by a servicemember to 
a university for classes not taken due to performance of 
military obligations is long overdue.
    The American Legion is concerned that activations during 
the middle of a course is extremely disruptive and while 
legislation aims to correct injustices financially, in most 
cases, the veteran must restart the course and has lost 
valuable time due to deployment.
    Madam Chair and Members of the Subcommittee, the American 
Legion appreciates the opportunity to present this testimony 
and to continue our proud history of advocating for increased 
educational benefits to members of the Armed Forces.
    That concludes my testimony. I will be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Chamrin appears on p. 49.]
    Ms. Herseth Sandlin. Thank you. Thank you all for your 
testimony.
    I would now like to recognize the Ranking Member for 
questions.
    Mr. Boozman. Thank you all very much for being here.
    I agree with you, Colonel Norton. I think Congressman 
Snyder in his role being on VA and being over on the Armed 
Services Committee really has done a great job of bringing some 
things together that are very difficult to do sometimes. So, as 
a fellow Arkansan, we are very proud of him.
    One of the things that has kind of come up a little bit as 
we talk about paying for adopting some sort of the full-cost 
mechanism.
    Would that have any effect on somebody that attended a 2-
year community college or trade school? Would they not have as 
much benefit then as somebody that attended a 4-year university 
type program? I mean, how do you go around things like that?
    Colonel Norton. I believe, Mr. Boozman, the way it works 
now is for full-time study whether at a private university, 
public college or university, or community college, you get, if 
you have a full Montgomery GI Bill, $1,101 a month. So many 
veterans who actually start out at community college level 
could pay for all their community courses and have some 
additional funding for living expenses and so forth.
    So that is a good thing. In other words, it is a standard 
benefit and if you want to go to a private school or more 
expensive public school, then you would have to come up with 
the difference.
    That is why we think it is feasible for the Subcommittee to 
think about a national average cost benchmark. And that has 
been the Partnership for Veterans Education position for more 
than 6 years.
    Mr. Campbell. If you do not mind me addressing that issue 
real quick.
    Mr. Boozman. You can address it.
    Mr. Campbell. One of the problems with the current GI Bill 
that I see is it encourages people to go the cheapest school 
they can go to. That is why when you get a list from the VA of 
the top 25 schools, you know, GI Bill users, it is almost all 
correspondence courses.
    And one of the problems we have now is we have been 
incentivizing going cheap and we have not been incentivizing 
going to the best school that they can get into.
    So in the bills that we have been discussing, you know, 
IAVA proposes having a tuition benefit that flexes, you know, 
even to whatever the highest national average. But you get a 
certain stipend. That is not going to change.
    But depending on what school you go to, you can get up to, 
you know, a certain amount of tuition no matter private, 
public, and that will incentivize going to a better school 
because, I mean, we should be encouraging people to going to 4-
year universities and not doing all their courses online. Now, 
that is a good option for some people. But, you know, right now 
people are making money by going to correspondence courses 
versus barely trying to live by going to a 4-year university.
    Mr. Hilleman. Mr. Ranking Member, if I may, your question 
related to a lesser benefit for veterans who seek an 
abbreviated program or an accelerated payment program, correct?
    Mr. Boozman. Yes. The question is with you being concerned 
because of the--and I understand what you are saying, Mr. 
Campbell that you would like to have the ability to get the 
money that you need and that might take more money than 
somebody that is in a lesser course and, yet there might be a 
real need for that tech program that you want to do.
    I guess are you going to come back at some point there and 
say this veteran was discriminated against because he did not 
get as good a benefit as the other veteran with the flex that 
you are talking about?
    Mr. Hilleman. In viewing the law, it is structured on a 
month-by-month basis, on the time table of 36 months. And 
certainly accelerated payments abbreviate the total number of 
months of usage; for example, technical school is a lump-sum 
payment.
    If we stick to the model of using 36 months of eligibility, 
you should still receive a percentage of cost for whatever 
program they are in based on that accreditation. The veteran 
should not lose benefits; they are getting a number of months 
of education for a specific cost. Overall, there is a formula 
that can be worked out.
    Mr. Boozman. Very good. My time is about to run out, I see. 
One other question that if you would briefly comment because we 
are going to hear this is the idea that if we allow 
servicemembers to use their benefits after leaving the service, 
what is your thoughts about that negatively impacting retention 
rates?
    Colonel Norton. Well, I think Congress has already 
basically made that decision, Mr. Boozman, in that the 
``Defense Authorization Act,'' which the House passed last 
night, the new version, if you will, of the NDAA, and the 
Senate is expected to pass it early next week. It establishes a 
10-year readjustment benefit for Reservists who serve on active 
duty.
    So Congress has rejected the bogus argument about 
retention. People who serve in the Armed Forces, both active 
duty and Reserve, are volunteers. They are motivated by lots of 
different reasons to stay or to leave the service.
    Research done by DoD itself has indicated that education 
ranks way down on the list either for reasons to stay in or to 
get out. But I think the bottom line is Congress has made the 
decision. Reservists who serve the Nation on active duty have 
earned a readjustment benefit and it will probably be signed 
into law within the next couple of weeks. We are very pleased 
to see that. Thank you.
    Mr. Boozman. Thank you. And I certainly agree with what you 
just said. Thank you.
    Ms. Herseth Sandlin. Before I recognize Mr. Hall, I would 
like to make a clarification to Colonel Norton. In the version 
of the NDAA that we passed last night, and that we expect the 
Senate to act on, the 10-year portability is solely for Chapter 
1607 benefits. It also includes a move to 3 cumulative years 
for Chapter 1607. Are both of those provisions retroactive to 
October of 2004?
    Colonel Norton. Yes, Madam Chairwoman. That is correct.
    Ms. Herseth Sandlin. Thank you.
    Mr. Hall.
    Mr. Hall. Thank you, Madam Chair and Mr. Ranking Member 
Boozman. I associate myself with both of your remarks and I 
compliment you on the way you work together on this 
Subcommittee.
    And for our witnesses, I thank you for your eloquent, 
concise, and amazingly unified testimonies. It is very helpful 
when we have people coming in telling us basically the same 
thing.
    What I am hearing, I think, from all of you is that 
cumulative service, especially with regard to Reserve, is what 
should count, not the longest individual tour or single 
deployment.
    That, Colonel Norton, I summed up your testimony in one 
sentence. Same service, same battlefield, same benefits. Sounds 
like a good TV slogan. But that is very helpful to me.
    Mr. Hilleman, in your written testimony, you did not 
mention this, but you said in your written testimony, we are 
not a Nation at war, we are a Nation of military at war. And 
that is one of the problems, I think, in terms of getting 
attention to these problems. And that is another, you know, 
whole topic that we could spend a session on alone.
    West Point is in my district. I am on the Board of Visitors 
of West Point. My brother-in-law is a 1969 graduate and a 
Lieutenant Colonel who works for the Association of Graduates. 
And, you know, I have heard from him and from recent 
discussions on the Board that even there at the Academy, they 
are looking at increased education benefits as a way of 
retaining mid-level career officers to keep them.
    Once they have been trained and have the experience and our 
country has invested in their education and their training and 
that now we are talking about increased postgraduate benefits 
to keep them reenlisting as one of the ways to do that.
    So I wanted to ask maybe Mr. Campbell and Colonel Norton, 
do you think bonuses or education benefits are the most 
effective recruiting or retention tool or as a combination of 
the two?
    Mr. Campbell. I have seen a study that said for in terms of 
recruiting, education benefits is the number one reason for a 
civilian to join the military. And, you know, I echo what 
Colonel Norton said that in terms of retention, education 
benefits does not rank up there.
    I know that I will be reenlisting because of the student 
loan repayment because having just graduated law school, I owe 
a lot of money. But, you know, it is not one of the reasons why 
people stay. It is one of the reasons why, you know, you join. 
There is this social contract people believe. You join the 
military, we will pay for school. It just seems like common 
sense.
    And when you actually get real close to the poster, you can 
actually see the picture in my testimony of the sign that is 
outside of my drill hall. You know, there is a big asterisk 
that says this amount of money, you know, up to this amount of 
money.
    And, you know, I do not think DoD is being dishonest. I 
just think that, you know, we have scaled back the benefits and 
we are not meeting that social contract.
    Colonel Norton. I would just add, Mr. Hall, that with 
respect to West Point graduates, as you know, since you follow 
this very closely, we are losing a tremendous number of 
company-grade officers, captains and majors in the ground 
forces.
    More than half the class of 2002 has already left the 
service. They have completed their 5 years and they have said 
thank you very much. I may love the Army, but you are putting 
too much pressure on me and my family with repeated 
deployments.
    With respect to the GI Bill, as you know, Service Academy 
graduates are ineligible for the Montgomery GI Bill. We would 
like to see and we are recommending that they should be given 
an opportunity for the Montgomery GI Bill if they agree to 
extend their service commitment.
    In other words, at the end of the 5-year point, if the 
service says, well, if you will agree to serve an additional 
period of time, 3 years or more, you can now enroll in the 
Montgomery GI Bill. The same would be true, I think, for 
scholarship recipients, ROTC scholarship recipients who are 
also denied an opportunity to enroll in the GI Bill.
    In combination with tuition assistance and other cash 
incentives, this is what helps to encourage people to stay on 
board at a time when operational tempo and the pressures on 
them and their families are enormous.
    Mr. Hall. That's a very good idea. Thank you for sharing 
that.
    I just wanted to ask about the language. Mr. Campbell, you 
talked about current law saying that colleges should reimburse 
Reservists or Guard who are called up, who are activated and 
have their education interrupted. And I assume that you think 
we should change that language to shall or must.
    Mr. Campbell. Most definitely. And I got an e-mail from 
someone who got deployed, you know, early, and it says, you 
know, he got back after being gone for three semesters and that 
school had a policy if you were gone for two consecutive 
semesters that you would be automatically kicked out. So he had 
to not only reapply, he had to take the SAT again.
    And the only way they got around it was they had talked to 
their Adjunct General who then talked to the Governor who then 
talked to the University President and they let them in. But 
because they let them in after the deadline for readmitting, he 
then had to go and beg the Associate Dean of that school who 
just happened to be a Vietnam Marine and that is why he got 
back into school. And this was over six people that had this 
problem. It took them over 2 months before they found out they 
could get back into school.
    And veterans do not like to beg. I mean, that is why the 
Veterans Services Organizations do it for them. I mean, that is 
why we are here, I mean, because, you know, we just do not--you 
know, our job is to be that voice because, you know, veterans 
are a humble people. They do not like to have to beg people to 
do the right thing, you know. And this will do the right thing 
by mandating that schools give refunds and mandate that they 
get reenrolled when they get home.
    Mr. Hall. Thank you.
    And thank you, Madam Chair.
    My time is up. But if you have more of those concrete 
suggestions for how schools can accommodate returning veterans 
or soldiers who are leaving a very different world in combat 
that you described and coming back into the air conditioned, 
cushy academic world, the more specifics we get from you, from 
all of you, the better we can adjust the law. Thank you.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Hall.
    Mr. Donnelly, do you have questions for the panel?
    Mr. Donnelly. Thank you, Madam Chair.
    In regards to these colleges who do not give a refund, in 
your judgment, is it just a complete lack of understanding or 
has there ever been explained to you a reason for this kind of 
conduct?
    Mr. Campbell. Actually, in researching this, I called all 
the University of California schools. And I called every one of 
them and asked them what is your refund policy for 
servicemembers. I called each of them. Only one new the answer 
right off. I called again, called again. And after 2 weeks, 
four of them knew the answer. Most people have never been faced 
with this issue, so they do not have policies. So when you have 
some administrator at some school who does not have a policy, 
they are going to stick with what they know and that is there 
are no refunds after a certain period of time or if it is at 
some point, they get it pro rata.
    And I actually found a General Counsel memo right as the 
Iraqi War started from the University of California General 
Counsel Office saying that the schools had the authority to 
provide refunds, but, I mean, no one even knew where the memo 
was. I am probably one of the few people in the University of 
California system that even knows it exists.
    So, you know, most do the right thing, but, you know, there 
are people out there who just--I mean, it is the same reason 
why we have USERRA protections for people coming home about 
their jobs. Most jobs will just let people, you know, go back 
to work. But there are a few employers out there, there are a 
few schools out there who just do not honor service in the same 
way. They view it as a burden to them to let these people back 
into their school, that they are messing with their 
bureaucratic system, you know.
    I will be honest with you. I am always in the office 
talking about something because I am always that individual 
who, you know, messed up the paperwork somehow and I am always 
trying to navigate the system because I do not seem to fit any 
one of the paradigms that most people do.
    And, you know, we just need to be sure that we make space 
for these people because, you know, we did not ask. We 
volunteered to, you know, join the military service, but most 
of us did not ask to go overseas. And all we want to do when we 
get home is just start classes.
    Mr. Donnelly. In putting these ideas together, you also 
mentioned that, you know, some people are gone three semesters 
and they look up and they have been booted out because if you 
have two consecutive, you are gone.
    Do you have, or can you put together for us, a list of the 
challenges that are faced at the college level by our vets as 
they leave or as they come back because I think that would be 
extraordinarily helpful in putting together real solid 
legislation in regards to this?
    Mr. Campbell. Definitely. And there is actually a survey 
being done of all the schools right now on what is their 
veteran population and what concerns the veterans are having in 
those schools. That is actually being done as we speak. So, you 
know, as soon as I get that information to you. And I have a 
lot of ideas in my head that I will be getting to you very 
soon.
    Mr. Donnelly. Thank you.
    [The following was subsequently received from Mr. 
Campbell:]

    Aside from the provisions contained in H.R. 2910, this issue brief 
was published by the Student Veterans of America and contains a list of 
issues facing student veterans, which appears on p. 71.

    Mr. Chamrin. If I may just to follow-up with this. A lot of 
these problems are with Reserves and National Guard members. 
And it falls in line with the deployment cycles and all these 
deployment cycles are in limbo.
    So, you have a Reserve member who is hearing whispers or 
might know that their unit is going to get deployed, so they 
voluntarily withdraw from school instead of being in school for 
2 or 3 months and then getting withdrawn, let us say, in 
November which is the full-time middle of your semester.
    So, passing this legislation will provide legislative 
protection of these people rather than having them to volunteer 
to withdraw from school.
    I can personally attest that I withdrew from school after 
9/11. I was told I was going to Afghanistan. I did not go to 
Afghanistan. I was out of school for 3 full years and finally 
went to Iraq in 2003. I did have a lot of military duty in 
between those times. But if I went to Afghanistan right away, 
it would have made more sense rather than withdrawing from 
school for 3 full years.
    Mr. Donnelly. Well, and, you know, thank God for the 
success we are having. But in my home State of Indiana over the 
Christmas break, we sent off 3,400 more members of the Guard. 
We actually had a send-off at the RCA Dome where the Colts play 
football. Twenty-five thousand family members, 3,400 Guard 
members heading to Iraq.
    And so I am sure they have been for the last X number of 
months because it has been talked about for a year, the last X 
number of months in a position where they are doing those kind 
of things of wrapping everything up.
    So the more assistance you can give us in putting together 
solid legislation, we would really appreciate it.
    Mr. Campbell. And I will also give you a copy of our 
deployment guide. We have designed a deployment guide for 
deploying servicemembers because, you know, it is not just 
school. It is, you know, cell phone contracts. It is rents. 
There are a lot of different issues that people face that we 
can address.
    Mr. Donnelly. Thank you.
    Thank you, Madam Chairman and Ranking Member.
    Ms. Herseth Sandlin. Thank you to all of my colleagues on 
the Subcommittee and to Mr. Campbell and Mr. Chamrin in 
particular for your perspectives on this issue. It would be 
very helpful to the Subcommittee and to staff to see your 
recommendations on how we can clear some hurdles.
    In the fall of 2003, I was on the faculty of South Dakota 
State University and one of our National Guard units was 
deployed at the end of November. One of my students came up to 
me due to anxiety, just to ask whether or not the faculty, in 
their discretion, would give a grade and credit for what he had 
done for most of the semester. That decision was left to the 
discretion of the faculty members.
    They were getting different responses from the faculty, as 
to whether or not the faculty would even give them a grade or 
give them an incomplete for the semester, based on the fact 
that they were mobilized. There was anxiety on that front as 
well as all of the other issues prior to mobilization and 
deployment.
    These hurdles, that they are facing when they get back, are 
just a small taste of what one of these young men goes through 
on the front end as well as what he goes through on the back 
end, because he subsequently interned in my office when he 
returned and helped us understand what was happening to people 
similarly situated. I think this information will be very 
helpful to us.
    Certainly, as was noted at the beginning, we want to 
continue to make progress on updating and modernizing the 
benefits. We also know that we can be helpful in hopefully 
clearing out these hurdles that some folks are facing through 
different avenues, whether it is ultimately an amendment to an 
existing statute or through other avenues.
    Thank you both.
    Let me ask a couple of questions on the month-to-month 
entitlement proposal. First, Colonel Norton, could you address 
what Mr. Campbell was saying, and some of the changes we have 
made in the NDAA? Also, could you address some of his concerns 
about how a month-to-month process would stack up against 
structuring this differently, either on the administrative side 
or the overall benefit side? Finally, could you talk a little 
bit more about your thoughts and the importance of structuring 
this month-to-month?
    Colonel Norton. I think the principle there is to earn 
Montgomery GI Bill entitlement as you serve, earn as you serve. 
Right now under REAP, under Chapter 1607, a Reservist who 
serves 90 days consecutive active duty earns a very generous 40 
percent of the active-duty GI Bill. To us, that is 
disproportionate to a total force approach to the Montgomery GI 
Bill.
    And besides, over time, Reservists are, under operational 
reserve policy, going to serve multiple tours of 12 months 
each. That is the policy. Secretary Gates announced it last 
January. Many Reservists, now 142,000 since 9/11, have already 
served multiple tours.
    So if you use a month-for-month benefit, a month-for-month 
cumulative entitlement, you basically are matching operational 
reserve policy with Montgomery GI Bill entitlement because it 
gets very squirrely and very confusing to do percentages when 
you are aggregating cumulative tours of active duty over many 
years of Reserve service.
    And so that, I think, is the issue and the reason why 
month-to-month would be a more consistent, fairer benefit, 
fairer to active duty and fairer ultimately to Reservists who 
acquire what we call 36 ``Wheaties box tops.'' Thirty-six 
months of cumulative active duty should equal the full active-
duty GI Bill.
    Ms. Herseth Sandlin. In your opinion, would there be more 
administrative ease associated with that?
    Colonel Norton. Much less administrative hassle in doing 
that. Percentages are a nightmare to calculate out and they 
ultimately, I think, really are unfair to operational 
Reservists.
    Ms. Herseth Sandlin. Mr. Campbell.
    Mr. Campbell. Right now servicemembers who are deployed 
understand the REAP Program. I mean, this is what they have 
been getting their education benefits based off of. And, you 
know, I have been in the Guard for 5 years. In about 3 days, it 
will be 5 years. And I have only been deployed once. And I will 
have finished law school during that period of time.
    So the chances are most people, I have looked at the 
percentages, unless you are Air Force, you are only going to 
serve two tours within, let us say, the last 6 years. Air Force 
are serving shorter, but more often. Per capita, an Air Force, 
Air National Guard or Reservist is serving 2.4 tours versus an 
Army National Guard is serving 1\1/4\ tours at this point, so 
in the last 5 years.
    All I am saying with this is that if you look at the chart, 
at some point, you are going to see a precipitous dropoff. You 
are going to be getting a benefit that is really high 1 day and 
a benefit that is going to drop off about $880 a month the next 
day.
    Also, under the current law the way we have it set, you 
drop down to 1606 benefits. And as we talked about earlier, 
1606 benefits are not portable. So if you get out, if you 
separate, you are no longer entitled to Chapter 1606 benefits. 
So whatever active duty months you serve, that is all you are 
going to get.
    Now, we talk a lot about fairness is that this is what 
people have been expecting and, you know, if you change the 
system, certain people who have served a 12-month tour are 
going to get less benefits overall. Like, if you do the math, 
if you look at the chart, over 36 months, if you have done a 
12-month on a month-to-month, you are going to get $3,000 less 
over the lifetime.
    So if you had done three tours, this is great. The month 
for month is perfect. But if you do just one 12-month tour or 
an 18-month tour, you are going to get less benefits overall 
than you would in changing to cumulative service.
    That is why I put them all here. It is very kind of 
complicated like looking at the numbers. But I have done the 
analysis. And for a 12-month tour and an 18-month tour or two 
9-month tours, you are going to get more benefit overall, over 
your 36-month period than you would on a month-to-month basis.
    And it is much easier to change it. It literally is 
changing a couple words. You say continuous. You cross it out. 
You write cumulative. And people understand the REAP program 
and no one is going to be looking at it going, man, I am going 
to get less money now. Everyone in this situation is going to 
get more money than they are right now versus a month-for-month 
program, some people are going to lose and some people are 
going to win. And I do not think that is fair.
    Ms. Herseth Sandlin. Mr. Hilleman, Mr. Chamrin, do you have 
any responses or thoughts on this particular question?
    Mr. Hilleman. Our view is that a simple fix to the current 
existing law would be to remove cumulative service and put in 
an aggregate service. Based on the difference between a month 
for month versus a simpler fix like that, they are both 
equitable solutions under the law, but the concern of a 
precipitous drop-off is legitimate.
    There are ways to structure a month-for-month program where 
there will not be a precipitous dropoff, but that would have to 
be funded at a specific level or tied to some percentage or 
tied to a specific rate throughout the duration of their 36 
months of eligibility.
    Mr. Chamrin. Madam Chair, I more or less agree with Colonel 
Norton that the month-for-month benefit is going to be a 
greater benefit. It is a delicate balance because we feel that 
the country is better served with the members actually doing 
the full-time active duty rather if you are going to be 
deployed multiple times. When you are overseas, you are in a 
better, how do I say it, more active capacity serving our 
country and earning benefits.
    So with the military having multiple deployments and having 
these people going over maybe 12 months here, 15 months there, 
or a cumulative of 30 months, overall, I think we are better 
serving our military by having these people go through this 
deployment instead of having a cumulative time of a percentage. 
You always want to make sure that it is the time served on 
active duty.
    It is rather complicated. And we do not have a solid answer 
on that. We want to best equip the Committee to make their 
decision.
    Ms. Herseth Sandlin. Does anyone have any further questions 
for the panel?
    [No response.]
    Ms. Herseth Sandlin. One final question. Does any member of 
the panel oppose making Chapter 1606 benefits portable for a 
10-year window?
    Colonel Norton. I would say, Madam Chair, that we have not 
officially opposed it, but I would say that under the principle 
of benefits commensurate with your service, Chapter 1606 is for 
a 6-year enlistment in the Reserve or the National Guard and 
for drill duty, drill training, and for 2 weeks of annual 
training. It is not an active-duty benefit.
    And since Reservists in 1606 status are 90 percent of the 
time in civilian life, they do not need a readjustment benefit. 
What we would, however, suggest is removing the 14-year in-
service limitation for 1606 so that if you have remaining 1606 
entitlement and you continue to serve in the Reserve and the 
Guard, as long as you serve, you could continue to use up that 
benefit. But once you leave, that benefit should cease.
    Ms. Herseth Sandlin. Thank you.
    Thank you to all of you, for your testimony, insights and 
answers to our questions. We look forward to continuing to work 
with you on all of the issues you addressed in your testimony, 
and the particular areas of interest directed to you by Members 
of the Subcommittee.
    Congratulations on finishing law school, Mr. Campbell.
    Mr. Campbell. Thank you.
    Ms. Herseth Sandlin. Many of us up here know how grateful 
we were when we finally finished law school or other graduate 
programs.
    Again, thank you all for your continued service to our 
Nation's veterans.
    I would now like to invite the second panel of witnesses to 
the table. We have Mr. Thomas Bush, Acting Deputy Assistant 
Secretary of Defense for Reserve Affairs, U.S. Department of 
Defense; Dr. Curtis Gilroy, Director for Accession Policy, 
Office of the Under Secretary of Defense for Personnel and 
Readiness, U.S. Department of Defense; and Mr. Keith Wilson, 
Director of Education Service for the Veterans Benefit 
Administration for the U.S. Department of Veterans Affairs.
    Welcome and thank you for being with us today. We 
appreciate having you back to the Subcommittee. Again, your 
written statement will be made part of the hearing record. So 
if you could limit your opening remarks to 5 minutes, we would 
appreciate that.
    Mr. Bush, you are recognized first for your opening 
statement.

STATEMENTS OF THOMAS L. BUSH, ACTING DEPUTY ASSISTANT SECRETARY 
  OF DEFENSE FOR RESERVE AFFAIRS, U.S. DEPARTMENT OF DEFENSE; 
    CURTIS L. GILROY, PH.D., DIRECTOR FOR ACCESSION POLICY, 
  MILITARY PERSONNEL POLICY, OFFICE OF THE UNDER SECRETARY OF 
    DEFENSE FOR PERSONNEL AND READINESS, U.S. DEPARTMENT OF 
DEFENSE; KEITH M. WILSON, DIRECTOR, EDUCATION SERVICE, VETERANS 
  BENEFIT ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                  STATEMENT OF THOMAS L. BUSH

    Mr. Bush. Thank you, Madam Chairwoman, Congressman Boozman, 
and Members of the Subcommittee. Thank you for the opportunity 
to share the views of the Department on proposed changes to the 
educational assistance programs for members of the National 
Guard and Reserve.
    First, I think it is important to understand why we are so 
interested in the retention aspects of the incentive programs. 
The basic commitment for a Guard and Reserve member is to serve 
in the Ready Reserve. The member incurs a commitment to serve 
in the Selected Reserve if he or she receives an incentive.
    The incentives we use to accomplish this are bonuses, loan 
repayments, which you heard in the previous panel, and the 
Montgomery GI Bill for the Selected Reserve. The Reserve 
Education Assistance Program or REAP also serves as a retention 
incentive as currently structured.
    As we review various proposals to change the incentive 
programs, we must determine if those changes help us or hinder 
us in managing the force.
    While our written statement provides detailed comments on 
each of the bills being considered by the Committee, I will 
quickly summarize key points of four bills that directly affect 
the Guard and Reserve.
    H.R. 2910 would amend the ``Servicemembers Civil Relief 
Act'' to prescribe in law practices instituted by DoD over 15 
years ago. Until I heard the previous panel, I was going to say 
that we had worked successfully with the education community 
through the State Governors and the Servicemembers Opportunity 
Colleges (SOC) to assist student Reservists in obtaining a 
refund that they paid for a semester they were unable to 
complete because of military service, receive partial credit, 
and allow Reservists the right to return to their institution 
following completion of service.
    We have never pursued a USERRA type legislation for 
education because in all our dealings with SOC and other 
institutions, our efforts appeared to be successful. We have 
always asked when people proposed legislation to identify the 
problem, give us examples. Mr. Campbell provided examples.
    H.R. 1211 would allow Reserve component members who accrue 
an aggregate of 2 years of active duty in a 5-year period to 
qualify for the Chapter 30 MGIB benefit. The concept of 
allowing a member to accumulate periods of service rather than 
serve continuously to qualify for benefits is a principle that 
is compatible and consistent with the Department's continuum of 
service construct. The continuum of service is designed to 
allow members greater flexibility in managing their military 
careers and to receive benefits commensurate with their level 
of service, whether their service is continuous or periodic.
    However, we defer to VA since this program is administered 
by the Department of Veterans Affairs.
    H.R. 2247 would repeal the 14-year limit and 10-year 
delimiting period under the Montgomery GI Bill-Selected Reserve 
(MGIB-SR) benefit and the 10-year delimiting period for 
disabled veterans under the REAP benefit.
    The Department supports eliminating the 14-year delimiting 
period provided the requirement for continued service in the 
Selected Reserve is retained. We also support repealing the 10-
year delimiting period under both Reserve Education Assistance 
Programs for members separated because of disability.
    I must note that section 3 of the bill, which would repeal 
the 10-year limit for disabled members under the MGIB-SR 
Program, also eliminates our authority to even pay disabled 
veterans.
    The Department does not support H.R. 1102 which would 
recodify Chapters 1606 and 1607 of Title 10 as a new Chapter of 
Title 38. It is neither helpful, nor do we believe it is 
appropriate, to make the Department of Veterans Affairs 
responsible for DoD recruiting and retention programs.
    As I stated in my oral remarks the last time I appeared 
before this Subcommittee, my boss, Secretary Tom Hall, has 
strongly advocated for improving the MGIB-SR benefits by 
restoring the benefit level to its previous relationship to the 
active-duty program and by eliminating the 14-year delimiting 
period for members who continue to serve in the Selected 
Reserve.
    We believe these changes would strengthen the program and 
serve our Reserve component members well while helping the 
Department achieve its force management objectives.
    On behalf of the 1.3 million members of the Guard and 
Reserve and all those who have served in the Guard and Reserve, 
I would like to thank each of you for all you have done to 
support them. I look forward to answering your questions.
    Ms. Herseth Sandlin. Thank you very much.
    Dr. Gilroy, you are now recognized.

                 STATEMENT OF CURTIS L. GILROY

    Mr. Gilroy. Madam Chair, Ranking Member Boozman, Members of 
the Committee, and the hardworking staff who sit behind, happy 
New Year to you as well. We are delighted to appear before you 
once again to discuss educational assistance programs in 
general and some specific legislative proposals in particular.
    As you know, my office has oversight for all active-duty 
enlisted recruiting across the country as well as officer 
commissioning programs. So my remarks will be limited to the 
active-duty force. I have three points to make.
    Point number one, the Montgomery GI Bill Program and the 
supplemental kickers, which combine with the basic benefit to 
form the service college funds, continue to be a cornerstone of 
our military recruiting efforts, attracting our prime--high-
aptitude youth with a high school diploma.
    As you know, money for college continues to be one of the 
most important reasons why young men and women enlist in the 
military today. Ninety-seven percent of new enlistees in the 
active-duty force have chosen to participate in the Montgomery 
GI Bill Program, and that is testimony to how important this 
program is.
    Point number two, today's Montgomery GI Bill has its 
lineage, as you very well know, in the post World War II GI 
Bill of Rights during which time, of course, we had a 
conscripted force. It was a different military force than we 
have today. Its purpose was to ease the transition of so many 
servicemembers to civilian life.
    Today, we have a volunteer military and we use the 
Montgomery GI Bill benefit for its original intended purpose to 
be sure. But we also use it for a different purpose. It assists 
us in recruiting and retaining the force--for force management 
purposes. That is an important point to make.
    Point number three, you asked us to specifically comment on 
some current legislation revising the MGIB, and how increases 
in benefit levels might affect the active-duty force.
    In and of itself, that would be a good thing for all 
members and we support that in principle, but the value of the 
educational benefit is important not only to the servicemembers 
themselves, but also in terms of its effect on recruiting and 
retention.
    The benefit, as I have testified before, has to be large 
enough to be an effective recruiting incentive but not too 
large as to seriously and adversely affect retention.
    There is a fragile balance that must be maintained between 
the benefit in terms of its effects on recruiting and 
retention. If the benefit is too large, for example, many 
members will leave after their first term. This lowers first-
term retention and reduces the number of petty officers and 
NCOs that we have in the force. It also puts more pressure on 
recruiting to back-fill for those losses.
    In addition, it also changes the force inventory or the 
force profile of the services, and that can adversely affect 
readiness.
    If the basic benefit is increased significantly beyond what 
I have called in past testimony the tipping point as these two 
bills would do, then retention will suffer and the services 
will then need additional incentives, retention incentives, if 
you will, to rebalance that relationship.
    We need to understand that there are not only significant 
budget implications to increasing the value of the benefit 
itself, but additional budgetary implications to bolster 
retention incentives.
    But we can pursue this tipping point issue in the Q and A 
period if you so desire.
    In conclusion, I appreciate the opportunity to appear 
before you today, and I thank the Committee for both 
promulgating and protecting the educational benefits for 
servicemembers and for veterans. And we all stand by to answer 
questions when we are through with our prepared remarks. Thank 
you.
    [The prepared statement of Mr. Bush and Mr. Gilroy appears 
on p. 54.]
    Ms. Herseth Sandlin. Thank you very much.
    Mr. Wilson, you are now recognized for 5 minutes.

                  STATEMENT OF KEITH M. WILSON

    Mr. Wilson. Thank you. And good afternoon.
    I appreciate the opportunity to appear before you today to 
discuss a number of bills that would affect educational 
assistance programs administered by VA. We have several to 
comment on, so I will dive right into it.
    H.R. 1102 would recodify the provisions of Chapter 1606 and 
Chapter 1607 relating to educational assistance for members of 
the Reserve components of the Armed Forces in Subchapters 1 and 
2 respectively of a new Chapter 38 entitled Chapter 33 in Title 
38 of the U.S. Code. The bill would also make substantial 
revisions to such provisions as so recodified.
    VA opposes H.R. 1102 as currently drafted. H.R. 1102 would 
create a VA role in the determination of those servicemembers 
that could qualify for kickers. This is a force management 
objective in which VA has no expertise and is correctly now 
within the jurisdiction of DoD.
    Recodification would result in some members becoming 
eligible for less benefits than those to which they are 
currently entitled.
    If enacted as currently drafted, H.R. 1102 would result in 
members of the Reserve forces receiving the same benefit for 90 
days of active service as those active-duty members earn for 3 
years of active service.
    VA estimates that if enacted, H.R. 1102 would result in an 
increase in VA's readjustment benefits appropriation request of 
$844.3 million for the first year and $8.4 billion over 9 
years. This increase reflects the change in appropriation 
structure requiring VA to increase its appropriation to cover 
the obligations associated with these payments.
    VA estimates the net impact of H.R. 1102 to the Federal 
Government would be an increase of approximately $416 million 
in the first year and approximately $4.9 billion over 9 years.
    VA's general operating expenses costs are estimated to be 
$7.3 million over 10 years. In addition to the policy objective 
stated above, we oppose this legislation because the direct 
costs involved are not included in the budget and the 
legislation does not identify corresponding offsets.
    Moreover, in order to ensure effective implementation of 
the proposed bill, VA would have to significantly enhance and 
replace existing accounting systems. We estimate approximately 
18 months would be needed to complete this process and we have 
no current estimation of the costs involved.
    H.R. 1211 would amend section 3012 of Title 38 to provide 
entitlement to educational assistance under Montgomery GI Bill 
active duty for members of the Selected Reserve who aggregate 
more than 2 years of active-duty service in any 5-year period 
commencing with the first active-duty orders received during 
the period September 11th, 2001, to December 31st, 2008.
    VA has concerns regarding section 2(d) as it is currently 
written. Under that section, the $1,200 initial contribution is 
collected during the first 12 months of active-duty service 
instead of at the end of the active-duty period.
    It follows, therefore, that the member would have to make a 
benefit election at the beginning of the deployment when 
unaware of whether he or she will ever see the aggregate 
active-duty period required to establish eligibility.
    Additionally, because of the potentially large direct costs 
without identified offsets, VA opposes this bill.
    H.R. 1214 would expand and enhance educational assistance 
under VA's Survivors' and Dependents' Educational Assistance 
programs under Chapter 35. VA does not support H.R. 1214 for 
several reasons.
    First, we do not believe it would be equitable to allow 
Chapter 35 recipients to receive far more benefit dollars up 
front than veterans, servicemembers, and Reservists who are not 
eligible to receive benefits under Chapter 35.
    There also would be a significant direct cost associated 
with Chapter 35 entitlement exempting the 48-month maximum 
entitlement rule.
    H.R. 2247 would eliminate time limitations for eligible 
individuals to use their educational assistance benefits under 
the Montgomery GI Bill. VA cannot support the bill's proposal 
to eliminate the current delimiting date provisions because no 
cost offsets have been identified to cover the potential costs 
due to a significant increase in usage.
    H.R. 2385 would establish in a new Chapter 33 of Title 38 
U.S. Code a new program of educational assistance for veterans 
who serve in the Armed Forces after September 11th, 2001, and 
would require enhancements in housing and entrepreneur 
assistance as well.
    VA opposes H.R. 2385. We believe this bill's provisions 
relating to deployment are vague and overly broad. Basing 
eligibility on active-duty location would create significant 
administrative burdens that could negatively impact our ability 
to timely and accurately deliver benefits.
    H.R. 2702 would add again a new Chapter 33 to Title 38 that 
would in general require an individual to serve at least 2 
years of active duty with at least some period of active duty 
served beginning on or after September 11th, 2001.
    VA has serious concerns about several provisions of H.R. 
2702 and, therefore, must oppose it. The complexity of the 
eligibility requirements, the anticipated high costs with no 
apparent offsets, and the anticipated excessive administrative 
burdens associated with this bill are all problematic.
    Madam Chair, this concludes my statement. I would be 
pleased to respond to any questions you or other Members of the 
Subcommittee may have.
    [The prepared statement of Mr. Wilson appears on p. 57.]
    Ms. Herseth Sandlin. Thank you, Mr. Wilson.
    I now recognize the Ranking Member for questions he may 
have for the panel.
    Mr. Boozman. Thank you. Thank you, Madam Chair.
    Mr. Wilson, do you have any data on when veterans begin 
using the GI benefits following their discharge?
    Mr. Wilson. I am not aware that we collect any information 
on that. I would be happy to see if we can do some data mining 
and come up with something though. At this point, I am not 
aware of any.
    [The following was subsequently received from VA:]

    We do not have data to fully answer this question.
    We are, however, able to identify general trends in usage. Our 
historical data shows that usage rates peak in the 2nd to 4th year 
after separation.

    Mr. Boozman. We were just curious as to when it kicked in. 
And, again there has been some discussion about the number of 
vets leaving school because of military orders and the problems 
that occurred.
    Do you have any numbers on that?
    Mr. Wilson. On the number of veterans that interrupt their 
training----
    Mr. Boozman. Yes, sir, or withdraw.
    Mr. Wilson [continuing]. Because of activations?
    Mr. Boozman. Yes.
    Mr. Wilson. We do not. We will work with the Department of 
Defense, though, to see if we can----
    [The following was subsequently received from VA:]

    VA does not track the overall population who withdraw from school 
because of active duty orders. We understand the DoD is unable to 
provide this information.
    However, the Defense Manpower and Data Center (DMDC) have data 
which demonstrate that 79,730 members of the Selected Reserve had used 
some of their MGIB-SR benefits before they were activated for the 
Global War on Terror.

    Mr. Boozman. It does not sound like that there is a large 
number, but we have heard testimony that in some cases, it 
appears to be a real burden so I guess we would like to follow-
up on that.
    Mr. Bush, is there a technical issue with the REAP 10-year 
provision in the NDAA? Can you kind of elaborate on that as to 
what is going on?
    Mr. Bush. Yes, sir. As we have looked at the 10-year post-
service benefit provision in the NDAA, and I assume that is 
going to be in the bill that was passed by the House and is 
being considered by the Senate now. The way that provision is 
written, it essentially requires the member, it allows the 
member to use the benefits for 10 years after they separate 
from the Selected Reserve. I am sorry. It allows a Selected 
Reserve member.
    So the first technical issue is, we have Individual Ready 
Reserve members that also serve that are not covered by the 
provision.
    The second issue is the 10-year time clock starts when the 
member separates from the Selected Reserve. The provision also 
says that they cannot receive the benefit until they have 
completed all their service obligation.
    As I state in my testimony, the service obligation is to 
serve in the Ready Reserve. So we may have people that leave 
the Selected Reserve, still have a service obligation, and 
cannot use the benefit until they separate.
    And generally when they leave the Selected Reserve, they 
still have a service obligation, and are put in the individual 
Ready Reserve. The provision does not cover individual Ready 
Reserve members. Therefore, there is no benefit for them.
    Now, the only way to get around that is for us to take a 
member that had the benefit, left the Selected Reserve, decides 
to separate, move them into the Selected Reserve for 1 day, and 
then separate them. That would create the benefit. Their clock 
would already have used up some of that 10-year period. It also 
then drives up our attrition rate artificially.
    The other concern with the provision in general is while I 
talked about the 1607 being a retention tool, with that 
transition provision in there, it looks exactly like the 
Chapter 30 benefit. It no longer serves a DoD recruiting and 
retention purpose, yet DoD is still responsible for paying for 
what is now a veteran's benefit.
    Mr. Boozman. Okay. Thank you, Madam Chair. We probably 
would have a couple more questions that we would like to submit 
in writing, if that is okay. Thank you very much.
    Thank you for your testimony.
    [No questions were submitted.]
    Mr. Bush. Yes, sir.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    We are facing some time constraints, since that series of 
votes took much longer than we anticipated, and some of the 
other questions I have I may submit in writing as well.
    I would like to thank the Ranking Member for his questions 
and his good work on the issue. I am glad you posed that 
question. I will follow-up on your point.
    Mr. Bush, I know the Department of Defense has long opposed 
that particular provision that made its way into the NDAA in 
terms of the 10-year portability. I appreciate that you 
identified some of the technical issues that hopefully we can 
work through.
    If we assume for the moment that the authorization is 
signed into law, and that provision remains in the final NDAA 
version, then your testimony suggests that Chapter 1607 no 
longer serves recruitment and retention goals. It appears to be 
a readjustment benefit.
    Mr. Bush. Yes, ma'am. That is exactly right.
    Ms. Herseth Sandlin. I understand the concern about the 
Department of Defense in terms of your budget and what is 
allocated to something that really is no longer serving a 
direct objective of DoD.
    Would you then continue to oppose recodification of Chapter 
1607 benefits to the VA and, therefore, we would deal with it 
in future budgets perhaps as it relates to the VA's budget?
    Mr. Bush. It certainly appears from the DoD perspective 
that it no longer belongs in Title 10.
    Ms. Herseth Sandlin. Thank you.
    Mr. Bush. If it no longer serves a recruiting and retention 
and force management purpose, we have no business being in the 
Veterans' Affairs area. And that is exactly where we are now.
    Ms. Herseth Sandlin. Okay. At the beginning of your 
testimony, you had mentioned one of the reasons you have not 
pursued, in the past, a USERRA type approach as it relates to 
the refunds and the protections for students as they are 
returning from deployment.
    In light of Mr. Campbell's testimony and other examples, we 
would look forward to working with you as well to find the best 
approach to deal with that subset of universities and colleges 
where we are seeing a problem and sharing information, and 
whether it is going to require a legislative fix. There are a 
lot of other questions we will be asking, and seeking answers 
to.
    I get the sense that you, and I think Mr. Campbell even 
acknowledged, that the vast majority of our colleges and 
universities are doing the right thing.
    Again, I would hope that we would have an opportunity to 
work with you, as well in terms of what has been most useful to 
you given the progress we have made and the good outcomes that 
we have, as it relates to communicating with, and perhaps 
looking at, legislation that may be necessary to ensure that 
all colleges and universities are doing the right thing by our 
servicemembers.
    Mr. Bush. Can I just comment on that?
    Ms. Herseth Sandlin. Please do.
    Mr. Bush. We have periodically over the course of the years 
looked at should we have some USERRA type protection for 
students. As I said, nobody was able to come up with concrete 
cases.
    We checked with SOC who is the primary agent that we have 
been working with to help student Reservists as late as 
yesterday. Actually, the number of people that have contacted 
them has gone down dramatically. They have very, very few cases 
at all, if any.
    There may be two problems. We may not be getting the word 
out. But if we have cases where people are not getting the 
protections, you know, the ability to reenroll in a school and 
we cannot do that through our voluntary efforts, then clearly 
we need some horsepower to do that and that horsepower is in 
the form of legislation. And we would be happy to work to 
create the appropriate legislation.
    Ms. Herseth Sandlin. I appreciate that very much because we 
have to reconcile the amount of reporting versus anecdotal 
evidence, and whether or not some of the folks that are 
returning from these particular deployments are expressing 
those views. Hence, what are the avenues they are using to 
communicate their problems? Obviously we have some examples out 
there.
    I appreciate your willingness to work with us recognizing 
that there may be a need for the horsepower of legislation. I 
see that you have already evaluated the possibility of having 
to use that in the past. So, thank you very much.
    You did defer to Mr. Wilson as it related to the 
administrative issues associated with aggregate versus 
periodic.
    Mr. Wilson, if you might address this issue, as it relates 
to some of the proposals that we have seen, whether it is 
month-to-month and the administrative ease versus the burden 
from your perspective. Also, please comment on the month-to-
month versus what we currently have in REAP, the issue of 
cumulative aggregate versus the consecutive and the periodic 
calculation of these benefits.
    Mr. Wilson. The issue of month-to-month is something that 
is going to have to be looked at very, very carefully. The 
first panel did a very good job, I think, of articulating some 
of the administrative challenges that individuals are dealing 
with right now. And I would concur with everything that they 
indicated.
    And, specifically, it is correct that some individuals, 
depending on their training situations, would end up receiving 
less benefits under a month-to-month benefit rather than a 36-
month flat rate.
    We also have concerns about how a month-to-month benefit 
would impact an individual's ability to actually meet a 
readjustment goal. An individual will go into school now or 
follow some type of training program knowing that he or she has 
have 36 months. When they go into the program, they know 36 
months. This is what I have to accomplish in 36 months.
    If they are achieving a month-to-month benefit, taking into 
account there is a lot of times no clear time at which a 
person's service necessarily stops, he or she could go back in 
and earn yet more months. There would be a concern, I believe, 
concerning how that would actually impact the ability to 
fulfill a training program that is established by the 
individual.
    The administrative burden of month-to-month would be 
something that we have no experience in as well. Generally 
speaking, all of the benefit programs have been an established 
length of time.
    Going back to the World War II program, the World War II 
program was somewhat different in that under the World War II 
program, an individual earned 12 months of benefits, plus time 
on active duty. So there was at least a baseline that an 
individual had to work from in addition to the months of 
benefit that they would earn due to their active duty.
    So a month-to-month would be very different for us. 
Currently we have no mechanism to track to the month of 
service. That is not reported from DoD to us through the 
electronic systems we have. We would have to create some type 
of mechanism to not just capture that information, but on an 
ongoing basis continue to capture that information for the life 
of the military commitment of the individual.
    Ms. Herseth Sandlin. Well, let me explore that for a 
moment. Based on what you just stated, under the current 
administration of Chapter 1607, there is transmission of 
information from DoD based on the percentages that are used to 
calculate the benefit, the time served on active duty, and the 
deployments.
    There is a system of sharing information in place that 
would be similar, as it relates to a month-to-month. Am I 
correct on how that is being communicated to the VA?
    Mr. Wilson. They report the length of time that an 
individual is on active duty. That is correct. My 
understanding, though, is that the goal going back to MOAA, and 
perhaps I misunderstand the question, is to apply the month-to-
month to all the benefit programs. And perhaps I misunderstood 
that point.
    Ms. Herseth Sandlin. That is a good question. We will 
clarify that, although, I think it is 1607.
    Mr. Wilson. Okay. If it was limited to the Reservist 
programs, it would make it somewhat easier, but we would still 
continue to have the issue of continued and follow on 
activations. So an individual would still face the problem of I 
do not how many months of benefit I am going to have when I 
decide to go into training program X.
    Ms. Herseth Sandlin. Okay.
    Mr. Bush. Madam Chairwoman, could I comment on that?
    Ms. Herseth Sandlin. Yes, please.
    Mr. Bush. Could I use just a couple examples? And I think 
from a DoD perspective, from a servicemember perspective, that 
is a disservice to our members. I will give you two scenarios.
    If I take the Air Force Air Expeditionary Force rotation 
cycle, 4 months on and there are four 4-month periods off and 
then 4 months on, month-to-month, they are going to get 4 
months. They will use that for 4 months and then they will have 
three 4-month periods in here where they are not eligible for 
any benefits. They will earn their next benefit at their next 
4-month rotation. So they will be in school with the benefit, 
out of school or in school with no benefit.
    Do the same math for our one-in-five rotation, which we are 
trying to get to for the Army, they earn 12 months worth of 
benefit if we activate them for 12 months. Come back. They use 
12 months. There is going to be 4 years here when there is 
going to be no benefit before they would earn another benefit.
    So I think what Mr. Wilson's point is, if I am trying to go 
to school and get a 4-year degree, I can pay for 12 months 
worth of that and that is it. That is the way I am 
understanding the month-for-month entitlement.
    Ms. Herseth Sandlin. I see what you are saying. Again, we 
will explore this more in follow-up questions. If we are 
talking about just Selected Reserve, however, for those who do 
not separate, there is the 1606 benefit that they can be 
utilizing continuously.
    Mr. Bush. That is correct. And that gets into the earlier 
testimony of the rate changing, having a higher benefit, coming 
back to smaller benefit if somebody signed up for the 1606 
benefit.
    Ms. Herseth Sandlin. Right.
    Mr. Bush. So it is contingent on that.
    Ms. Herseth Sandlin. One last question. This is very 
helpful testimony because I think we are trying to build on 
what we have accomplished and more of the issues of equity for 
Selected Reserve that have been brought to our attention, 
without neglecting the issue of reimbursement, higher 
reimbursement overall, which we have not focused on as much in 
this hearing, but we will continue to work with you in follow-
up questions.
    I did have one question on that topic, Dr. Gilroy. In the 
testimony that was submitted by both you and Mr. Bush, you 
stated that: ``This past year, the maximum benefit of the 
service college funds covered 140 percent of the average total 
expenses at a public 4-year university.''
    Can you tell me how many servicemembers qualify for that 
140 percent level, and how many go on to use it?
    Mr. Gilroy. Roughly, if I have my statistics right, I think 
the estimate is around 12,000 individuals. Those are 
individuals who not only take advantage of the MGIB basic 
benefit, but they also are offered a so-called kicker, a 
supplementary educational benefit.
    And I am very glad you brought this up, Madam Chair.
    Ms. Herseth Sandlin. Let me clarify this point.
    Mr. Gilroy. Yes, ma'am.
    Ms. Herseth Sandlin. The 12,000 individuals are those who 
qualify and go on to use it?
    Mr. Gilroy. They receive the benefit. Whether they use it 
or not, I do not know. That would be a Veterans Administration 
question, the usage of that benefit. But they do receive the 
benefit.
    Ms. Herseth Sandlin. Mr. Wilson, do you know?
    Mr. Wilson. I do not know, but we can work with DoD to----
    Ms. Herseth Sandlin. Get us that information.
    Mr. Wilson [continuing]. Mine the data. Yes.
    Ms. Herseth Sandlin. Okay.
    Mr. Wilson. We will provide you with those data.
    [The following was subsequently received from VA:]

        According to the DMDC, between Fiscal Year (FY) 2005 and FY 
        2007, 3,082 individuals have been offered the $950 kicker and 
        have a service obligation that will qualify them for the 3-year 
        Montgomery GI Bill-Active Duty (MGIB-AD) rate. Of those 
        individuals, 39 have begun to utilize their education benefits. 
        Please note that because this kicker was not offered until FY 
        2005, most will not claim their benefit until they have 
        completed their enlistment. The $950 kicker generally requires 
        a 5- or 6-year service obligation.

    Ms. Herseth Sandlin. Great. Please continue.
    Mr. Gilroy. Yes. I am glad you brought up the kicker 
portion of the educational benefit that because one of the 
reasons why my office has problems with H.R. 2702 and H.R. 2385 
is because in addition to raising the benefit for everyone to a 
relatively large level over and above what it is now, beyond 
the tipping point, they have also eliminated the so-called 
kickers.
    And why that is important is because the Army and the Navy, 
especially the Army, use these kickers to channel new recruits 
into critical military occupational specialties that are very 
hard to fill. Without those benefits, some of these jobs would 
go unfilled and they are very important for force readiness.
    We need more flexibility in our benefits package or our 
compensation package, not less flexibility. And this provision 
would decrease the flexibility that the services have, 
particularly the Army, in an especially challenging recruiting 
environment.
    Ms. Herseth Sandlin. Thank you.
    Thank you all for your testimony and your answers to the 
questions, and for your ongoing service to our Nation's 
servicemen and women, and our veterans across the country. We 
appreciate your insights, and look forward to working with you 
further on these topics.
    The hearing stands adjourned and we look forward to seeing 
you again soon.
    [Whereupon, at 4:18 p.m., the Subcommittee was adjourned.]
















                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman,
                  Subcommittee on Economic Opportunity
    Like many of my colleagues here today, I recently had the 
opportunity to meet with local government officials and veterans back 
in my home state of South Dakota. During one of my meetings, I had the 
opportunity to speak with the leadership staff of South Dakota Governor 
Mike Rounds and the South Dakota Adjutant General (Major General Steven 
Doohen) about ways to improve existing veterans programs.
    In particular, we discussed this Subcommittee's efforts to update 
the Montgomery GI Bill and the provision we have worked on with the 
House Armed Services Committee Members to expand education benefits to 
our Reserve Forces.
    While the future of the National Defense Authorization Act for 
fiscal year 2008 is unclear, we in this Subcommittee remain committed 
to improving the educational assistance programs for our nation's 
servicemembers, veterans and their dependents.
    Currently, NDAA fails to include language to recodify Chapters 1606 
and 1607 from the authority of the Department of Defense to the 
Department of Veterans Affairs. While this is a disappointment to all 
those advocating for this change, I am glad that we did succeed in 
making progress for our Nation's Reserve Forces. Included in the final 
version of the NDAA, we were able to gain bipartisan support for 
language that would allow certain members of the Reserve Forces to use 
their REAP education benefits during the 10-year period beginning on 
the date which they separated.
    Today's hearing will focus on several bills that have been 
identified as containing components advocated by the veteran community. 
I appreciate the positive response of the VSOs in helping us identify 
the areas of interest by submitting their top five legislative 
priorities for us to review as we consider updating existing Montgomery 
GI Bill entitlements.
    I look forward to working with the Members of this Subcommittee, 
and our colleagues in Congress to streamline, update and expand 
existing MGIB entitlements.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member, 
                  Subcommittee on Economic Opportunity
    Good afternoon everyone. Madam Chairwoman, I appreciate your 
bringing us together to discuss the future direction of the GI Bill. As 
in the other programs under our jurisdiction, GI Bill education and 
training benefits provide veterans and surviving dependents with the 
opportunity to achieve financial independence outside of any other VA 
benefits they may receive. According to the College Board, those with a 
bachelor's degree will make at least $1 million more over a lifetime 
than someone with a high school diploma. Clearly, it pays to invest in 
education and training for veterans.
    You and I have held several hearings on this subject over the last 
three years and we have heard from literally dozens of witnesses about 
the need to make changes to reflect today's operational environment. 
Today, members of the National Guard and Reserves are carrying a huge 
portion of the War on Terrorism and if nothing else, I hope we can find 
a way to improve their benefits in a way that reflects their expanded 
role in our Nation's defense.
    I am very concerned that 30% of those who sign up for the GI Bill 
never use a penny of the benefit. There are many reasons they don't use 
their GI Bill benefits, some of which would be difficult to overcome, 
but I think we can reduce that 30% to a significantly lower number by 
adding flexibility to the program and I want to work with you on that.
    Several of today's bills would pay veterans what is described as 
the full cost of education. If that is to be our goal, I think we need 
a real understanding of the true cost of education to a veteran 
considering the many sources of financial assistance available today.
    For example, according to the College Board, the average tuition 
and fees at a public 4-year institution is about $5,800 and about 
$2,300 at 2-year schools. Board data also shows that 65% of all 
students attend 4-year schools with tuition and fees below $9,000 per 
year, 56% attend public 4-year schools with tuition and fees ranging 
from $3,000 to $6,000 per year. Finally, the College Board data 
indicates 41% of all students attend a 2-year school with a net cost, 
considering all forms of aid at less than $100. I am quoting those 
figures to show that the full cost of tuition and fees varies 
significantly and there are opportunities to attend a wide variety of 
schools at reduced cost. Obviously, room and board costs will add to 
those costs bringing the 4-year public IHL average to about $14,000 per 
academic year.
    Today, there is a mix of Federal, state and institutional financial 
aid packages available today that did not exist for earlier generations 
of veterans. Let's consider just one option and that is the Pell Grant 
program. The max grant is now about $4,300 per school year. If the 
grant program did not consider military pay, most freshly discharged 
veterans would qualify for the full amount. The Pell Grant program also 
includes several income waivers for veterans that would allow a vet to 
work part time without impacting the Pell Grant amount. So, between the 
GI Bill and Pell Grant, a vet could receive over $14,000 for a standard 
9-month school year and that would not include any ``kickers'' or buy-
up amounts or other Title 4 education benefits. It is also important to 
recognize that many states offer significant education benefits to 
veterans or those on active duty or serving in the Guard.
    There is some good news. VA has significant progress in lowering 
the processing time for original and supplemental claims for education 
benefits. In FY 07, VA averaged about 32 days for an original claim. 
Today it averages about 23 days. Supplemental claims are down to under 
10 days from 13 last year. I wish the folks at C&P could do as well. I 
note the Education Service has achieved a high level of automation to 
accomplish that decrease and again, C&P should follow suit.
    Finally, Madam Chairwoman, you and I would make many improvements 
if we had the paygo offsets. However, paygo is a fact of life we must 
live by until Congress changes the budget rules. There are lots of 
education bills out there, some of which are estimated to cost up to 
$75 billion over 10 years. That type of legislation does not appear 
within the realm of possibility under paygo.
    I yield back.

                                 <F-dash>
               Prepared Statement of Hon. Susan A. Davis,
       a Representative in Congress from the State of California
    The Veterans Education Tuition Support Act or H.R. 2910 addresses 
some of the difficulties our military personnel face when they are 
activated while attending college.
    Thousands of military reservists have been activated to fight in 
Iraq and Afghanistan directly from their college campuses. In fact, 
students at 82 percent of colleges and universities in the United 
States have been called to serve since military operations began in 
Iraq and Afghanistan.
    Yet only 26 states have laws on the books to protect the interests 
of these students while they serve their country, according to the 
Congressional Research Service.
    Unfortunately, as a result, students who serve in the military 
sometimes face unique hardships when called upon to defend the United 
States.
    The majority of colleges and universities refund tuition and fees 
to students when the activation occurs during the academic calendar. 
However, instances have occurred when a servicemember has not been 
reimbursed for lost tuition and fees.
    Servicemembers have also been known to face difficulties 
reregistering for classes after returning home after the deployment. In 
addition, activated military personnel have received collection notices 
for student loans while serving in combat zones.
    Our brave men and women in uniform should not face this additional 
stress while serving in a combat situation.
    The goal of the VETS Act is to provide servicemembers with certain 
rights when they delay their educational pursuits for the important 
cause of defending our country.
    The legislation adds to the Servicemembers Civil Relief Act to 
protect the student servicemember.
    Specifically, H.R. 2910 treats student loan debt the same way it 
treats other forms of debt by capping interest at 6 percent during 
deployments.
    The legislation also requires colleges and universities to refund 
tuition and fees for unearned credit, and in addition, guarantee our 
servicemembers a place when they return to school.
    Finally, the legislation would give servicemembers 13 months to 
begin paying their student loans after an activation should they decide 
not to return to school immediately.
    The deferment will give them time to readjust back to civilian life 
should they decide they need extra time to go back to school. I am 
pleased to report that the 13-month loan deferment was included in the 
College Cost Reduction Act signed into law last year.
    I am hopeful we can act soon to pass the other provisions of the 
VETS Act so servicemembers will know that they can return to school 
after serving their country.
    The VETS Act is centered on the recommendations made by the Iraq 
and Afghanistan Veterans of America (IAVA) based on the experiences of 
the group's members. I am pleased to have worked with Patrick Campbell 
who is testifying today to make sure the bill would give our men and 
women in uniform the protections they need and deserve.
    I would like to thank Chairwoman Herseth Sandlin and Ranking Member 
Boozman for bringing H.R. 2910 forward today and look forward to 
working with the Subcommittee on the legislation in the future.
                               __________
                         AMENDMENT TO H.R. 2910
                  OFFERED BY MRS. DAVIS OF CALIFORNIA
Applicability
    Page 7, line 15, insert before the period the following: ``that 
participates in a loan program under Title IV of such Act (20 D.S.C. 
1070 et seq.)''.

                                 <F-dash>
Prepared Statement of Colonel Robert F. Norton, USA (Ret.), Deputy Direc
                                  tor,
     Government Relations, Military Officers Association of America
    Madam Chairwoman and Distinguished Members of the Subcommittee, on 
behalf of the nearly 368,000 members of the Military Officers 
Association of America (MOAA), I am honored to have this opportunity to 
present the Association's views on Montgomery GI Bill (MGIB) 
legislation before the Subcommittee.
    MOAA is an original founding member of the Partnership for 
Veterans' Education, a consortium of military, veterans, and higher 
education groups who advocate for passage of a ``total force'' approach 
to the Montgomery GI Bill to meet the needs of our operating forces--
active duty, National Guard and Reserve--and veterans in the 21st 
Century.
    MOAA does not receive any grants or contracts from the Federal 
Government.
Executive Summary
    MOAA appreciates the commitment of this Subcommittee to improving 
educational benefits under the Montgomery GI Bill (MGIB) for our 
Nation's returning warriors. The pending National Defense Authorization 
Act (NDAA) for FY 2008 (H.R. 1585) includes significant MGIB upgrades 
for National Guard and Reserve service women and men called to serve 
the Nation on active duty in contingency operations. MOAA hopes that 
these positive steps will presage more comprehensive upgrades to the 
MGIB this year.
    An addendum to this Statement presents MOAA's ``top 5'' MGIB 
priorities for 2008.
    MOAA's position on the seven bills under consideration at this 
hearing follows:

    H.R. 1102 (Rep. Vic Snyder, D-AR). MOAA strongly endorses a ``total 
force'' approach to the MGIB. Active duty and reserve MGIB programs 
should be combined in Title 38 U.S.C. so that one Committee of 
jurisdiction can set benefit rates in proportion to the length and type 
of duty performed by all members of our armed forces. MOAA endorses 
Chairman Filner's H.R. 4889 as an important step toward putting the 
MGIB under one Committee of jurisdiction. H.R. 4889 would recodify the 
reserve active duty MGIB program in Chapter 1607, 10 U.S.C. into Title 
38.

    H.R. 1211 (Rep. Jim Matheson, D-UT). MOAA strongly endorses the 
principle of aggregation of MGIB entitlement for multiple active duty 
tours by operational reservists. The pending FY 2008 NDAA (H.R. 1585) 
establishes the principle of cumulative MGIB entitlement for reservists 
for multiple call-ups. However, the NDAA would only authorize 80% of 
the active duty MGIB for 36 months aggregate active duty service. 
Thirty-six months of such service should yield full MGIB benefits at 
the three-year rate, currently $1,101 per month for full-time study. 
MOAA strongly recommends changing the rate formula for Chapter 1607 
benefits from a percentage formula to ``month-for-month entitlement'' 
for each 90 days or more of active duty service.

    H.R. 1214 (Rep. Jim Ramstad, R-MN). MOAA supports the generous 
increases in survivor and dependents educational assistance program 
benefits (Chapter 35) but we are concerned that veterans themselves 
would receive disproportionately less benefits under current law.

    H.R. 2247 (Rep. Rick Larsen, D-WA). MOAA supports extending the 10-
year readjustment period for post-service use of MGIB benefits or 
eliminating any time limit on such use. MOAA supports repealing the 14-
year limit on use of basic reserve MGIB benefits, but only for in-
service usage, consistent with the principle of scaling benefits 
according to the length and type of duty being performed.

    H.R. 2385 (Rep. Patrick Murphy, D-PA). MOAA endorses a number of 
the upgrades in this bill but we recommend the Subcommittee endorse the 
position long espoused by the 49-member Partnership for Veterans' 
Education, namely that MGIB rates should be set at the national average 
cost of a four-year public college or university education. MOAA is 
opposed to the bill provision that would limit eligibility to all 
volunteer force members who happen to have `deployed overseas.'

    H.R. 2702 (Rep. Bobby Scott, D-VA). MOAA endorses a number of the 
upgrades in this bill but we recommend that MGIB rates be set at the 
national average cost of a four-year public college or university 
education.

    H.R. 2910 (Rep. Susan Davis, D-CA). MOAA strongly endorses 
establishment of statutory protections for returning student-reservists 
under the Servicemembers Civil Relief Act.

 H.R. 1102. Total Force Educational Assistance and Integration Act of 
                                  2007

    H.R. 1102 would establish an integrated approach to structuring 
MGIB benefits for active duty, National Guard and Reserve service men 
and women.
    Essentially, H.R. 1102 would:

    <bullet>  Recodify Chapters 1606 and 1607 of Title 10 U.S.C. (armed 
forces laws) in Title 38.
    <bullet>  Establish a 10-year readjustment period for MGIB benefits 
earned by Guard and Reserve veterans who serve on active duty under 
contingency operation orders (pending in the NDAA for FY 2008--H.R. 
1585).
    <bullet>  Change the formula for calculation of benefit amounts 
under Chapter 1607 from a percentage to month-for-month entitlement 
based on the active duty MGIB rate (Chapter 30, 38 U.S.C.) for each 90 
days consecutive active duty period served.
    <bullet>  Make other improvements, administrative corrections and 
conforming amendments.

    MOAA strongly supports the underlying principle in H.R. 1102 that 
MGIB programs should be re-aligned with the realities of military 
service in the 21st century.
    H.R. 1102 would restructure the MGIB under a ``total force'' 
approach to the MGIB. MOAA and the Partnership for Veterans Education 
have long endorsed a streamlined architecture for the MGIB that would 
simplify and clarify benefit rates and enable better support for 
military recruitment and readjustment outcomes, as intended by 
Congress. The total force MGIB would create three benefit levels or 
tiers based on the type and length of duty performed.

    <bullet>  Tier one, the Active Duty MGIB (Chapter 30, Title 38). 
Individuals who enter the active armed forces under two-year or longer 
enlistment contracts earn MGIB entitlement, unless they decline 
enrollment.
    <bullet>  Tier two, the Selected Reserve MGIB (presently, Chapter 
1606, Title 10)--MGIB benefits for a 6-year enlistment or reenlistment 
in the Guard or Reserve. Chapter 1606 would be recodified under Title 
38. The Subcommittee of Economic Opportunity, House Committee on 
Veterans' Affairs, would adjust benefit rates from time to time in 
proportion to active duty rates. Historically, Selected Reserve 
benefits have been 47-48% of active duty benefits (vs. today's 29%).
    <bullet>  Tier three, Reserve Educational Assistance Program 
(presently, Chapter 1607, Title 10),--MGIB benefits for members of the 
Guard/Reserve who serve on active duty under ``contingency operation'' 
orders. Chapter 1607 would be recodified in Title 38. The rate 
structure would be adjusted to ``tier one'' benefits (currently, $1,101 
per month) for each month of activation after 90 days active duty, up 
to a maximum of 36 months for multiple call-ups.

    A servicemember would have up to 10 years to use remaining 
entitlement under Tier One or Tier Three programs upon separation or 
retirement. A Selected Reservist could use Chapter 1606 entitlement 
only while continuing to serve satisfactorily in the Selected Reserve. 
However, Reservists who subsequently qualified for a reserve retirement 
or were separated/retired for disability would have 10 years following 
separation to use such benefits.
    In accordance with current law, in cases of multiple benefit 
eligibility, only one benefit could be used at one time, and total 
usage eligibility would extend to no more than 48 months.
    Technical Issues. H.R. 1102 contains a number of technical errors. 
For example, H.R. 1102 would inappropriately transfer reserve MGIB 
``kicker'' funding authority to the Veterans Affairs Committees--
kickers are enhancements to MGIB benefits for enlistment in designated 
skills. This and other technical `glitches' are resolved in section 525 
of the House-passed version of H.R. 1585. Importantly, section 525 
would authorize the recodification of Chapters 1606 and 1607 into Title 
38 on a cost-neutral basis.
    MOAA strongly supports recodification of reserve MGIB programs in 
Title 38. As a first step toward this outcome, MOAA endorses H.R. 4889, 
a bill that would recodify Chapter 1607 in Title 38. MOAA also strongly 
endorses changing the Chapter 1607 rate mechanism to month-for-month 
entitlement of Chapter 30 benefits for multiple tours of active duty of 
90 days or more up to a maximum of 36 months entitlement.

    H.R. 1211, Resuming Education After Defense Service Act of 2007

    H.R. 1211 would authorize reservists who serve on active duty in 
contingency operations to accrue multiple tours of active duty up to 24 
months toward basic MGIB entitlement at the two-year rate under Chapter 
30.
    H.R. 1211 would entitle such individuals to one month of 
educational assistance for each month served on active duty. The bill 
would make the amount of such assistance equivalent to that provided 
for active-duty personnel who have served a minimum of two years of 
active duty. Entitlement would require the basic pay of qualifying 
members to be reduced by $100 for each of the first 12 months of such 
active duty service.
    In keeping with today's ``operational reserve'' policies, MOAA 
would recommend the following adjustments to the provisions of H.R. 
1211. First, strike the December 31, 2008 sunset clause.
    Second, allow MGIB benefit aggregation up to three years (36 months 
active duty service) vice two years. Secretary of Defense Robert Gates 
announced a modification of ``operational reserve'' policy on January 
19, 2007. The new policy requires reservists to be activated on the 
basis of ``one year mobilized to five years demobilized ratio.'' The 
Secretary added that ``today's global demands will require a number of 
units to be remobilized sooner than this standard.''
    In light of this policy change, MOAA recommends that MGIB 
aggregation should be permitted up to the point when a reservist has 
served 36 months of active duty service over multiple call-ups. Doing 
so would qualify the reserve veteran with the MGIB at the full three-
year rate. Since 9/11, over 600,000 reservists have served on active 
duty including more than 142,000 who have multiple tours. In many 
cases, operational reservists will serve three or more years on active 
duty over a 20-year career. Their active duty service should aggregate 
toward full MGIB entitlement when they have 36 months of cumulative 
service.

        H.R. 1214, Veterans' Survivors Education Enhancement Act

    H.R. 1214 would increase survivors' and dependents' educational 
benefits (DEA) under Chapter 35, 38 U.S. Code to $80,000 and permit 
dependent children to draw from this amount for during any time between 
the ages of 17 and 30.
    The bill also would permit lump-sum payments ``in any amount'' up 
to the new limit for institutional coursework or training, on-the-job 
training, correspondence courses, special educational assistance and 
farm cooperative programs. The bill, then, appears to eliminate DEA 
monthly rates for allocating educational benefits under Chapter 35. 
Presently, DEA participants can receive 45 months of benefits at up to 
$881 per month, a total of $39,645 for full-time study or training.
    MOAA supports the intent of H.R. 1214. We are also grateful for 
earlier Congressional action (2004) that raised DEA rates and 
authorized survivors to access remaining DEA benefits for up to 20 
years after the death of the sponsor.
    MOAA is concerned, however, over the concept of creating benefits 
under DEA that are substantially more generous than those authorized 
for veterans themselves. H.R. 1214 would authorize up to $80,000 in 
lump-sum payments for coursework or training compared to $39,636 in 
Chapter 30. Veterans have only 10 years after service to use their 
benefits. Survivors have 20 years to access their DEA benefits. Under 
the bill, dependent children would have 13 years to use their benefits 
between the ages of 17 and 30 under the bill.
    MOAA supports the intent of H.R. 1214 and recommends that basic 
MGIB benefits be upgraded proportionally, including authorization of 
lump sum payments and extension of the readjustment period.

       H.R. 2385, the 21st Century GI Bill of Rights Act of 2007

    H.R. 2385 would entitle certain servicemembers, including National 
Guard and Reserves, to basic educational assistance under the MGIB who 
(after September 11, 2001) are deployed overseas; or serve for an 
aggregate of at least two years or, before such period, are discharged 
due to a service-connected disability, hardship, or certain medical 
conditions. The bill would entitle such individuals to 36 months of 
educational assistance; authorize a ten-year readjustment period to use 
the benefits after discharge; and for other purposes.
    H.R. 2385 has features that are similar in some respects to H.R. 
2702 (see following section). However, H.R. 2385 would set educational 
payment rates at the ``national average amount of tuition regularly 
charged for full-time pursuit of programs of education at public and 
private institutions [emphasis added] of higher education'' (Section 
3313(h)(2)).
    H.R. 2385 would create a parallel or alternative educational 
assistance program to the MGIB--rather than upgrade or improve benefits 
under the latter.
    In addition to the issue of the ``deployed'' criterion, the bill 
would essentially replace the MGIB for post-9/11 service until the 
current national emergency/war on terror is ``won'' or concluded in 
some way. The duration of earlier conflicts such as the Korean War, 
Vietnam War and Gulf War I indicate that the program proposed under 
H.R. 2385 might coexist alongside the MGIB for years and cause 
confusion for recruiting purposes and the effective administration of 
the MGIB.
    MOAA does not support the provision in H.R. 2385 that restricts 
benefit entitlement to All Volunteer Force service men and women who 
happen to have ``deployed overseas'' (Subchapter II, section 3311) 
since 9/11. Since World War II, deployment status has never been a 
criterion for GI Bill entitlement.
    MOAA believes that H.R. 2385 illustrates the need to develop a 
coherent ``total force'' approach to structuring the MGIB for all 
members of the volunteer force who serve the nation in peace and war.

  H.R. 2702, the Post-9/11 Veterans Educational Assistance Act of 2007

    H.R. 2702 would establish ``wartime'' service GI Bill benefits that 
would permit service men and women who serve or have served since 9/11 
and who meet the requisite active duty service requirements to be 
reimbursed for a substantial amount of their schooling or education.
    Reimbursement rates would be calculated on ``the maximum amount of 
tuition regularly charged in-state students for full-time pursuit of 
programs of education by the public institution of higher education in 
the State in which the individual is pursuing such program of education 
that has the highest rate of regularly charged tuition for programs of 
education among all public institutions of higher education in such 
State'' (Section 3313(j)(2)). Under the bill, rates would vary 
considerably for veterans based on a state-by-state calculation of the 
highest in-state tuition costs. Veterans would likely re-locate to 
states where the reimbursement rates were more generous.
    Veterans would receive a $1,000 per month stipend for 36 months. 
Veterans would have up to 15 years after their service to exhaust 
entitlement.
    National Guard and Reserve ``wartime'' veterans with qualifying 
active duty service would be entitled to the benefits described in the 
bill if they completed 24 months of consecutive active duty service.
    In MOAA's view, H.R. 2702 has some very attractive features 
including raising GI Bill benefit rates, eliminating the $1,200 payroll 
reduction, extending the post-service usage period (to 15 years), and 
establishing a readjustment benefit for mobilized reservists.
    MOAA has a few concerns over certain provisions in H.R. 2702 that 
are similar to our concerns over H.R. 2385 (above). MOAA does not 
support restricting the benefits proposed in the bill for ``wartime'' 
service as indicated. Only in the case of service-connected 
disabilities should educational benefits be differentiated for our 
volunteer force men and women, not the period of their service or their 
deployment status.
    The bill also creates the dilemma of a new GI Bill operating 
alongside the current MGIB--see similar comment regarding H.R. 2385 
above. In addition, the payment metric proposed is likely to cause lots 
of confusion since reimbursements could vary widely from state to 
state. The Veterans Benefits Administration would have to constantly 
re-calculate reimbursement rates for veterans.
    Another shortcoming in H.R. 2702 is the absence of MGIB ``kicker'' 
authority for the military services--section 3015(d), 38 U.S.C. DoD has 
long used financial incentives--``kickers''--as tools to distribute 
military manpower into high demand skills needed for readiness. Kickers 
have proven very effective in combination with the MGIB to support 
armed forces recruiting goals.
    Early in this decade, former Committee Chairman Chris Smith (R-NJ) 
oversaw efforts to upgrade the MGIB over a three-year period. If a 
similar approach were adopted by the Subcommittee for H.R. 2702, MOAA 
would recommend in priority order:

    1.  Base MGIB rate increases on the national average cost of a 
four-year public college/university education. Dept. of Education data 
indicate the MGIB currently covers about 75% of the cost of attendance 
including in-state tuition, required fees, and resident student room 
and board.
    2.  Authorize cumulative month-for-month entitlement up to 36 
months under the MGIB (Chapter 30, 38 U.S.C.) for reservists who serve 
on multiple active duty tours in contingency operations. (See 
discussion, above, on H.R. 1211).
    3.  Extend the post-service readjustment period to 15 years or 
more, or eliminate the time limit. (See H.R. 2247, below).
    4.  Eliminate the $1,200 payroll reduction for active duty service 
entrants.
    5.  Establish a monthly living expense stipend over and above 
educational reimbursement rates.

           H.R. 2247, Montgomery GI Bill for Life Act of 2007

    H.R. 2247 would repeal the 10-year delimiting date on post-service 
use of MGIB benefits (Chapter 30 entitlement). The bill also would 
repeal the 14-year limitation on basic reserve benefits (Chapter 1606) 
for inactive duty (drill) service. H.R. 2247 creates lifetime 
entitlement to remaining Chapter 1607 benefits for reservists who have 
such entitlement and become disabled.
    MOAA supports extending the 10-year limitation on post-service use 
of remaining MGIB entitlement, or eliminating any such time limit. We 
note that survivors have 20 years to use Survivors and Dependents 
Educational Assistance benefits (Chapter 35). (H.R. 2702, above, would 
extend the delimiting date to 15 years).
    MOAA strongly supports lifetime entitlement for all disabled 
service men and women (not only reservists disabled after being 
activated); accordingly, we recommend coordination of this change with 
the provisions of the Vocational Rehabilitation Program under Chapter 
31, 38 U.S.C.
    MOAA supports repeal of the 14-year in-service-only limitation on 
basic reserve benefits (Chapter 1606) for inactive duty service only. 
We do not support establishment of a lifetime, post-service benefit for 
inactive duty service benefits, consistent with the total force MGIB 
principle of scaling benefits to the length and type of duty performed.

       H.R. 2910, Veterans Education Tuition Support Act of 2007

    H.R. 2910 would establish in law specific requirements that would 
protect reservists returning to an academic setting following a call-up 
to active duty. The bill would amend the Servicemembers' Civil Relief 
Act (SCRA) in essentially four ways by:

    <bullet>  Authorizing refunds for students activated during a 
semester or quarter of study
    <bullet>  Guaranteeing re-enrollment upon return
    <bullet>  Extending the time a student has to re-enroll or to begin 
student loan repayments
    <bullet>  Capping student loans at 6% during an activation (like 
other debt protections under the SCRA)

    MOAA has long endorsed statutory protections to ensure the academic 
re-integration of returning student-reservists. In our view, policies 
alone do not afford sufficient protections for reservists returning to 
school following active duty service. Student ``reemployment'' rights--
hassle free return to academic pursuits--are long overdue.
    The Higher Education Relief Opportunities for Students Act of 2003 
(HEROS) fails to provide servicemembers meaningful security. Colleges 
and universities are not required to refund tuition and fees to 
students who don't complete their classes due to a deployment. Schools 
are also not required to minimize the procedural hoops a servicemember 
must jump through to re-enroll. A reservist who takes a leave of 
absence for a year to serve the nation on active duty often must re-
apply to the very school from which she took leave.
    With respect to the refund provisions of H.R. 2910, the 
Subcommittee should consider as an option requiring an academic 
institution to apply any refund amount in the case of a withdrawal 
during a semester (or other defined academic course period) to other 
coursework upon a reservist's re-enrollment.
    If the nation expects to sustain an ``operational reserve'' policy, 
Congress must enact stronger protections for our young student-
reservists when they return to the academic setting following a call-
up.
    MOAA recommends the Subcommittee favorably report out H.R. 2910 to 
establish academic re-instatement and financial protections under the 
Servicemembers Civil Relief Act.
Conclusion
    MOAA appreciates the growing interest in Montgomery GI Bill reform 
and we look forward to working with the Members of the Subcommittee to 
ensure that our 21st century warriors, including operational reservists 
from the National Guard and Reserve, receive the benefits that match 
their service and sacrifice on behalf of our nation.
    Addendum: ``Top Five'' Priorities for the MGIB in 2008 (below)
                               __________
MOAA's ``Top Five'' Legislative Priorities for the Montgomery GI Bill in
                                  2008
    1.  Raise MGIB rates. Prior to September 11, 2001, the House 
Veterans Affairs Committee endorsed a three-step increase to basic MGIB 
rates and the establishment of an annual COLA to adjust such rates. 
Subsequent enactment of this change in 2001 has enabled the MGIB today 
to cover about 75% of the average cost of a four-year public college/
university education based on Dept. of Education data. Various 
legislative proposals have been introduced to raise MGIB reimbursement 
to cover more, or even all of the cost of veterans' education or 
training programs. The present full-time study rate for veterans with 
three years of service is $1,101 (Chapter 30, 38 U.S. Code). Raising 
the rate will encourage more veterans to use their benefits and, in 
turn, give them the education/skills to be more productive citizens, 
thereby returning to the economy more than the cost of their earned 
benefits. MOAA strongly supports raising MGIB reimbursement rates to at 
least the average cost of a four-year public college or university 
education.

    2.  Authorize cumulative month-for-month MGIB entitlement under 
Chap. 30 for reservists who serve multiple active duty periods of 
service (up to 36 months active duty). The FY 2008 National Defense 
Authorization Act establishes in law a principle of ``cumulative'' 
entitlement to Chapter 1607 MGIB benefits for multiple periods of 
active duty performed by members of the National Guard and Reserve 
forces. Under the change, reservists who serve an aggregate of up to 36 
months active duty in a contingency operation will earn 80% of the 
active duty MGIB. It's our understanding that reservists who serve 24 
months consecutively also will continue to receive 80% of the active 
duty MGIB (the same rate available to active duty soldiers with a two-
year enlistment). MOAA appreciates the creation of a cumulative 
principle, but we disagree strongly with the percentage formula as 
adopted by the NDAA. Reservists who accrue up to 36 months active duty 
over multiple call-ups should be entitled to the full MGIB under 
Chapter 30. A reserve warrior with eight years' service can expect to 
serve multiple activations under ``operational reserve'' rules and 
likely be deployed for all of them. Under such circumstances, 
reservists who accrue 36 months of cumulative service should be 
entitled to the same MGIB as an active duty soldier with a three-year 
enlistment contract who is deployed once (or never deployed). MOAA 
strongly recommends adoption of a cumulative month-for-month formula 
for entitlement to the active duty MGIB for operational reservists who 
serve at least 90 days on any one tour, up to a maximum of 36 months.

    3.  Restore proportional parity between basic reserve MGIB (Chapter 
1606, 10 U.S. Code) rates and the active duty program. The basic 
reserve MGIB rate was set at 47% of the active duty program in 1984 and 
retained that ratio for 15 years from 1985-1999. Subsequent increases 
in active duty program benefit levels, combined with static reserve 
benefit levels, have reduced reserve MGIB rates to less than 29% of the 
active duty program's, at a time when Guard and Reserve recruiting is 
under enormous strain. If proportional parity were restored in one 
year, basic reserve rates for full-time study would increase from $317 
to $517 per month for full-time study. Stair-step increases would lower 
the cost over a three to five year period. MOAA strongly endorses 
restoring proportional parity between the basic reserve MGIB and the 
active duty program.

    4.  Integrate reserve and active duty MGIB programs in Title 38. 
Given past DoD opposition to most reserve MGIB program improvements, it 
is unlikely that items 2 and 3, above--month-for-month entitlement and 
rate hikes for Chapter 1606 benefits--will be possible without 
recodification. In passing the NDAA, the defense conferees modeled most 
of the reserve program improvements--as noted in the accompanying cover 
letter--on the existing Chapter 30 framework. MOAA greatly appreciates 
House passage of recodification of the reserve programs in Title 38, 
but we were disappointed that the NDAA conferees failed to adopt the 
House language. Now that Congress has endorsed a readjustment benefit 
for operational reservists, there is no longer a compelling reason in 
our view to leave the Chapter 1607 program in Title 10. Under Chapter 
30, DoD and VA responsibilities are clear: DoD sets eligibility rules 
for enlistment, funds ``kickers'' for enlistment in critical skills, 
conducts actuarial valuations of the normal cost of the MGIB (Section 
2006, 10 U.S.C.), and reports the number of eligibles to the VA. For 
the reserve programs, DoD does essentially the same thing: determines 
eligibility, funds ``kickers'', determines the ``normal cost'', and 
reports participants. The VA administers all MGIB programs and payments 
now, and that would not change under recodification. Under the House-
passed language, DoD and VA responsibilities would remain as described 
above. The difference would be that one Committee would be responsible 
for overseeing the administration of the active duty and reserve 
programs--a total force approach to the MGIB. Because of the 
proportional benefit gap and the dramatic surge in duty requirements of 
our Guard/Reserve members, the total GI Bill program is no longer 
structured to match the nation's military policy for the operational 
integration of our active and reserve forces. MOAA continues to 
strongly endorse recodification of the reserve MGIB programs into Title 
38.

    5.  Open enrollment in the MGIB for all currently serving members 
who declined enrollment, and for all new service entrants in the 
future. The MGIB should be an entitlement that accompanies an 
enlistment, service agreement or appointment for all members of the 
volunteer force. With the operational integration of the total force, 
the $1,200 payroll reduction has become a nuisance and a morale 
``downer'' for new recruits, and is inconsistent with the dramatically 
increased sacrifices borne by our service men and women. Moreover, as 
reserve and active duty programs are gradually aligned according to the 
length and types of duty performed, the $1,200 enrollment tax serves as 
a barrier to true implementation of a total force approach to the MGIB. 
Twenty-first century warriors should be guaranteed enrollment in the 
MGIB upon entry into the service with no payroll reduction. Officers 
commissioned from a Service Academy or ROTC Scholarship program should 
be offered the MGIB in exchange for a service extension commitment. 
Government student loans require no service to the nation and no up 
front payment, which makes the $1,200 MGIB fee seem mean-spirited at 
best. MOAA strongly endorses guaranteed enrollment in the MGIB for all 
members of the volunteer force and the elimination of the $1,200 
enrollment ``tax''.

                                 <F-dash>
     Prepared Statement of Patrick Campbell, Legislative Director,
                Iraq and Afghanistan Veterans of America
    Madam Chairwoman and Members of the House Veterans' Affairs 
Committee, Subcommittee on Economic Opportunity on behalf of Iraq and 
Afghanistan Veterans of America (IAVA), thank you for the opportunity 
to testify at this legislative hearing on educational assistance bills. 
We are also grateful that H.R. 2910, the Veterans Education Tuition 
Support Act (VETS) and the by product of my graduate thesis, will be 
discussed today.
I. World War II Education Benefits for a Post 9/11 Generation
    After World War II, nearly eight million servicemembers (more than 
half of the entire American fighting force) took advantage of the 
education benefits afforded them by the Servicemen's Readjustment Act 
1944. A veteran of WWII was entitled to free tuition, books and a 
living stipend that completely covered the cost of education. Since 
1945 over 21,400,000 servicemembers have utilized at least some of 
their educational benefits. Over the past 10 years, at least 66% of 
active duty servicemembers and 42% of Reservists and National Guard 
have gone to school on the ``GI Bill.''
    Today we are still reaping the benefits of one of the greatest 
social investment programs ever implemented. A 1988 Congressional study 
proved that every dollar spent on educational benefits under the 
original GI Bill added seven dollars to the national economy in terms 
of productivity, consumer spending and tax revenue. Today we have the 
opportunity to renew our social contract with our servicemen and women. 
Iraq and Afghanistan Veterans of America (IAVA) supports reinstating a 
World War II style GI Bill that will cover the true cost of education. 
We endorse H.R. 2702.
    The current Chapter 30 Montgomery GI Bill, created in 1984, 
contains several obstacles that hinder veterans' use of their well-
earned benefits. First, active duty educational benefits require a 
hefty $1,200 initial buy-in. Although nearly 95% of active duty 
servicemembers buy into the program, only 8% of servicemembers use all 
of their educational benefits and more than 30% never touch their GI 
benefits. These veterans return over $230 million to the U.S. Treasury 
through their nonrefundable contributions.
    Second, servicemembers are required to pay tuition, room & board 
and textbook costs up front and are then reimbursed over the course of 
the semester. Before servicemembers can attend a single class they must 
pay tuition and fees amounting, on average, to $5,836 for a public 
school and $22,218 for private schools. Servicemembers are faced with 
the daunting task of paying for school by taking on multiple jobs to 
raise the money, attending a less expensive or prestigious institution, 
taking out student loans and/or ``living on mama's couch'' to cut 
expenses. H.R. 2702 would overcome this obstacle by paying tuition 
costs in a lump sum at the beginning of the academic term.
    Lastly, education benefits have failed to keep up with the 
skyrocketing cost of higher education. Education benefits are increased 
yearly based on inflation rates. As evident from the chart below, the 
cost of education has outpaced inflation by over 100% since 1984. The 
bifurcated benefits in H.R. 2702 that would make up front tuition 
payments to schools and provide a living stipend to veterans would 
prevent future generations from suffering from diminished benefits. 
Although the living stipend will continue to be increased based on 
inflation rates, the tuition benefits would be pegged directly to the 
education rates in each state and therefore would keep pace with the 
relative cost of education.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    (Chart from the College Board's ``2006 Trends in College 
Pricing.'')

    In 2006, Chapter 30 benefits only covered 75% of the cost of a 
public school education and 32% of a private school education.
    IAVA believes that a World War II style GI Bill is more than just a 
social investment; it's an important readiness tool. The military needs 
to recruit an additional 70,000 active duty servicemembers over the 
next two years. Improving education benefits for veterans is an 
important strategy for accomplishing this goal. The alternative is to 
continue to lower recruitment standards and increase enlistment and 
retention bonuses. We have already seen the military double the number 
of GED waivers and increase the number of felonies allowable by a new 
recruit. Enlistment and retention bonuses have already climbed to 
$20,000 and could grow even higher.
    The GI Bill is the military's single most effective recruitment 
tool; the number one reason civilians join the military is to get money 
for college. As our military recovers and resets in the coming years, 
an expanded GI Bill will play a crucial role in ensuring that our 
military remains the strongest and most advanced in the world.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    (Poster outside the DC Armory on July 12, 2007)

    The original WWII GI bill was called the ``Servicemen's 
Readjustment Act'' for good reason. Returning WWII and Korean veterans 
were given the chance to readjust to civilian life by making college a 
full time job. Giving veterans the opportunity to truly take advantage 
of their education benefits will help build this country's next 
``greatest generation.''
    For all of these reasons, Iraq and Afghanistan Veterans of America 
(IAVA) believes that both H.R. 2702, the ``Post-9/11 Veterans 
Educational Assistance Act of 2007'' (Scott) is the best option to 
provide our servicemembers every opportunity to succeed in higher 
education.
II. Calculation of REAP benefits based on Cumulative not Continuous 
        service
    Benefits for Reserve/National Guard servicemembers should be based 
on the cumulative length of their active duty deployments and not on 
their single longest deployment. This fix would eliminate a glaring 
inequity faced by reservists serving multiple deployments. Currently, 
Marine Reservists serving more frequent but shorter tours rarely 
qualify for the higher level of REAP benefits. The average Marine 
reservist has been deployed multiple times on 9 month tours of duty. 
Despite having served at least 18 months of active duty, they will 
receive $220/month less in education benefits then an Army National 
Guardsman who served the same amount of active duty in a single tour.
    IAVA endorses the provisions of H.R. 1102, the Total Force GI Bill, 
which would provide benefits for reservists serving multiple tours and 
allow reservists who have served overseas to use their earned education 
benefits after they separate from the military. We applaud the work of 
this Committee to include the portability provision of H.R. 1102 in the 
National Defense Authorization Act.
    In consideration of any GI bill legislation, we urge the Committee 
to consider an alternative method for addressing the issue of multiple 
deployments. There are two practical fixes to the benefit accrual issue 
facing Guard and Reservists:

    1)  Month for Month Accrual: As proposed in H.R. 1102, a Reservist 
who has been called to active duty would receive a month of active duty 
education benefits for every month of active duty served ($1,100/
month). Once a reservist exhausted their active duty education benefits 
they would then only be entitled to the lowest level of education 
benefits, Chapter 1606 ($330/month) or, if they separated from the 
military, they would not be entitled to any education benefits.
    2)  Step Accrual: By simply modifying the current Chapter 1607 REAP 
program to be based on ``cumulative'' service, a Reservist would 
receive higher monthly benefits for additional active duty service. 
Benefits levels would either remain constant or increase as the 
reservist does more active duty service. This idea is currently 
proposed in H.R. 4148, National Guard and Reserve Active Duty Higher 
Education Act.

    Although the month for month proposal seems simpler, it suffers 
from two fundamental flaws. First, once reservists use up their accrued 
active duty level education benefits, they experience a precipitous 
drop in benefits. This drastic decline in benefits means a veteran 
receiving Chapter 30 level benefits ($1,100/month) one month will then 
start to receive Chapter 1606 level benefits ($330/month) the next 
month. Second, under current law and under the new provisions proposed 
by the National Defense Authorization Act, Chapter 1606 benefits are 
not portable, Therefore, a reservist who separates from the military 
and has used up the active duty level education benefits will have no 
more education benefits to draw from.
    IAVA strongly endorses modifying the current Chapter 1607 structure 
of benefits to be based on cumulative service and by adding 
intermediary qualification steps that increase the level education 
benefits for every six months of active duty service.

                       Current REAP Program (Step)
------------------------------------------------------------------------
                REAP--Chap 1607                          Benefit
------------------------------------------------------------------------
2 years continuous AD or 3 years Cumulative AD                   80% AD
 =
------------------------------------------------------------------------
  ($880/month)                                               $7,920/yr.
------------------------------------------------------------------------
1 year continuous AD =                                           60% AD
------------------------------------------------------------------------
  ($660/month)                                               $5,940/yr.
------------------------------------------------------------------------
90 days continuous AD =                                          40% AD
------------------------------------------------------------------------
  ($440/month)                                               $3,960/yr.
------------------------------------------------------------------------


                        Proposed Changes (Step*)
------------------------------------------------------------------------
               Revised Chap 1607                         Benefit
------------------------------------------------------------------------
3 yrs. cumulative AD                                            100% AD
  ($1,100/month)                                             $9,900/yr.
------------------------------------------------------------------------
2.5 yrs. cumulative AD                                           90% AD
  ($990/month)                                               $8,910/yr.
------------------------------------------------------------------------
2 yrs. cumulative AD                                             80% AD
  ($880/month)                                               $7,920/yr.
------------------------------------------------------------------------
1.5 yrs. cumulative AD                                           70% AD
  ($770/month)                                               $6,930/yr.
------------------------------------------------------------------------
1 yrs. cumulative AD                                             60% AD
  ($660/month)                                                $5,940/yr
------------------------------------------------------------------------
6 months cumulative AD                                           50% AD
  ($550/month)                                               $4,950/yr.
------------------------------------------------------------------------
90 days cumulative AD                                            40% AD
  ($440/month)                                               $3,960/yr.
------------------------------------------------------------------------


    I have put together some charts to help illustrate this issue. The 
first chart shows the benefits a National Guard soldier would receive 
from a one year deployment. The second shows the benefits for a Marine 
serving two deployments or a reservist serving an 18 month deployment.
                 Army Reserve/National Guard Deployment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Based on this chart a reservist in month to month scenario would 
receive a total of $21,120 over 36 months (12 months at $1,100/month 
and 24 months at $330/month). In a step scenario they would receive 
$23,760 ($660/month for 36 months).
     Two Marine Deployments or an Early Army Reserve/National Guard

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Based on this chart a reservist in month to month scenario would 
receive a total of $24,970 over 36 months (18 months at $1,100/month 
and 18 months at $330/month). In a our proposed step scenario they 
would receive $27,720 ($770/month for 36 months)
III. USERRA Type Protections for Deploying Students
    Finally, H.R. 2910, the Veterans Education Tuition Support (VETS) 
Act, (Davis, S.) will provide meaningful protections for deploying 
students. In 2007, nearly 100,000 Reservists and National Guard 
soldiers were enrolled in college (an increase of 36% since 2005). 
Forty percent of these soldiers have been deployed at least once. 
Unfortunately, these student-soldiers face unique hardships when they 
are called to active duty service.


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Total Reservists     Chap. 1607 *     Chap. 1606 *
--------------------------------------------------------------------------------------------------------------------------------------------------------
2005                                                                           81,209               --           81,209   *1607: Deployed at least once.
--------------------------------------------------------------------------------------------------------------------------------------------------------
2006                                                                           88,892           23,747           65,145          *1606: Never deployed.
--------------------------------------------------------------------------------------------------------------------------------------------------------
2007                                                                           96,685           39,642           57,043
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Without Federal protections these servicemembers face a patchwork 
of refund and reenrollment procedures which are both confusing and 
inconsistent. Trying to navigate the bureaucratic potholes while 
attempting to re-enroll in school after a deployment can be an 
infuriating process. When I first returned home from Iraq I received 
harassing calls from my student loan lender, my roommate from Iraq was 
denied reenrollment at his college and my coworker, who was deployed 
weeks before his finals, was given essentially no accommodations by his 
school. Those who fight for our rights abroad should not be forced to 
fight for their rights when they return home.
    The VETS bill will:

    <bullet>  Require colleges to refund tuition for servicemembers who 
deploy (or provide future credits).
    <bullet>  Restore veterans to their academic status when they 
return.
    <bullet>  Cap student loan interest payments at 6% while the 
student is deployed.

    I am proud to report that Sec. 707(b) of H.R. 2910, which extended 
the period of time a student-soldier has to re-enroll after returning 
from abroad has already been enacted into law (Sec. 204 of Public Law 
110-84, the College Cost Reduction and Access Act).
    If passed, H.R. 2910 will become the student-soldier's equivalent 
to USERRA (the Uniformed Services Employment and Reemployment Rights 
Act). IAVA strongly encourages this Committee to consider and pass H.R. 
2910 for all the Reservists and National Guard soldiers in each of your 
home districts.
    Improving the GI Bill will benefit veterans and the country as a 
whole. By allowing veterans to take advantage of the best educational 
opportunities available, we can fulfill our promise to our 
servicemembers and create an opportunity for them to become tomorrow's 
leaders.

                                 <F-dash>
        Prepared Statement of Eric A. Hilleman, Deputy Director,
 National Legislative Service, Veterans of Foreign Wars of the United 
                                 States
    Madam Chairwoman and Members of this Committee:
    On behalf of the 2.4 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, I would like to commend 
this Committee for its diligence, dedication, and bipartisanship 
exhibited in updating the Montgomery GI Bill (MGIB). We applaud this 
Committee for its efforts and Congress for including post-service usage 
of the MGIB for servicemembers eligible under Chapter 1607 benefits 
into the 2008 National Defense Authorization Act. With this 
accomplishment, we strongly urge this Committee to continue updating 
the MGIB.
    The following are the VFW's top five recommendations for achieving 
a GI Bill that meets the needs of the 21st Century:

    <bullet>  Increase the MGIB rates to cover the full cost of 
education: tuition, room, board, fees, and a cost-of-living stipend.
    <bullet>  Eliminate the current qualifying impediment for Guard and 
Reserve members, which reward the longest continuous tour of active 
duty. Our troops deserve a benefit that aggregates on a monthly basis 
and pays a percentage of the active duty benefit with an equitable 
benefit.
    <bullet>  Repeal the $1,200 MGIB buy-in charged to active duty 
troops during the first year of their enlistment.
    <bullet>  Allow all servicemembers to utilize earned benefits 
throughout the duration of their lives, removing the 10-year delimiting 
date.
    <bullet>  Remove all laws and rules limiting veterans from 
accessing college financal aid due to military service income and/or GI 
Bill benefits.

    These recommendations reflect the needs of veterans and the 
original spirit of the GI Bill. In 1944, President Franklin Roosevelt 
signed into law the Serviceman's Readjustment Act, known as the GI Bill 
of Rights. This bill helped millions of Americans realize the American 
dream. Nearly 12 percent of Americans served in uniform between 1945 
and 1956 and more than 8 million returning veterans received debt-free 
college educations, low-interest home mortgages and small-business loan 
assistance. In 1947, half of the nation's college students were 
veterans. For many, they were the first in their families to further 
their education beyond high school. Today the WWII GI Bill is credited 
with creating the middle class.
    Subsequent wartime GI Bills were not nearly as robust as the WWII 
bill. The Vietnam-era GI Bill was a scaled down version from the WWII 
style bill. Nearly 6.8 million veterans out of 10.3 million eligible 
veterans used their benefit. Education benefits during the Vietnam era 
aided veterans in their transition from active duty to civilian life, 
but the benefit fell short of the original.
    So too, the current MGIB is not meeting the need of our veterans. 
The inflationary rate of higher education is much greater than the 
national inflationary rate. Over time, this disparity in inflation is 
causing the current GI Bill rate, which is pegged to the national 
inflationary rate, is causing the GI Bill to erode.
    It is time for a new GI Bill! It is time to revitalize the American 
dream; invest in the overall health of our slowly depleting military 
force; expand the socioeconomic makeup of the military; and provide the 
ONE PERCENT of our population that dons the uniform a life-changing 
benefit.
    The VFW has long advocated for the creation of a GI Bill for the 
21st Century in the fashion of the original WWII bill. We envision a 
transition benefit that will be a lasting contract with our veterans. 
We want:

    <bullet>  A GI Bill that increases military recruitment efforts, 
broadening the socioeconomic makeup of the military, and strengthens 
our National security by attracting an increased number of young 
talented recruits--many of whom may not have considered military 
service.
    <bullet>  A powerful transition assistance program, allowing 
veterans to readjust to civilian life, improving their ability to care 
for themselves and their families, and becoming the leaders of 
tomorrow.
    <bullet>  A GI Bill that recognizes the unique sacrifices of the 
hundreds of thousands of Guard and Reserve members who have served in 
Iraq, Afghanistan, the Horn of Africa, during Katrina and other 
national/international emergencies; and is proportional to their Active 
Duty counterparts.

    We are not a Nation at war; we are a Nation with a military at war. 
Many troops have been to Iraq and/or Afghanistan multiple times. Some 
Guard and Reserve units are serving their second or third tours in 
country. Now is the time to honor their service with a GI Bill for the 
21st Century, providing them with opportunities to become future 
leaders of our Nation.
    Pause for one moment and consider the quality of life that WWII GI 
Bill recipients passed on to their children and grandchildren. We as a 
Nation need to recognize the indirect benefits our families received 
thanks to the education, housing and small business investment benefits 
a grateful Nation gave to the Greatest Generation.
    Many in Congress have recognized the importance of these issues and 
have introduced bills to improve this key program. We urge you to 
examine these bills with an eye toward enacting a robust GI Bill that 
realizes the promises of previous generations.

     H.R. 1102, Total Force Educational Assistance Enhancement and 
                        Integration Act of 2007

    We support this legislation, which eases the administration of 
education benefits, simplifying U.S. Code, and giving the Department of 
Veterans Affairs the responsibility of administering the benefit as 
they currently do with the Active Duty GI Bill. The VFW believes the GI 
Bill is primarily a transition tool allowing veterans and troops to 
seek an education and skills training. Placing the Guard and Reserve 
education programs, Chapter 1606 and 1607 of Title 10, into Title 38 
(the section of the Code regulating the Department of Veterans Affairs 
[VA]) allows the Congress to better oversee this program and eliminates 
contradictions in the oversight process. Currently, the VA tracks 
veteran enrollment at institutions of higher learning, triggers the 
veteran's GI Bill discernment, and performs a great deal of the 
outreach to education veterans on the varying of education benefits.

  H.R. 1211, the Resuming Education After Defense Service Act of 2007

    We support this legislation allowing Guard and Reserve members to 
apply their total aggregate months of deployment towards accruing GI 
Bill benefits. Currently, Guard and Reserve troops may only apply their 
longest continuous period of active duty service toward drawing the GI 
Bill benefit, most tours fall far short of the Active Duty GI Bill. 
This results in some troops serving two or three years in a combat zone 
while only receiving 40 or 60 percent their active duty counterparts. 
We strongly believe GI Bill benefits should reflect equitable benefits 
for service to our nation.

  H.R. 1214, the Veterans' Survivors Education Enhancement Act of 2007

    This Act would increase the maximum amount of GI Bill benefits 
available for eligible veterans' survivors and dependents from the 
current $788 a month, paid over 45 months equaling $35,460, to 
approximately $1,778 a month totaling $80,000. It allows the benefit to 
be used for special restorative training, apprenticeships, on-the-job 
training, and tutoring assistance. And it allows survivors and 
dependents to draw the benefit until their 30th birthday, extending the 
usage age from 26th birthday.
    We deeply respect the loss, challenge and pain survivors and 
dependents suffer. Benefits paid to widows/widowers and orphans grant a 
degree of security when faced with the sudden loss of a loved one. The 
VFW fully supports enhancement of educational assistance for survivors 
and dependents of veterans, but we also feel the benefit should move in 
tandem with the education benefit available to the Chapter 32, Title 38 
active duty GI Bill.
    The current Chapter 32, Title 38 active duty GI Bill benefit total 
is approximately $37,000 and the survivors education benefit is 
approximately $35,500; thus giving some relative parity in the two 
benefits. H.R. 1214 would award survivors twice the earned benefit 
available to active duty troops. We favor increasing this survivor's 
benefit, but only in tandem with the active duty benefit. The VFW 
believes this bill would create an unfortunate inequity.

         H.R. 2247, the Montgomery GI Bill for Life Act of 2007

    The Montgomery GI Bill (MGIB) has opened the door to higher 
education for millions of Americans. This bill seeks to eliminate time 
limits that often prevent service members from using a life-enhancing 
benefit when they need it the most. H.R. 2247 would eliminate the post-
service 10-year time limit for the active duty MGIB and the in-service 
14-year time limit for Guard and Reservists. Time limits prevent 
service members from seeking training and education later in life or at 
mid-career milestones. The VFW supports the life-long career approach 
to the benefit. If a service member has earned the benefit, why prevent 
them from using it?
    Many service members seek education and retraining later or at mid-
career. This helps them adapt to the ever-changing economy, 
transitioning from fields that may offer more job security. Also, many 
younger veterans and service members have family obligations that 
prevent them from seeking an education early in life. The VFW supports 
H.R. 2247 and the repeal of time limits on the GI Bill.

       H.R. 2385, the 21st Century GI Bill of Rights Act of 2007

    We support H.R. 2385, which would extend eligibility to Active Duty 
troops and National Guard and Reserve members who serve an aggregate of 
two years on active duty. This bill would pay tuition, books, fees, 
room and board over the course of four years of full-time education. It 
lifts the $1,200 buy-in fee. This educational benefit would pay 
students a rate equivalent to the cost to attend school or training 
inclusive of tuition, housing, and other expenses.

   H.R. 2702, the Post-9/11 Veterans Education Assistance Act of 2007

    This legislation would enhance military strength while providing an 
educational benefit that equips a generation of veterans to face the 
challenges of tomorrow. The VFW has long advocated a GI Bill in the 
spirit of the original WW II bill, which would cover tuition at the 
highest State institution including housing, fees, books, and provide a 
cost-of-living stipend. This legislation would accomplish these goals 
and more. It recognizes the tens of thousands of guard and reserve 
members who have actively served an aggregate of 24 months defending 
our Nation. It lengthens the post-service usage period from 10 to 15 
years from the date of discharge and establishes a post-service benefit 
for the Guard and Reserve. The VFW enthusiastically supports this bill.

     H.R. 2910, the Veterans Education Tuition Support Act of 2007

    The VFW strongly supports this legislation honoring the service of 
thousands of Reservists and National Guard troops who withdraw from 
college, placing their lives on hold, to protect and serve our nation.
    In 2006, nearly 90,000 Reservists and National Guard soldiers were 
enrolled in college; one fourth of which have been deployed at least 
once. These students face unique hardships when they are called to 
defend our nation. H.R. 2910 addresses some of those hardships by 
allowing veterans to resume their academic status upon their return, 
requiring colleges to refund tuition for service members who deploy, 
capping student loan interest payments at 6% while the student is 
deployed, and extending the period of time a student-soldier has to re-
enroll after returning from active duty service.
    Our National Guard and Reserve troops do not deserve to sacrifice 
doubly by serving our nation while enduring educational and financial 
penalties; they deserve every opportunity toward their future and their 
education.
    Ms. Chairwoman, I again thank you for the opportunity to present 
the VFW's testimony. We very much appreciate what this subcommittee has 
done, and continues to do, to improve the GI Bill. I would be happy to 
answer any questions that you or the members of the Subcommittee may 
have.

                                 <F-dash>
      Prepared Statement of Ronald F. Chamrin, Assistant Director,
                  Economic Commission, American Legion
    Madam Chairwoman and Members of the Subcommittee:
    The American Legion appreciates the opportunity to present our 
recommendations and observations of the current state of veterans' 
education-related programs, proposed legislation, and laws. Recent 
legislative activities in relation to the Fiscal Year 2008 National 
Defense Authorization Act (NDAA) that contain significant changes to 
the Montgomery GI Bill (MGIB) place this hearing at an opportune time. 
With the final disposition of the NDAA unclear, The American Legion 
will comment on proposed legislation in reference to the current 
established statutes.
    The American Legion has provided this Committee during the First 
Session of the 110th Congress numerous recommendations and observations 
of veterans' education benefits. As we move forward, The American 
Legion looks forward to the continuation of the progress made over the 
last year and we continue to stand by our previous statements and 
advocacy efforts.

 TOP PRIORITIES OF MODIFICATION AND ENHANCEMENT OF VETERANS' EDUCATION 
                                BENEFITS

Portability of Benefits
    The American Legion supports eliminating the ten-year delimiting 
period for veterans to use MGIB educational benefits and to allow all 
Reserve Component members to use their MGIB benefits for up to ten 
years after separation or completion of a service contract.
Raise the Rates
    The American Legion recommends that the dollar amount of the 
entitlement should be indexed to the average cost of a college 
education including tuition, fees, textbooks and other supplies for 
commuter students at an accredited university, college or trade school 
for which they qualify. Additionally, the educational cost index should 
be reviewed and adjusted annually.
Equity of Benefits for Time Served on Active Duty
    The American Legion supports a MGIB-SR participant reimbursement 
rate adjusted for time spent on Federal activation, State activation, 
and normal service for a period not to exceed 36 months.
Termination of $1,200 Contribution
    The American Legion supports the termination of the current 
military payroll contribution ($1,200) required for enrollment in MGIB. 
Additionally, The American Legion supports that enrollment in the MGIB 
shall be automatic upon enlistment. However, benefits will not be 
awarded unless eligibility criteria have been met.
Transferability of Benefits
    The American Legion supports the transfer of MGIB benefits from 
veterans to their immediate family members should a veteran elect to do 
so.
Accelerated Payments
    The American Legion supports granting veterans an option to request 
an accelerated payment of all monthly educational benefits upon meeting 
the criteria for eligibility for MGIB financial payments.

             ADMINISTRATION OF VETERANS' EDUCATION BENEFITS

Recodification
    The American Legion recommends that Congress move the Montgomery GI 
Bill-Reserve Education Assistance Program (REAP, Chapter 1607) and the 
Montgomery GI Bill-Selected Reserve (MGIB-SR, Chapter 1606) from Title 
10, United States Code (USC), to Title 38, USC. Additionally, we 
recommend providing the Department of Veterans Affairs (VA) with 
administrative authority for the MGIB, REAP and MGIB-SR benefits. 
Finally, The American Legion recommends that the MGIB, REAP and MGIB-SR 
funding become annual mandatory appropriations. Recodification of MGIB 
benefits from Title 10 to Title 38 would place the administration of 
programs under VA and oversight under the Committees on Veterans' 
Affairs.
    Traditionally seen as a recruitment tool, the MGIB is a 
readjustment tool that more closely falls in line with the purview of 
VA. The VA Education Service has a proven track record of improving 
delivery and facilitation of services, as well as a dedication to 
veterans. Furthermore, the Committees on Veterans' Affairs are better 
equipped in that they have established oversight protocol of veterans 
and VA programs. It is our hope that transferring oversight from the 
Committees on Armed Services to the Committees on Veterans' Affairs 
will expedite legislation seeking to improve educational benefits for 
veterans. Since 1999, the Committees on Armed Services and the 
Department of Defense officials have failed to adjust the rates of 
Reserve Components' education benefits. As a result, the current MGIB-
SR benefit for full time students is $317 a month, or just 29 percent 
of MGIB-AD.

 SELECTED LEGISLATION CONTAINING ENTITLEMENT OF BENEFITS FOR AGGREGATE 
                              TIME SERVED

H.R. 1211, ``The Resuming Education After Defense Service Act of 2007'' 
        and H.R. 2702, ``The Post-9/11 Veterans Educational Assistance 
        Act of 2007''
Eligibility Concerns
    While these two bills are steps in the right direction by providing 
benefits for time served, The American Legion is concerned that it 
fails to recognize those veterans that complete their tours honorably, 
but do not serve an aggregate of two years, and do not meet the other 
requirements of eligibility. These veterans have served their country 
honorably yet are excluded from earned benefits.
    The eligibility requirement as proposed by bills H.R. 1211 and H.R. 
2702 requires a servicemember to serve an aggregate of at least two 
years of honorable active-duty service in the armed forces after 
September 11, 2001. However, The American Legion supports a MGIB-SR 
participant reimbursement rate adjusted for time spent on Federal 
activation, State activation, and normal service for a period not to 
exceed 36 months.
    The operational force of our nation's military has transformed 
dramatically since 1985, the year that the MGIB was established. Now, 
the Reserve Components are a large part of the operational force and 
are called to active-duty for a significant portion of their Reserve 
career as compared to prior years when the Reserve Components were 
rarely used. As of today, over 450,000 members of the Reserve 
Components have been deployed in support of Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF). A majority of these 
Reservists served honorably on active-duty for at least 90 days, 
thereby earning them REAP benefits (Chapter 1607, Title 10, USC) in 
addition to their MGIB-Selected Reserve Benefits (Chapter 1606, Title 
10, USC). Therefore, deducing that out of the 850,750 members of the 
Reserve Components who have departed the military since 2002, we 
conservatively estimate that at least over 400,000 veterans have lost 
earned education benefits. Or, at least 50 percent of the force has 
lost earned education benefits that could have been used to increase 
their earning potential. Noting that our figures are of National Guard 
and Reserve members that were deployed in support of OIF/OEF, there are 
additional Reservists that were called to active-duty to CONUS 
(Continental United States) or deployed to other regions of the world. 
Hence, our conservative estimate of 400,000 veterans losing earned 
benefits is, more likely than not, much greater. If these two pieces of 
legislation are passed in their current form, approximately 100,000 
newly eligible veterans would qualify, but 400,000 veterans of the same 
era would not. As the Global War on Terrorism continues, an ever-
increasing number of veterans will fall into these two categories.
    Staff Sergeant Jimmy Marrello is a Reservist from Illinois. He has 
made the Dean's list while he was in school and was a finalist for the 
Non-Commissioned Officer (NCO) of the Year Competition. Unfortunately, 
none of his Federal activations were 2 consecutive years and thus, he 
is ineligible to enroll in the MGIB-AD. SSG Marrello will only receive 
a maximum of $23,781 of REAP benefits, but he will not be able to use 
them after completion of his service contract. If he served 2 
consecutive years, he would be able to enroll in the MGIB-AD benefit 
and receive $31,701 and have the ability to use those benefits after 
leaving service. Amazingly, when he completes his upcoming tour in the 
Horn of Africa he will have completed 48 months of active-duty service 
starting in 2003, but never in a 2-year sequential period.
    SSG Marrello states:

          ``I have only been able to complete about a fourth of the 
        required classes for my nursing degree due to constant call-
        ups. I have been to Iraq for 14 months, the Defense Language 
        Institute for 18 months, Primary Leadership Development Course, 
        Basic Non-Commissioned Officers Courses, Non-Commission Officer 
        of the Year Competition, Unit Prevention Leader Course, Range 
        Safety Course, Foreign Language Refresher Course and other 
        supportive assignments in support of operations.
          At this very moment I am in Fort Bragg, North Carolina 
        preparing to deploy to the Horn of Africa for 16 months. By the 
        time I return I will be 32 years old, my son will be 9 years 
        old, and I hope to resume my nursing degree in the Fall of 
        2009.
          Every time that I have to leave it sets me back financially 
        in that I have to find new housing, fix my vehicle, regain my 
        possessions from storage and other matters. I end up spending a 
        lot of money that I wish I could invest or spend for school. 
        When I came back from Iraq in 2004, my possessions were in one 
        state, my immediate family in another, and my child and his 
        mother in yet another state. With no place really to go, I 
        lived in a hotel room for 3 months trying to figure things 
        out.''

    We note that the current DoD Reserve Component Force Management 
Policy released by the Office of the Secretary of Defense on January 
11, 2007 states: ``DoD will construct the maximum mobilization 
timeframe to one-year and the policy objective for involuntary 
mobilization of Guard/Reserve units is a one-year mobilized to five-
year demobilized ratio.'' If these policies hold true, many members of 
the Reserve Components would not be eligible to receive benefits under 
H.R. 1211 and H.R. 2702, yet they have honorably served their country 
on active-duty in the Armed Forces.
    The American Legion supports Reservists utilizing their educational 
benefits even after release from the Selected Reserve.
    Therefore, equity of benefits would remedy this situation. The 
American Legion recommends benefits for time spent on Federal 
activation at the full time rate proposed in the legislation for those 
veterans that have served less than two years, but also allow them to 
use their benefits after completion of a service contract. If a 
servicemember does serve an aggregate of two years, due to multiple 
deployments, extensions, or enlistment in the Active-Duty Force, then 
they would be in receipt of the full duration of benefits as proposed 
in H.R. 1211 and H.R. 2702.

                               H.R. 1211

    The American Legion supports the aggregate requirement and the 
removal of any ending date of qualification. H.R. 1211 would permit a 
member of the Selected Reserve who (among other qualifications), served 
an aggregate of two years on active-duty during the period beginning on 
September 11, 2001, and ending on December 31, 2008 to one month of 
educational assistance for each month served on active-duty. 
Furthermore, H.R. 1211 does require the basic pay of qualifying members 
to be reduced by $100 for each of first the 12 months of such active-
duty service. The American Legion supports the termination of the 
current military payroll contribution ($1,200) required for enrollment 
in MGIB. The American Legion supports extending eligibility for H.R. 
1211 past 2008.

                               H.R. 2702

    Grasping the essence of the original GI Bill in 1944, H.R. 2702 
seeks to provide this nation's veterans with an educational benefit 
package similar to that earned by veterans in the late 1940s, 1950s and 
1960s. Following World War II, wartime veterans saturated colleges and 
then used their advanced degrees to gain employment in all sectors of 
our country.
    H.R. 2702 will pay up to the maximum amount of tuition regularly 
charged for in-state students for full-time pursuit of programs of 
education. Succinctly, it is tied to the `public institution of higher 
education in the State in which the individual is pursuing such program 
of education that has the highest rate of regularly-charged tuition for 
programs of education among all public institutions of higher education 
in such State.' Simply put, a veteran can afford to go to the highest 
priced public institution at the in-state rate. Furthermore, it will 
pay for an amount equal to the room and board of the individual plus a 
monthly stipend in the amount of $1,000.
    Therefore, The American Legion fully supports the intent of H.R. 
2702 to provide additional educational benefits for full time active-
duty servicemembers and those individuals who are ordered to active-
duty as members of Reserve Components of the armed forces. We do 
reiterate our recommendation to amend this proposed legislation to 
allow for use of benefits after service and entitlement of benefits 
based on time spent on Federal activation, State activation, and normal 
service.

                    Additional Proposed Legislation

H.R. 2910, ``The Veterans Education Tuition Support Act of 2007''
    This proposed legislation identifies the current plight that 
returning college bound servicemembers have been unjustly enduring from 
some institutions of higher learning and accordingly, The American 
Legion supports this bill. H.R. 2910 recognizes the complete 
transformation of the Reserve Components into an operational force. 
Activations and intermittent duty such as training or duty in support 
of operations are now an obligation of service.
    The American Legion supports the proposed amendment to the 
Servicemembers Civil Relief Act that will prohibit unfair penalties on 
members who are called to active-duty service while enrolled in 
institutions of higher education. A refund of tuition and fees pre-paid 
by a servicemember to a university for classes not taken due to 
performance of military obligations is long overdue. The American 
Legion is concerned that activations during the middle of a course is 
extremely disruptive and while this legislation aims to correct 
injustices financially, in most cases the veteran must restart the 
course and has lost valuable time due to deployment.
    This legislation also aims to allow a servicemember the opportunity 
to reenroll with the same educational and academic status that they had 
when activated. In a sense, it will be as if the servicemember never 
left college and therefore will not be penalized. Finally, the bill 
assists veterans in repayment of student loans. Again, The American 
Legion supports H.R. 2910.
H.R. 2247, ``Montgomery GI Bill for Life Act of 2007''
    In enacted, the ``Montgomery GI Bill for Life Act of 2007'' would 
repeal all time limits to use the MGIB. H.R. 2247 is a step in the 
right direction and The American Legion supports the repeal of the 14-
year limit for MGIB-SR and applauds efforts to assist disabled members 
and allow them to use their education benefits. In addition to the 
positive measures that the bill encompasses, The American Legion notes 
that the bill neglects to repeal the delimiting date for REAP 
beneficiaries, those Reservists who were called to active-duty for a 
minimum of 90 days.
H.R. 2385, ``The 21st Century GI Bill of Rights Act of 2007''
Section 2
    This legislation also makes strides toward improvement, but falls 
short of what is truly needed to modify and enhance veterans' education 
benefits. The American Legion agrees with the proposed payments of the 
veterans' subsistence, tuition, fees and other educational costs and 
delivery of benefits in a lump sum manner. However, we object to the 
limitation that this program would be unavailable to those veterans 
seeking a graduate level degree.
    The American Legion objects to the ``deployed overseas'' 
requirement for eligibility of this program. The American Legion 
supports making the proposed changes available to all eligible veterans 
regardless of overseas service.
H.R. 1102, ``Total Force Educational Assistance Enhancement and 
        Integration Act of 2007'' (The Total Force GI Bill)
    The American Legion supports the Total Force Educational Assistance 
Enhancement and Integration Act of 2007. This bill solves many 
problems, most significantly the inequities of benefits of the members 
of the Reserve Components as compared to their full time, active-duty 
counterparts. Servicemembers called to active service perform duties at 
an equal rate to their full time counterparts and should be treated as 
such. The American Legion is pleased to see the portability provision 
in this legislation. This will allow Reservists to earn credits for 
education while mobilized, just as active-duty troops do, and use them 
after they leave military service.
    The Total Force MGIB plan calls on Congress to combine statutory 
authority for both MGIB-AD and MGIB-SR programs under the VA (Chapter 
30 of Title 38, USC). This would mean moving MGIB-SR and REAP programs 
from the DoD 
(Chapters 1606 & 1607 of Title 10, USC) and shifting oversight responsib
ility to VA.
    The plan also calls for simplifying MGIB benefit levels and 
features into three tiers. Tier One would be MGIB-AD. Benefits for full 
time students are currently $1,101 a month for 36 months of college or 
qualified vocational training. Tier Two would be MGIB-SR for drilling 
members who enlist for six years. Tier Three would be MGIB benefits for 
activated Reservists, but with changes to the Reserve Education 
Assistance Program (REAP) that Congress enacted in 2004.
    Under Total Force MGIB, activated Reservists would be in receipt of 
REAP benefits at a rate (40, 60 and 80 percent of the active duty 
payment rate) corresponding to their length of mobilization up to 36 
months. Members would have up to 10 years to use active duty or 
activated Reserve benefits (Tiers One and Three) from the last date of 
separation from the Ready Reserve. A Reservist could also use any 
remaining MGIB-SR benefits (Tier Two), but only while in drill status 
or for up to 10 years after separation if the separation is for 
disability or qualification for retirement. The American Legion 
supports that REAP benefits remain available for up to 10 years 
following separation from the Selected Reserve.
H.R. 1214, ``The Veterans' Survivors Education Enhancement Act''
    The American Legion supports the transfer of Montgomery GI Bill 
benefits from a veteran to their immediate family members, should a 
veteran elect to do so. In the case of survivors and dependents of a 
deceased veteran, it would be beneficial to immediate family members, 
if remaining earned veterans' educational entitlements can be 
transferred.
H.R. 4889, ``The Guard and Reserves Are Fighting Too Act of 2008''
    The American Legion agrees with the proposed legislation, H.R. 
4889, the ``Guard and Reserves Are Fighting Too Act of 2008'', and 
fully supports the intent of the bill that would move the Reserve 
Educational Assistance Program (REAP) from Chapter 1607, Title 10, USC 
to a new chapter under Title 38, USC Recodification of REAP benefits 
would place the administration under the VA and the oversight authority 
under the Committees on Veterans' Affairs.
    However, The American Legion has concerns regarding the technical 
language in connection to the anticipated passage of the FY 2008 
National Defense Authorization Act (NDAA). If H.R. 4889 were enacted in 
its current form after the passage of the FY 2008 NDAA, the positive 
veterans' education provisions contained in the FY 08 NDAA would be 
removed by this legislation.
    The American Legion recommends making technical corrections to H.R. 
4889 to contain the new veterans' education provisions enacted under 
Title 10, U.S.C. by the NDAA. The language would then fully match the 
legislative intent to transfer all REAP benefits to Title 38, USC.
    The most notable positive provision in the NDAA in regards to 
veterans' education is the portability of benefits of REAP 
beneficiaries. The NDAA would enact legislation in Title 10, USC to 
allow Reservists to use their Chapter 1607 educational benefits for 10 
years after separation from the Reserves and permit Reservists to 
reclaim previously earned Chapter 1607, Title 10, USC benefits and use 
them for 10 years following any subsequent separation if they rejoin 
the Reserve Components. Additionally, it also authorizes an accelerated 
payment program, allows Reservists with three cumulative years of 
active-duty service to qualify for education benefits at 80 percent of 
the active-duty rate, and creates a buy-up program for servicemembers 
eligible for Chapter 1607, Title 10, USC benefits.
CONCLUSION
    Historically, The American Legion has encouraged the development of 
essential benefits to help attract and retain servicemembers into the 
Armed Services, as well as to assist them in making the smoothest 
possible transition back to the civilian community. The Servicemen's 
Readjustment Act of 1944, the ``GI Bill of Rights'' is a historic piece 
of legislation, authored by Harry W. Colmery, Past National Commander 
of The American Legion, that enabled millions of veterans to purchase 
their first homes, attend college, obtain vocational training, and 
start private businesses.
    The legislation discussed today aims to better serve veterans and 
ultimately assist them in attaining financial stability. The American 
Legion commends the Subcommittee for addressing these important issues. 
We appreciate the opportunity to present this statement for the record 
and to continue our proud history of advocating for increased 
educational benefits to members of the armed forces.

                                 <F-dash>
Prepared Statement of Thomas L. Bush, Acting Deputy Assistant Secretary
       of Defense for Reserve Affairs, U.S. Department of Defense
                                  and
        Curtis L. Gilroy, Ph.D., Director for Accession Policy,
        Military Personnel Policy, Office of the Under Secretary
   of Defense for Personnel and Readiness, U.S. Department of Defense
    Good afternoon Madam Chairwoman and Members of the Subcommittee. We 
are pleased to appear before you, on behalf of the Department of 
Defense (DoD), to testify about proposed changes to the educational 
assistance programs available to active duty members, National Guard 
and Reserve members, and veterans. The current programs are the 
Montgomery GI Bill (MGIB), which provides educational assistance 
benefits to active duty members, veterans and National Guard and 
Reserve members who complete the required active duty service, the MGIB 
for the Selected Reserve (MGIB-SR), which provide educational 
assistance benefits to members of the Selected Reserve and the Reserve 
Educational Assistance Program (REAP), which provides educational 
assistance to Ready Reserve members, and under certain circumstances to 
veterans, who served on active duty or full-time National Guard duty 
for designated purposes.
    For today's hearing, you asked for DoD's views on seven specific 
items of pending legislation. Specifically, the invitation asked for 
the Department's views on H.R. 2910, H.R. 1211, H.R. 2247, H.R. 2385, 
H.R. 1102, H.R. 1214, and H.R. 2702.
MGIB
    In assessing the current MGIB program, it is important to note that 
education benefits are vital to our recruiting efforts. ``Money for 
college'' consistently ranks among the major reasons young men and 
women give for enlisting. Enrollment in the active-duty MGIB program 
has risen from only 50 percent in its first year, 1985, to nearly 97 
percent today. A total of 2.8 million men and women, from an eligible 
pool of 3.8 million, have chosen to participate in the MGIB since its 
implementation on July 1, 1985. Such enrollment rates demonstrate the 
attractiveness of the MGIB.
    The current MGIB program continues to serve the Active components 
of the military well. It is our belief that there are no significant 
shortcomings to the program.
Value of the MGIB Stipend
    In the initial year of the program--School Year 1985-86--the MGIB 
offset 70 percent of the average total expenses at a public four-year 
university. Total expenses include tuition, fees, room and board. This 
offset steadily declined until the early 1990s, when the MGIB monthly 
benefit increased from $300 per month to $400 per month. Since 1993, 
the benefit has been adjusted annually for inflation. The current rate 
of $1,101 for this school year covers approximately 75 percent of the 
average total expenses at a public four-year university.
    In addition to the basic MGIB benefit, three of the four Services 
offer an increased benefit, called a ``kicker,'' targeting enlistments 
in certain critical or hard-to-fill skills and for extended periods of 
initial service. The Army, Navy, and Marine Corps use this incentive to 
steer about 12,000 high-quality youth into the skills necessary for 
efficient force management. The statutory limit for the kicker is $950 
per month. The basic MGIB benefit plus the kicker make up the Service 
College Funds. This past year, the maximum benefit of the Service 
College Funds covered 140 percent of the average total expenses at a 
public four-year university.
    There is no doubt that the MGIB serves as a key recruiting 
incentive. As we indicated earlier, young men and women consistently 
rank ``money for college'' as a major reason they enlist. Today, the 
Services are facing stiff challenges to recruiting. The number of 
graduates who are pursuing postsecondary education right out of high 
school is at an all-time high, and young people are finding that 
financial assistance to attend college is available from many sources. 
While few of those sources match the benefits of the MGIB, neither do 
these sources require young men and women to delay their education for 
a term of military service and the possibility of entering into 
``harm's way.'' The MGIB benefit should be sufficient to offset the 
commitment and sacrifices associated with military service.
    While many may look at the benefit level of the MGIB as it relates 
to readjustment and transition to civilian life, we must be mindful of 
its effect on military force management. The potential benefits of a 
higher benefit level to recruiting must be carefully evaluated in light 
of the difficulties some of the Services are currently experiencing in 
the recruiting market. Attracting qualified recruits using large, 
across-the board basic benefits incurs the risk that many who enter for 
the benefits will leave as soon as they can to use them. If so, lower 
first term retention could both reduce the number of experienced NCOs 
and Petty Officers available to staff the force, and put added pressure 
on the recruiting market as additional accessions are required to 
replace the members who leave. The Department of Education, National 
Center for Education Statistics states the total monthly cost of 
education (tuition, fees, room, and board) for School Year 2006-2007 
was $1,450 (adjusted for inflation). We posit that the negative 
retention impact starts to outweigh the positive impacts on recruiting 
when the monthly benefit is higher than the total cost of education.
MGIB-SR and REAP
    The MGIB-SR also serves its intended purpose well. Since the 
inception of the program in 1986 through Fiscal Year 2006, 1.6 million 
members of the Selected Reserve have entered into service agreements to 
gain eligibility for MGIB-SR benefits. Of those who committed to 
service in the Selected Reserve for MGIB-SR benefits, 663,000, or 41 
percent, have applied for educational assistance. This indicates that 
educational assistance plays an important role in the decision to join 
the National Guard or Reserve for a large number of the eligible 
servicemembers. At the end of Fiscal Year 2006, the number of Selected 
Reserve members eligible for MGIB-SR benefits totaled 366,000, of whom 
106,600, or 29 percent, had applied to receive benefit payments.
    REAP was enacted in Fiscal Year 2005 to provide an educational 
assistance program specifically for National Guard and Reserve members 
who serve in support of a contingency operation and National Guard 
members who support certain Federal missions in a federally funded 
state duty status. A member who serves for as few as 90 days of 
continuous service is eligible for a benefit that is 40 percent of the 
three-year MGIB rate. The rate increases with longer periods of 
service. A member receives 60 percent of the MGIB rate for one 
continuous year of service and 80 percent of the MGIB rate for two 
continuous years of service.
Proposed Legislation
    H.R. 2910, the Veterans Education Tuition Support Act of 2007, 
would provide for reimbursement of tuition to members of the Armed 
Forces for programs of education delayed by military service, provide 
for deferment of student loans and reduced interest rates for such 
members during periods of military service. This proposal addresses 
programs that are under the purview of the Department of Education 
(Education). Education advises this proposal is duplicative of recently 
enacted laws. The HEROES Act (recently made permanent in Public Law 
110-93) provides the Secretary of Education waiver authority over 
return of student aid similar to the waiver mandated in H.R. 2910; in 
addition, the College Cost Reduction and Access Act signed into law in 
September provides 13 months of loan deferment for borrowers called to 
active duty. Moreover, the Servicemembers Opportunity Colleges (SOC), 
which is a consortium of colleges and universities dedicated to helping 
servicemembers, has been very effective in helping student reservists 
who encounter a problem. We are not aware of any problems that SOC has 
not been able to resolve.
    H.R. 1211, the Resuming Education after Defense Service Act of 
2007, would provide that service may be aggregated to qualify for MGIB 
benefits. Specifically, a Reserve component member who aggregates two 
years of active duty service in any five-year period would qualify for 
the MGIB two-year benefit. The bill would also establish a formula for 
the duration of assistance based on the number of months the member 
served on active duty. The concept of allowing a member to aggregate 
periods of service to qualify for a benefit is in keeping with our 
continuum of service concept and the Secretary's force utilization 
policy. However, we defer to the Department of Veterans Affairs (VA), 
as this proposal would affect a program under its purview.
    H.R. 2247, the Montgomery GI Bill for Life Act of 2007, would 
repeal the 10-year limit on use of MGIB benefits and the 14-year limit 
for use of the MGIB-SR benefit, and would repeal the delimiting period 
for disabled member under the REAP benefit. We defer to VA for comment 
on section 2 (eliminating the MGIB delimiting period), and we see no 
negative impact resulting from section 4 (eliminating the REAP 
delimiting period for disabled members). We estimate that eliminating 
the 10-year delimiting period for disabled members under REAP would 
cost less than $1M per year. The Department supports the concept of 
eliminating the MGIB-SR 14-year delimiting period for Selected Reserve 
members provided members continue to serve in the Selected Reserve. The 
Department also supports repealing the MGIB-SR 10-year delimiting 
period for members separated because of a disability. However, this 
section of the bill is substantively flawed in that it no longer 
provides the authority to continue to pay benefits to disabled members. 
Therefore, the Department does not support section 3, as drafted.
    H.R. 2385, the 21st Century GI Bill of Rights Act of 2007, would 
offer a ``World War II-like'' GI Bill that would cover the full cost of 
college tuition, fees, room, and board. This bill does limit the 
benefit amount at the national average of public and private four-year 
institutions. We estimate that this benefit level would have limited 
the monthly payment to about $2,050 for this past school year. This 
legislation is correct in stating that the MGIB was primarily designed 
for a ``peacetime force.'' However, the current MGIB program for active 
duty is basically sound and serves its purpose in support of the all-
volunteer force. The Department finds no need for the kind of sweeping 
(and expensive) changes offered.
    In line with our earlier statement about benefit levels, we are 
concerned that a benefit of this level would have long-term negative 
impact on force management. Additionally, we are concerned that this 
bill offers no provision for ``kickers,'' which the Services routinely 
use to channel high quality youth into hard to fill and critical 
skills. The level of the proposed benefit for all new accessions would 
exceed the maximum level of the current MGIB as augmented by a maximum 
``kicker'' of $950, making it more difficult to target the most 
critical skills. In addition, the Small Business Administration (SBA) 
advises that it would object to the proposed $100,000 veterans 
``microloan'' provision. The subsidy cost of the loans at the specified 
interest rate will be at least 10 percent (our rough estimate). In 
addition, micro-lending intermediaries have little experience in making 
loans of this size. The maximum loan most microloan intermediaries make 
is about $35,000. The SBA's Patriot Express loan program, which 
operates through the 7(a) loan program, is the more appropriate vehicle 
for loans from $35,000 to $100,000. For these reasons, we oppose H.R. 
2385. This bill also would have significant impact on the VA budget; 
therefore, again we would defer to the VA regarding the bill's costs.
    H.R. 1102, the Total Force Educational Assistance Enhancement and 
Integration Act for 2007, would recodify chapter 1606 (MGIB-SR) and 
chapter 1607 (REAP) of Title 10, as a new chapter in Title 38. The 
Department opposes this bill. If enacted, it would place primary 
responsibility for managing critical DoD recruiting and retention 
incentive programs with the VA Secretary. DoD's responsibility is to 
manage and sustain the All-Volunteer Force, while VA's responsibility 
is to provide benefits and other services to veterans and their 
dependents and beneficiaries. Placing a military force management 
program under VA is inconsistent with its purpose and VA's 
responsibilities.
    H.R. 1214, the Veterans' Survivors Education Enhancement Act, would 
make changes to the benefits accrued under the provisions of Chapter 35 
of Title 38, United States Code. We see no impact of this provision on 
military force management. Therefore, we defer to the VA for comment on 
this legislation, as it will affect the VA budget.
    H.R. 2702, the Post-9/11 Veterans Educational Assistance Act of 
2007, would offer a ``World War II-like'' GI Bill, paying the full cost 
of a college education up to the maximum charges of the highest cost 
public institution in the State and a $1,000 monthly stipend. As stated 
previously, the average monthly cost of a public four-year institution 
this past school year was about $1,450. However, under H.R. 2702, we 
could expect the average recipient to receive a monthly benefit of 
about $2,400. The Department opposes this bill for similar concerns as 
cited previously regarding H.R. 2385.
Conclusion
    The Department is committed to providing educational assistance 
that recognizes the service and sacrifices of our Service members and 
helps them achieve their educational goals. If the primary purpose of 
the program is to help the Services achieve force management 
objectives, the program should appropriately remain with DoD. However, 
if the purpose of the program is to support veterans in their 
transition from military to civilian life, then the program is more 
appropriately placed with the VA. Like veterans of World War II, 
today's soldiers, sailors, airmen, Marines and Coast Guard members 
stand ready, willing, and able to defend our great Nation. However, 
unlike World War II, today we have an all-volunteer force and the 
Services need programs that will help them achieve their manning 
objectives. Educational assistance has played an important role in that 
and we would appreciate the continued support of this Committee in 
helping the Department sustain the all-volunteer force while continuing 
to provide members with programs that help them achieve their 
educational goals.

                                 <F-dash>
   Prepared Statement of Keith M. Wilson Director, Education Service,
  Veterans Benefit Administration, U.S. Department of Veterans Affairs
    Good afternoon Chairwoman Herseth-Sandlin, Ranking Member Boozman, 
and other members of the Subcommittee. I appreciate the opportunity to 
appear before you today to discuss a number of bills that would, in the 
main, affect educational assistance programs administered by the 
Department of Veterans Affairs (VA).

                               H.R. 1102

    H.R. 1102, the ``Total Force Educational Assistance Enhancement and 
Integration Act of 2007,'' would recodify the provisions of chapters 
1606 (the Montgomery GI Bill-Selected Reserve (MGIB-SR) program) and 
1607 (the Reserve Educational Assistance Program (REAP)) of Title 10, 
United States Code, relating to educational assistance for members of 
the reserve components of the Armed Forces, in subchapters I and II, 
respectively, of a new chapter 33 of Title 38, United States Code. The 
bill also would make substantial revisions to such provisions as so 
recodified. VA opposes H.R. 1102 as drafted for the reasons discussed 
below.
    New section 3302, as proposed by this bill, embodies the provisions 
of 10 U.S.C. Sec. 16132. This provision would set a program-
commencement date of October 1, 2008, and would maintain eligibility 
based on a six-year commitment in the Selected Reserve.
    New section 3302A, as proposed, has no corresponding section in 
Title 10, but would provide that each individual eligible for the MGIB-
SR on October 1, 2008, would be eligible for the new chapter 33 program 
and could carryover to the new program the amount of his or her MGIB-SR 
entitlement remaining as of September 30, 2008. The current 14-year 
delimiting date for such individuals to use their educational 
assistance benefits would no longer apply.
    New section 3303, as proposed, would correspond to current section 
16131(b) of Title 10. This section sets monthly rates for the 
subchapter I program at the MGIB-SR rates in effect for Fiscal Year 
(FY) 2007 ($309). This change would result in a rate decrease, however, 
since the MGIB-SR rates otherwise would be subject to a cost-of-living 
(CPI) adjustment for FY 2008. We could not support this change since we 
do not believe recodification should result in a lesser benefit. This 
section would maintain the CPI adjustment for subsequent fiscal years 
and future rate increases would be tied to increases in chapter 30 
Montgomery GI Bill (MGIB) rates by applying the same percentage 
increases in the rates.
    The bill also would provide that VA and the Department of Defense 
(DoD) jointly establish the amounts of increased benefit or ``kicker'' 
payable to certain individuals to encourage enlistment in military 
skill or specialty areas in which there is a critical shortage of 
personnel or for which it is difficult to recruit. We believe such 
determinations relating to military force needs should remain 
exclusively with DoD.
    Subchapter II of Chapter 33, as established by H.R. 1102, would 
recodify provisions covering the REAP. New section 3323 would provide 
for the program under subchapter II to begin on October 1, 2008, with 
the same threshold 90-day active duty requirement for a participant's 
eligibility as for the REAP. VA, rather than DoD, would be required to 
notify individuals of their eligibility under the program.
    Section 3323A, as proposed, would provide that each individual 
eligible for the REAP on October 1, 2008, would be eligible for the new 
subchapter II program. These individuals would carryover the number of 
months of their entitlement remaining on September 20, 2008. Under 
certain circumstances, if an individual completes a service contract, 
the individual's delimiting date for using his or her remaining 
benefits would be 10 years from the date the individual separates from 
the Ready Reserve. We defer to DoD on this provision since it could 
negatively impact Reserve retention policy.
    Section 3324 would make the monthly rate payable under subchapter 
II equal to the three-year MGIB-Active Duty (MGIB-AD) rate. Individuals 
who qualify for subchapter II through serving the minimum period of 
active duty that qualified them for the REAP (i.e., 90 days) may 
receive up to 36 months of a benefit amount equal to that earned by a 
three-year commitment to the active duty forces. The amount would be 
adjusted annually by the increase in the CPI. This change would be a 
significant departure from current law and one that we oppose. 
Currently, a servicemember gets 40 percent of the MGIB-AD rate if 
called to active duty for at least 90 days but less than a year; 60 
percent of the MGIB-AD rate if called to active duty for at least a 
year but less than two years; and 80 percent of the MGIB-AD rate if 
called to active duty for at least two years.
    Another change to the REAP involving pursuit of flight training 
would provide for a substantial increase in such benefit. Individuals 
pursuing flight training full time under the subchapter II program 
would be given 60 percent of the established charges for tuition and 
fees. Individuals pursuing flight training currently under the REAP 
receive 24, 36, or 48 percent of those fees depending upon length of 
active-duty service.
    Under subchapter II, on-job training (OJT), apprenticeship, and 
correspondence program pursuit would be treated in a similar manner to 
such pursuit under the MGIB-AD. Currently, REAP participants pursuing 
such training receive a smaller percentage of the full-time rate than 
do their MGIB-AD counterparts. Therefore, this change also would be a 
rate increase for subchapter II program participants. For instance, a 
subchapter II participant who qualified for the REAP based on serving 
90 days of active duty would receive benefits for on-job training at 
the initial rate of 75 percent of the full-time MGIB-AD monthly rate 
for individuals who served a 3-year active duty commitment, rather than 
the 30-percent rate that otherwise would be payable under the REAP.
    Under section 3325, a Reserve member who becomes eligible for 
subchapter II benefits after Sept. 30, 2008, generally could not use 
those benefits after leaving the Reserves if the member leaves before 
completing his/her contract. Otherwise, if the service contract is 
fulfilled, the member would be able to use benefits for 10 years after 
separation from the Ready Reserve. The 10-year limit also would apply 
if the member is separated early for disability, as is the case under 
current law. This change would allow everyone who fulfills the service 
contract to use the benefit after leaving the Reserves. This would be a 
substantial change from current law and could negatively impact Reserve 
retention policy. Consequently, we defer to DoD on this provision.
    Section 3326 proposes that the educational assistance would end if 
the individual receives benefits under 10 U.S.C. 2107 or leaves the 
Reserves without fulfilling the service contract. An exception would be 
allowed for individuals who left but subsequently reentered the 
Reserves, provided that the break did not exceed more than 90 days. 
Again, we would defer to DoD on this provision since it could 
negatively affect retention policy.
    Section 3342 provides that funding for those establishing 
eligibility after September 30, 2008, would come from VA's readjustment 
benefits account. Funding effective October 1, 2008, for those who 
transfer into the program from the REAP or MGIB-SR would come from DoD. 
Currently, all funding comes from DoD. The Administration has worked 
with Congressional Budget and Appropriation Committees to ensure that 
the true cost of manpower is reflected in the budget of all agencies so 
that both cost and policy are not separated. Reserve education benefits 
are mainly recruiting and retention tools and for this reason they were 
funded on an actuarial basis in the DoD budget at the inception of the 
MGIB. The Administration does not support dismantling this funding 
mechanism as it would be contrary to transparent and responsible 
budgeting.
    VA estimates that, if enacted, H.R. 1102 would result in an 
increase to VA's Readjustment Benefit appropriation request of $844.3 
million in the first year, and $8.4 billion over nine years. This 
increase reflects the change in appropriation structure requiring VA to 
increase its appropriation to cover the obligations associated with 
these payments. VA estimates the net impact of H.R. 1102 to the Federal 
Government would be an increase of $416.1 million in the first year and 
nearly $4.9 billion over nine years. VA's General Operating Expenses 
(GOE) costs are estimated to be $7.3 million over 10 years. In addition 
to the policy objections stated above, we oppose this legislation 
because the direct costs involved are not included in the Budget and 
the legislation does not identify a corresponding offset.
    Moreover, in order to ensure effective implementation of the 
proposed bill, VA would have to significantly enhance or replace 
existing accounting systems. We estimate approximately 18 months would 
be needed to complete this process and we have no current estimation on 
the costs involved.

                               H.R. 1211

    H.R. 1211, the ``Resuming Education After Defense Service Act of 
2007,'' would amend section 3012 of Title 38 to provide entitlement to 
educational assistance under the MGIB-AD for members of the Selected 
Reserve who aggregate more than two years of active duty service in any 
five-year period commencing with the first active duty orders received 
during the period September 11, 2001 to December 31, 2008. H.R. 1211 
would require that the pay of a member be reduced $100 a month for the 
first 12 months of active duty service, unless the member declines MGIB 
participation. H.R. 1211 would provide for retroactive credit for 
active duty service and the payments would be made effective date of 
enactment.
    Under current section 3012, members of the Selected Reserve are 
eligible for MGIB-AD educational assistance if they serve at least two 
continuous years of active duty in the Armed Forces after June 30, 
1985, followed by four years of service in the Selected Reserves. This 
bill contains no post-active duty Selected Reserve service requirement 
for its new category of section 3012 eligibility.
    Also, VA has concerns regarding section 2(d) as it is currently 
written. Under that section, the $1,200 initial contribution is 
collected during the first 12 months of active duty service instead of 
at the end of the active duty period. It follows, therefore, that the 
member would have to make a benefit election at the beginning of 
deployment when unaware of whether he/she will ever serve the aggregate 
active duty period required to establish MGIB-AD eligibility.
    This bill would result in a benefits cost increase to VA of $1.2 
million in the first year, $10.2 million for five years, and $16.8 
million over 10 years. The additional $1,200-basic-pay reductions would 
generate approximately $6.8 million in the first year (FY 2008) and 
$8.2 million over three years to be deposited in the proprietary 
receipt account at Treasury. (These funds are not transferred to VA; 
however, they do offset VA outlays for scoring purposes.) Because of 
the potentially large direct costs without identified offsets, VA 
opposes this bill.

                               H.R. 1214

    H.R. 1214, the ``Veterans' Survivors Education Enhancement Act,'' 
would expand and enhance educational assistance under VA's Survivors' 
and Dependents' Educational Assistance program codified in chapter 35, 
Title 38, United States Code.

    Section 2(a). Termination of durational limitation on use of 
educational assistance and restatement of continuing requirements.
    Under current law, section 3511(a)(1), Title 38, United States 
Code, an eligible person may not receive chapter 35 educational 
assistance for more than 45 months or the equivalent thereof in part-
time training. Also, under section 3695(a) of that title, a person may 
not aggregate more than 48 months of entitlement under chapter 35 and 
one or more provisions of law listed in that section.
    H.R. 1214 would eliminate the 45-month limitation on entitlement 
under chapter 35 and allow for dependents, spouses, and surviving 
spouses to receive educational assistance up to a maximum dollar 
amount. It would also exempt any entitlement received under chapter 35 
from the 48-month aggregate maximum entitlement allowed under more than 
one education benefits program. Thus, for example, an eligible person 
could receive full entitlement under chapter 35, then go on to receive 
full entitlement under another program or vice versa.
    VA does not support this section for two reasons. First, we do not 
believe it would be equitable to allow chapter 35 recipients to receive 
far more benefit dollars up front and overall than veterans, 
servicemembers, or reservists who are not eligible to receive benefits 
under chapter 35. There also would be a significant direct cost 
associated with making chapter 35 entitlement exempt from the 48-month 
maximum entitlement rule, and no offsets for this cost have been 
identified.

    Section 2(b). Extension of delimiting age of eligibility for 
dependents.
    Under this section, H.R. 1214 would allow an eligible dependent 
child to receive chapter 35 educational assistance until the child's 
thirtieth birthday. Presently, an eligible child may receive 
educational assistance until age twenty-six (with certain exceptions). 
This change, of course, would allow more individuals to be eligible for 
chapter 35 benefits for a longer period of time, generating direct 
costs for which no offsets have been identified.
    One of the purposes of this chapter is to aid eligible children in 
reaching the educational status they might have obtained but for the 
disability or death of the veteran parent. VA does not have any 
evidence to show that this purpose is not being fulfilled with the 
current age limitation or that it would be better met if the age for 
the ending date of a child's period of eligibility were 30.

    Section 2(c). Amount of educational assistance.
    Under current law, the monthly educational assistance allowance for 
chapter 35 is computed based on the type of training being pursued and 
the training time. This section of H.R. 1214 would eliminate any fixed 
monthly educational assistance allowance. H.R. 1214 does not define in 
what increments payment should be disbursed. Instead, it would provide 
for an aggregate educational assistance amount of $80,000 and allow 
this amount to be paid in any amount for institutional courses, 
vocational training, apprenticeship or other on-job training, farm 
cooperative programs, and special educational assistance for the 
educationally disadvantaged and/or special restorative training. 
Correspondence training for spouses would also be subject to this 
limit. Educational assistance, including special training allowance, 
would be provided to eligible persons at an institution located in the 
Republic of the Philippines at the rate of $.50 for each dollar. It 
also specifies that the aggregate educational assistance amount would 
be increased annually based on the Consumer Price Index.
    VA objects to section 2(c) for several reasons. The $80,000 
educational assistance amount bears little or no connection to the cost 
of the education an eligible person might be pursuing. This amount is 
more than the cost of tuition, fees, room and board charged at a four-
year public school according to the National Center for Education 
Statistics (NCES). It is far, far more than the cost of any 
correspondence course an eligible person might pursue. Furthermore, 
payment based on $80,000 would mean that an apprentice or job trainee 
under chapter 35 would actually receive a sharp decline in income upon 
completion of training when the journeyman-level wage is attained.
    Contrary to the stated purpose of chapter 35, if this provision 
were enacted, an individual eligible for chapter 35 benefits could 
receive $80,000 in educational assistance without receiving an 
education. For example, an eligible individual could ask for and 
receive $80,000 at the start of the first semester of a college program 
then drop out after a short time. Under this bill and the provisions of 
existing statute concerning mitigating circumstances, the claimant 
could keep the $80,000 even if the claimant never again pursued any 
education program. This bill would remove the incentive for a student 
to complete a program of educational training and, in effect, separate 
the benefit from the whole program.
    Finally, this provision as written would allow any currently 
eligible person to request a lump-sum payment of $80,000 as soon as the 
person enrolled in an approved training program. Thus, persons 
currently receiving chapter 35 benefits could also request a lump-sum 
payment of $80,000 as soon as this bill is enacted, regardless of how 
much they already have received in chapter 35 benefits. This would 
result in significant up front direct costs for which no offsets have 
been identified.

    Section 2(d). Other conforming amendments.
    This section makes conforming amendments.

    Section 2(e). Clerical amendments.
    The technical amendments in this section make minor editorial 
changes. We have no objections to the clerical amendments listed in 
this section.

    Section 2(f). Effective dates.
    The amendments made by H.R. 1214 would be effective the date of 
enactment of the Act. Since the bill eliminates the months of 
entitlement charged for chapter 35 benefits, those persons still within 
their delimiting date on the day the bill is enacted could request a 
lump-sum payment of $80,000 even if they previously had exhausted their 
entitlement under the current law. The bill does not address such 
transitional issues for current chapter 35 beneficiaries and those 
eligible persons still within their delimiting date.
    For the foregoing reasons, VA opposes H.R. 1214.

                               H.R. 2247

    H.R. 2247, the ``Montgomery GI Bill for Life Act of 2007,'' would 
eliminate time limitations for eligible individuals to use their 
educational assistance benefits under the Montgomery GI Bill (MGIB) 
program. Currently such time limitations, in general, are 10 years from 
an individual's last discharge or release from active duty for the 
MGIB-AD program and the earlier of 14 years from the date an individual 
becomes entitled to educational assistance or the date the individual 
is separated from the Selected Reserve for the MGIB-SR. The bill would 
eliminate the time limitation for using education benefits under the 
REAP for certain eligible individuals who have separated from the Ready 
Reserve because of disability. Under current law, such individuals have 
10 years from the date on which they become entitled to such assistance 
to use it. Finally, H.R. 2247 would remove the time limitation on the 
use of entitlement transferred to certain dependents under the MGIB-AD. 
Under this provision, eligible spouses could use the benefits 
transferred to them with no time limitation, although eligible children 
would remain limited in using their transferred entitlement only until 
they reach the age of 26.
    VA cannot support the bill's proposal to eliminate the current 
delimiting-date provisions for using MGIB-AD benefits because no cost 
offsets have been identified to cover the potentially significant cost 
of the resulting benefit expansion. Furthermore, enabling the use of 
this benefit such a long time after discharge does not align with the 
codified purpose of these benefits as a readjustment benefit to help 
separating servicemembers readjust to civilian life. We defer to DoD in 
regard to sections 3 and 4 of the bill, which, respectively, would 
affect the provision of benefits under the MGIB-SR and REAP.
    VA is unable to estimate the increased cost resulting from 
enactment of the provisions of H.R. 2247 pertaining to the MGI Bill-AD 
because we neither can predict the portion of the population that would 
elect to use the benefit beyond 10 years following discharge nor 
forecast when, or the extent to which, such use might occur.

                               H.R. 2385

    H.R. 2385, the ``21st Century GI Bill of Rights,'' would establish 
in a new chapter 33 of Title 38, United States Code, a new program of 
educational assistance for veterans who serve in the Armed Forces after 
September 11, 2001, and also would provide enhancements in housing and 
entrepreneur assistance for veterans.
    Section 2 of H.R. 2385 would establish an entitlement under the 
proposed new educational benefit program for individuals who: (1) were 
deployed overseas on active duty in the Armed Forces after September 
11, 2001, (2) served on active duty in the Armed Forces for an 
aggregate of at least 2 years after September 11, 1001, or (3) were 
discharged before aggregating 2 years of active duty service for a 
service-connected disability, a pre-existing medical condition, 
hardship or a physical or mental condition not resulting from their own 
willful misconduct but did interfere with their performance of duty. 
Individuals who received a commission as an officer upon graduation 
from a service academy would not be eligible for this benefit based on 
their initial service obligation.
    VA opposes H.R. 2385. We believe that the bill's provisions 
relating to deployment are vague and overly broad. The bill fails to 
refer to a specific contingency operation but instead relies on a term 
(``deployed overseas'') that is both vague and open to multiple 
interpretations. Allowing all individuals who have been deployed 
overseas since September 11, 2001, to qualify for the benefit would 
open up eligibility and a full 36 months of entitlement to anyone who 
has ever been deployed overseas regardless of location and length of 
service. This change would make a very substantial number of 
individuals eligible to receive this benefit. Although we cannot 
estimate costs at this time, we predict that this bill would lead to 
significant direct spending for which no offsets are identified. Also, 
by only allowing individuals deployed overseas to qualify, the bill 
would disqualify many deployed in support of the Global War on Terror 
within the United States who aggregate less than two years of active 
duty. Additionally, basing eligibility on active duty location would 
create significant administrative burdens that could negatively impact 
our ability to timely and accurately deliver benefits.
    We cannot support this provision in the absence of more specific 
language regarding contingency operations and/or location of 
deployment.
    As proposed in H.R. 2385, individuals eligible under this program 
would be able to receive up to 36 months of educational assistance. 
Eligible individuals would be able to enroll in an approved program of 
education under current chapter 30 provisions, with the exception of 
programs to obtain a graduate degree. Chapter 33 recipients could 
receive educational assistance consisting of the established charges 
for the program (including tuition, fees, required supplies, books and 
equipment) and an amount equal to room and board. The payments for 
established charges could not exceed the national average amount of 
tuition regularly charged for full-time pursuit of a 4-year program of 
education at a public or private college or university. The amount of 
the room and board payment could not exceed the standard dormitory fee, 
as established by VA through regulations.
    VA opposes this provision because it would require VA to maintain 
established charges for programs and room-and-board costs.
    The bill provides no guidance on how to determine a ``standard'' 
dormitory fee. For example, it is unclear whether the standard should 
be a national standard or a standard specific to each state. The 
development of regulations and procedures for making an annual 
determination of standard fees would be an overwhelming administrative 
burden to VA. In general, VA opposes the establishment of a benefit 
that is based on the cost of programs and room and board.
    In addition, we note that many individuals enter military service 
today with at least some amount of postsecondary education. By 
disallowing graduate training, H.R. 2385 would unfairly limit the 
eligible person's choices and the ability to use the maximum 
entitlement earned, as well as create an inequity among those eligible 
to receive the benefit. There is no compelling reason to favor one type 
of degree over another.
    The bill would provide for VA to determine the timing and frequency 
of payments to chapter 33 recipients. Educational assistance payments 
could be made in the form of a lump-sum amount for the entire term at 
its commencement, but payments may not be made before the individual's 
date of enrollment.
    The provision to pay for terms of enrollment in a lump sum after 
the commencement of the enrollment period would have significant 
consequences. Currently, payments generally are made only after 
attendance begins. Payment of benefits following ``enrollment'' would 
result in significant amounts being provided prior to actual 
attendance. These payments could be based solely on how long prior to 
actual attendance an institution allows students to enroll. The use of 
the terms ``enrollment'' and ``attendance'' must be carefully applied.
    Additionally, a heavy potential overpayment burden could be placed 
on veterans who terminate their enrollment prior to completing the term 
for which they have been paid. Presently, claimants must verify their 
attendance and are then paid on a monthly basis. This basically limits 
their liability for repayment of benefits due to course withdrawals to 
a single month. Payment of an entire term up front would cause a 
repayment liability on the part of the claimant for potentially many 
thousands of dollars.
    New section 3313(e), as proposed, would establish the manner in 
which payments would be made to individuals who are pursuing a program 
of education while serving on active duty. Individuals on active duty 
would receive the lesser of the established charges or the amount of 
the institution's charges. VA would be required to issue the chapter 33 
benefit amount to such individuals in a lump-sum payment before the 
start of the term. Entitlement would be charged at a rate of one month 
for each month covered by the payment.
    Individuals pursuing training on a less than half-time basis would 
receive payments in a lump-sum no later than the last day of the month 
following the month in which their enrollment certification was 
received. Their entitlement would be charged at a percentage of a month 
equal to the number of hours undertaken divided by the number of hours 
for full-time study (actual hours/full-time hours).
    Individuals eligible for the new chapter 33 benefits could also 
receive tutorial assistance up to $100 per month for 12 months as 
outlined in 38 U.S.C. Sec. 3492 without accruing any charge to their 
entitlement.
    Under the proposed chapter 33 program, individuals could also 
receive payments for licensing and certification tests, as defined in 
38 U.S.C. Sec. 3452(b), without incurring any charge to their 
entitlement.
    New section 3313(g), as proposed would offer specialized training 
and certification programs for veterans with service-connected 
disabilities. It is unclear if this portion of the bill would authorize 
an additional benefit under the new chapter 33 or an additional benefit 
under VA's chapter 31 Vocational Rehabilitation and Employment program 
for veterans with service-connected disabilities. H.R. 2385 would also 
provide for the payment of licensing and certification tests without 
incurrence of any entitlement charges. This change would make the 10-
year delimiting date the only factor in determining at what point a 
claimant could no longer receive such payment.
    New section 3321, as proposed, would establish a 10-year delimiting 
period in which an individual may use his or her benefits. This period 
would begin on the date of the individual's last discharge or release 
from active duty. If an individual's entitlement were to expire during 
the course of a term or a program of study, it would be extended until 
the end of the term/course or for 12 weeks, whichever is shorter.
    New section 3322, as proposed, would specify that individuals 
receiving educational assistance benefits under chapter 33 may not 
receive assistance under chapter 30, 31, 32, or 35 of Title 38 U.S.C. 
or chapter 107, 1606 or 1607 of Title 10 U.S.C. simultaneously. In 
addition, section 3322(b) would provide that periods of service counted 
under an educational loan repayment may not be counted as a period of 
service to establish eligibility for the chapter 33 program.
    Individuals could elect to receive educational assistance benefits 
under chapter 33, if, at the date of this bill's enactment, they have 
remaining unused entitlement under chapter 30 of Title 38 or under 
chapters 1606, 1607, or 107 of Title 10 and otherwise meet the 
requirements or are making progress toward meeting the requirements for 
entitlement under the proposed chapter 33. Individuals could also 
receive chapter 33 benefits if they opted out of the chapter 30 program 
through an election under section 3011(c)(1) or Sec. 3012(d)(1) of 
Title 38, but are otherwise eligible under chapter 33 eligibility 
requirements.
    New section 3324(c)(3)(B), as proposed, would permit individuals 
enrolled in chapter 30 to elect chapter 33 for the number of months of 
entitlement they have remaining. However, there is no provision 
regarding the manner in which individuals enrolled in the chapter 1606 
or chapter 1607 program would elect benefits under chapter 33 or how 
their remaining entitlement should be applied to chapter 33 usage.
    The bill would provide that, if an individual who is eligible under 
chapter 33 has previously elected to transfer his or her educational 
benefits to a dependent(s) under the provisions outlined in 38 U.S.C. 
Sec. 3020, he or she may elect to revoke some or all of the remaining 
entitlement so transferred. If an individual were to revoke his or her 
transfer of entitlement, the educational assistance would no longer be 
available to the dependent. In such case, the entitlement would instead 
be available to the servicemember or veteran for chapter 33 purposes. 
Any previously transferred entitlement that is not revoked would remain 
available to the eligible dependent in accordance with current transfer 
of entitlement provisions under 38 U.S.C. Sec. 3020.
    Further, the bill would provide that, if an individual elects to 
participate in the chapter 33 program, he or she may receive the number 
of unused months of entitlement he or she had under chapter 30. An 
election to receive benefits under chapter 33 would be irrevocable. In 
the case of an individual who has made an election, the bill would 
provide that, effective as of the first month following the election, 
the obligation of the individual to make contributions under the MGIB-
AD or the MGIB-SR program shall cease.
    We believe enactment of this bill would impose a tremendous 
administrative burden on VA, largely because it would make over 2 
million veterans and servicemembers immediately eligible to receive the 
chapter 33 benefits upon the date of its enactment. Further, the entire 
combined population of current chapter 30, chapter 1606, and chapter 
1607 participants would be eligible for the new (more advantageous) 
chapter 33 benefits and could request an immediate re-adjudication of 
their present claims. For reasons previously mentioned, which involve 
requirements for development of regulations or procedures, as well as 
extensive system changes that could include total development of new 
computer payment systems, VA would not be capable of effective 
administration of this benefit for an unacceptably long period of time 
following enactment. The combined effect would be to severely impact 
claims processing and cause a huge spike of indefinite duration in 
current waiting times for receiving education benefits.
    Section 3 of H.R. 2385 in subsection (a) would increase the maximum 
guaranty amount for certain residences of a particular size located in 
any area for which the median price for such size residence exceeds the 
dollar amount, to 25 percent of the median price for such a residence 
in such area.
    VA cannot support subsection (a), as drafted, because its intended 
application is unclear. By its terms, it applies specifically to 
``certain residences of a particular size located in any area . . .'' 
It provides no further explication of or guidance on how to determine 
the pertinent size residence or the area of its location. Moreover, as 
written, the provision could produce conflicting and, presumably, 
unintended consequences: a maximum guaranty that would, on the one 
hand, be substantially lower under certain circumstances than under 
existing law, and on the other, authorize guaranty amounts so large as 
to be wholly unrelated to the conforming loan limit.
    For instance, under existing law, the maximum guaranty for a VA 
loan is 25% of the Freddie Mac conforming loan limit (currently 
$417,000). For 2007, that maximum guaranty dollar amount is $104,250. 
Thus, if a veteran were to purchase a four-bedroom home for $400,000, 
VA would issue to a lender a guaranty certificate for $100,000. Under 
the proposed legislation, however, VA would first have to determine the 
median price of similarly sized homes in a particular area. If the 
median price for a four-bedroom home was $300,000 (exceeding the 
``dollar amount'' of $104,250), VA only could issue a guaranty for 
$75,000, essentially reducing the veteran's purchasing power by 
$100,000. In contrast, if a veteran were to purchase a seven-bedroom 
home for $4 million, where the median price for a similarly sized home 
was $4.24 million, VA would be required to issue a guaranty certificate 
for $1.06 million. VA finds both of these outcomes objectionable and, 
therefore, cannot support this subsection.
    VA is unable to estimate the costs of this provision without 
additional guidance as to its meaning and intended objective.
    Subsection (b) of section 3 would repeal the housing loan fee 
currently prescribed by 38 U.S.C. Sec. 3729.
    VA strongly opposes this proposed elimination of the loan fee. Loan 
fees are largely responsible for the financial viability of VA's 
housing loan benefits. VA believes that repealing the loan fee will 
have far-reaching consequences, both in short-term costs and in 
preparing to accept long-term risk. We also note that, by striking 
existing section 3703(e), the bill would remove protection for veterans 
against personal liability for any loss resulting from defaults on 
their VA-guaranteed loans.
    VA estimates the cost of this provision to be $583 million in the 
first year and $4.8 billion over 10 years.
    Section 4 of H.R. 2385 would amend the Small Business Act relating 
to the Microloan Program, under section 7(m) of that Act, to authorize 
small business loans to veterans in amounts up to $100,000 at an 
interest rate of no more than 2.5 percent. Further, VA, acting through 
its Veterans Health Administration's Vet Centers would provide 
technical assistance, outreach and counseling to veterans regarding the 
Microloan Program. Finally, Congress would authorize to be appropriated 
to VA and the Administrator of the Small Business Administration the 
sums necessary to carry out this section.
    VA has an extensive history of promoting business ownership for 
veterans. We began establishing goals for our procurement program in 
1984. Veterans may use their GI Bill to complete small business 
courses. We include information about business ownership in the GI 
pocket guide, referring personnel to both the Small Business 
Administration and to our own Center for Veterans Enterprise. 
Additionally, VA is unique in government in that we have special buying 
authority to contract with veterans and with service-connected disabled 
veterans in business.
    The Small Business Administration (SBA) advises that it strongly 
opposes the proposed Veterans Microloan program. Currently, Microloans 
are available up to $35,000, and the average loan size is $13,000. 
Therefore, micro-lending intermediaries have little experience making 
these larger loans. Also, with an interest rate cap of 2.5%, and no 
collateral required from borrowers, this would be an expensive program.
    We recommend deleting the provision that SBA establish a database 
of intermediaries. This database already exists. It was established to 
comply with requirements of Public Law 106-50. VA's Center for Veterans 
Enterprise manages this database, known as the Assistance Program 
Pages, on its web portal, www.VetBiz.gov.
    We are concerned about the appropriation provision as the 
Department has not had an opportunity to consider the costs associated 
with all aspects of this bill. Also, this summer, SBA established the 
Patriot Express Loan program. Patriot Express provides loans up to 
$500,000 to veterans and reservists, with streamlined documentation and 
expedited processing, and a 75 to 85 percent Federal guarantee. The 
response to the new program from SBA lenders has been very good, and 
this program has proven to be beneficial to military personnel and to 
veterans. SBA believes Patriot Express is a significant step toward 
improving access to SBA's business loan programs to veterans and 
reservists, and, therefore, SBA believes the proposed veterans 
Microloan program is duplicative and unnecessary.
    We estimate enactment of H.R. 2385 would result in total benefit 
costs to VA of $4.5 billion during the first year and $68.8 billion 
over 10 years, for which no offsets have been identified. We currently 
are unable to estimate the resulting additional administrative costs 
associated with this bill.

                               H.R. 2702

    H.R. 2702, the ``Post-9/11 Veterans Educational Assistance Act of 
2007,'' would add a new chapter 33 to Title 38, United States Code, 
that would, in general, require an individual to serve at least 2 years 
of active duty, with a least some period of active duty time served 
beginning on or after September 11, 2001, to be eligible for 
educational assistance under the new program. It would, for most 
individuals, link the number of months of educational assistance to the 
individual's months of service that occurred after September 11, 2001, 
but, in general, not provide for more than 36 months of benefits, with 
the educational assistance to cover the established charges of the 
program of education (subject to certain limitations), room and board 
(subject to certain limitations), and a monthly stipend of $1,000.
    Under H.R. 2702, chapter 33 would provide for educational 
assistance for less-than-half time education, apprenticeships, on-job 
training, correspondence courses, and flight training. Chapter 33 also 
would provide payment for tutorial assistance, not to exceed $100 per 
month for a maximum of 12 months, and one licensing or certification 
test, not to exceed the lesser of $2,000 or the test fee. Generally, 
individuals would have 15 years to use their educational entitlement 
beginning on the date of their last discharge or release from active 
duty. VA would administer this program with payments of assistance made 
from funds made available to VA for the payment of readjustment 
benefits. In general, individuals eligible for benefits under chapter 
30 of Title 38, United States Code, or chapters 107, 1606, or 1607 of 
Title 10, United States Code, could irrevocably elect, instead, to 
receive educational assistance under chapter 33.
    We have serious concerns about certain provisions of H.R. 2702 and, 
therefore, must oppose it. The complexity of the proposed eligibility 
requirements, the anticipated high benefit cost (with no apparent 
offsets), and the anticipated excessive administrative burden 
associated with this bill are all problematic. As currently written, 
eligibility criteria for the proposed chapter 33 are far more complex 
than the current Montgomery GI Bill. Entitlement determinations 
factoring in length of service and previous benefit usage would also be 
highly complex and difficult for individuals to understand.
    The increased amount of benefits payable at varying levels for 
different institutions would make administration of this program 
cumbersome. The requirement that the benefit be paid at the beginning 
of the term would further complicate administration and would tax 
existing VA resources.
    New section 3313(j)(2) of Title 38, United States Code, as proposed 
under H.R. 2702, would require VA to annually determine which public 
schools in each state have the highest in-state tuition rate and set 
the maximum established charges for each state accordingly. This labor-
intensive process would need to be completed annually in sufficient 
time to prepare for issuance of payments in advance of the term. 
Further, as written, this bill would be effective on the date of 
enactment. It would be necessary to prescribe regulations, make systems 
changes, and make other key adjustments to support the components of 
this bill. It is also likely that other sections within Title 38, 
United States Code, may need to be amended to address potential 
overpayments of the monthly stipend. For the above reasons, it would 
not be feasible for VA to begin making payments under the proposed 
chapter 33 benefit immediately.
    It also appears that, if enacted, the bill might have some 
unintended consequences. For example, the stipend of $1,000 per month 
would be payable to individuals attending degree and non-degree 
programs and also to those who are completing internships and on-the-
job training programs. This seems inequitable, as it would treat an 
individual in an apprenticeship program who is earning wages the same 
as a college student who is incurring expenses. It is also unclear what 
effect this benefit would have on recruiting and retention. While we 
defer to the Department of Defense on this point, we acknowledge that 
this may lead to lower reenlistments.
    VA estimates that, if enacted, H.R. 2702 would result in benefit 
costs of $5.4 billion during Fiscal Year 2008, $32.2 billion for fiscal 
years 2008 through 2012, and $74.7 billion over the 10-year period from 
Fiscal Year 2008 through 2017.
    Significant administrative costs would also be incurred. As 
previously noted, proposed new section 3313(j)(2) would require VA, 
through a labor-intensive process, to annually determine which public 
schools in each state have the highest in-state tuition rate and set 
the established charges for each state accordingly. Further, since VA's 
obligation is to ensure that veterans and servicemembers receive the 
most advantageous benefit, VA would be obligated to reevaluate all 
pending claims and award the greater chapter 33 benefits, as 
appropriate. We are concerned that these new and very complex 
administrative burdens would significantly impact the current level of 
service and responsiveness we give to current education program 
beneficiaries. Based on these factors, we would anticipate substantial 
administrative costs, but cannot fully estimate them without further 
research.

                               H.R. 2910

    H.R. 2910, the ``Veterans Education Tuition Support Act of 2007'' 
or ``VETS Act of 2007,'' would add a new section to Title VII of the 
Servicemembers Civil Relief Act to require an institution of higher 
education, whenever a servicemember is called, activated, or ordered to 
military service and therefore withdraws or takes a leave of absence 
from such institution, to: (1) refund to the servicemember tuition and 
other fees paid for the portion of the program of education for which 
the servicemember did not receive academic credit after such withdrawal 
or leave; and (2) provide the servicemember an opportunity to reenroll 
at the institution with the same educational and academic status that 
the servicemember had when ordered to military service.
    Further, H.R. 2910 would require a provider of a student loan with 
respect to such a servicemember: (1) if the servicemember reenrolls in 
the program of education (or a comparable program) within 13 months 
following the period of military service, to disregard the entire 
period that the education was discontinued in determining the date on 
which student loan repayment is to begin; or (2) if the servicemember 
does not reenroll, to not require loan repayment to begin before the 
later of the last day of such 13-month period or the date the repayment 
was otherwise required to begin.
    Finally, H.R. 2910 would amend section 207 of the Servicemember's 
Civil Relief Act by prohibiting a court from granting a creditor relief 
from the 6% limit on interest charged against the indebtedness of a 
servicemember during a period of military service in the case of an 
obligation or liability incurred by a servicemember who is a student at 
an institution of higher education at the time of the call to service.
    VA appreciates the congressional interest shown in this area. The 
Department of Education advises this proposal is duplicative of 
recently enacted laws. The HEROES Act (recently made permanent in P.L. 
110-93) provides the Secretary of Education waiver authority over 
return of student aid similar to the waiver mandated in H.R. 2910; in 
addition, the College Cost Reduction and Access Act signed into law in 
September provides 13 months of loan deferment for borrowers called to 
active duty. However, since the proposed new relief would not affect 
the provision of VA benefits, VA defers to the DoD and the Department 
of Education concerning this bill.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to respond to any questions you or other Members of the Subcommittee 
may have.

                                 <F-dash>
                     Statement of Hon. Rick Larsen,
       a Representative in Congress from the State of Washington
    Good Afternoon. I want to thank Chairwoman Herseth-Sandlin and 
Ranking Member Boozman for holding this important hearing. A number of 
valuable pieces of legislation will be discussed today concerning 
improvements and modifications to the GI Bill. I am especially pleased 
that we will be discussing the Montgomery GI Bill for Life Act (H.R. 
2247), legislation I have sponsored and I am thankful to have a number 
of bipartisan cosponsors. I also want to thank Senator Maria Cantwell 
for her leadership on this issue and her sponsorship of companion 
legislation in the Senate.
    The GI Bill was established in 1944 as a way of giving back to our 
Nation's veterans who gave so much to our country during World War II. 
Since it became law, this program has helped millions of veterans 
afford a two or four-year degree. This historic legislation has 
improved the lives of many veterans, opening doors and creating 
opportunities for those who served in the military to serve our country 
in new ways as civilians. Through the GI Bill, countless veterans have 
become teachers, scientists and engineers--to name just a few 
examples--and made countless contributions to communities across the 
country.
    For all the benefits of the GI Bill, there are clearly areas which 
need reform. Under current law, the vast majority of servicemembers 
contribute to the GI Bill program, but only slightly more than half 
take advantage of their education benefits before they expire. Current 
law requires that those who served in active duty must use all of their 
education benefits within 10 years of being discharged. Those serving 
in the Selected Reserve have 14 years of eligibility to use their GI 
Bill benefits.
    We live in a 21st Century world that requires a 21st Century 
workforce. Advances in technology mean that increasing numbers of 
Americans need more than a high school degree to succeed. Furthermore, 
estimates show the average annual earnings of someone with a bachelor's 
degree are anywhere from 74 to 87 percent higher than the earnings of 
someone with a high school diploma.
    Many veterans are not able to go back to school immediately or 
within the first several years after they leave the service. Many 
servicemembers must postpone school to support their families, and many 
face lengthy rehabilitations from service-related injuries. Others 
choose to gain experience in the workforce first and need further 
education down the road in order to advance their careers. Some 
veterans may be able to start using their benefits within the timeframe 
allowed, but are not able to complete their degree within 10 years. 
When the benefits run out, many can't afford to return to school and 
are unable to complete their degree.
    We must do more to honor our commitment to veterans and help them 
access the education benefits they have earned. Veterans should not be 
limited to an arbitrary timeline that prevents them from getting the 
education and job training they need when they need it. The GI Bill for 
Life Act would remove these time limitations and allow our Nation's 
veterans to use their benefits whenever they see fit. They paid into 
the program and they should be able to use the program at the right 
time in their lives and their careers.
    As more and more veterans come back from Iraq, Afghanistan and 
other areas of the world, we need to give them the tools they need to 
succeed in the next stage of their lives. We need to give them every 
opportunity to transition to civilian life and take advantage of future 
career opportunities.
    I want to thank you again for holding this important hearing and 
for considering the Montgomery GI Bill for Life Act. I look forward to 
continuing to work with you and the other Members of the Committee to 
advance this legislation and help give our Nation's veterans the 
flexibility they need to be successful.

                                 <F-dash>
                    Statement of Hon. Jim Matheson,
          a Representative in Congress from the State of Utah
    Madame Chairwoman. Thank you for allowing me to submit a statement 
for the record regarding my bill, the Resuming Education after Defense 
Service Act of 2007 (H.R. 1211). I appreciate the Subcommittee's 
willingness to hold hearings on pending Montgomery GI Bill legislation.
    I have long been an ardent supporter for allowing more flexibility 
when it comes to providing educational assistance to our Nation's 
troops. I introduced this bill in response to concerns from soldiers 
returning from Iraq who learned that despite their lengthy deployment, 
they were ineligible for the financial assistance.
    Our military men and women have made tremendous sacrifices during 
the war against terror. They've earned our gratitude and our support--
particularly when they're trying to resume a normal life following 
deployment. That's what this legislation helps provide.
    My bill extends Title 38 Montgomery GI Bill benefits to Reservists 
and Guardsmen serving 24+ cumulative months on active duty and is 
supported by the Enlisted Association of the National Guard (EANGUS) 
and the Military Officers Association of America (MOAA).
    Many National Guardsmen and Reservists have already served 24 
months on Active Duty in Iraq and Afghanistan over multiple deployments 
and a technicality in the law requires service to be continuous, which 
is simply not possible under current operational cycles. This 
legislation allows soldiers serving two years on Active Duty over a 5-
year period to qualify for the benefit and is retroactive to September 
11, 2001.
    We continue to rely more and more on the extended service of 
Reservists. We should keep our promises to them and we should 
compensate them for that contribution. Madame Chairwoman, thank you for 
your time.

                                 <F-dash>
               Statement of Paralyzed Veterans of America
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, Paralyzed Veterans of America (PVA), would like to 
thank you for the opportunity to submit a statement for the record 
concerning pending legislation that addresses education benefits for 
today's veterans including changes to the Montgomery GI Bill (MGIB). 
With so many men and women serving in the Global War on Terror, these 
benefits will be critical to their readjustment when they leave the 
service.

  H.R. 1102, the ``Total Force Educational Assistance Enhancement and 
                           Integration Act''

    PVA supports H.R. 1102, the ``Total Force Educational Assistance 
Enhancement and Integration Act of 2007.'' This bill recodifies the 
educational assistance provisions for members of the reserve components 
from the current Title 10, to Title 38, United States Code. This bill 
also allows the use of such educational assistance for apprenticeships 
and on-job training, flight training, licensing and certification 
tests, and individualized tutorial assistance. This will allow a 
veteran who does not want to attend a four year college to use the 
educational assistance for other types of career training. Placing the 
Guard and Reserve education programs into Title 38 will place the 
oversight responsibility in the Department of Veterans Affairs allowing 
Congress to better monitor these programs to ensure that they are 
serving the veterans.

    H.R. 1211, the ``Resuming Education After Defense Service Act''

    PVA supports H.R. 1211, the ``Resuming Education After Defense 
Service Act of 2007.'' This legislation would provide educational 
assistance under the Montgomery GI Bill for Selected Reserve members 
who serve on active duty in the Armed Services for a total of two years 
during a five-year period. This applies to service from the period 
beginning on September 11, 2001, and ending December 31, 2008.
    PVA does not support the requirement in section 2(d)(2) that 
requires the active duty servicemember to contribute $100 per month for 
the first 12 months of service. There should be no cost to the active 
duty servicemember. The MGIB should be an automatic entitlement for 
servicemembers.

    H.R. 1214, the ``Veterans Survivors Education Enhancement Act''

    PVA supports H.R. 1214, the ``Veterans Survivors Education 
Enhancement Act.'' This bill amends Title 38, United States Code, to 
expand and enhance the educational assistance for survivors and 
dependents. The bill expands the age of eligibility for dependents from 
26 years of age to 30 years of age. This legislation specifies that 
payments of educational assistance shall not be charged against the 
entitlement of an individual because that person is ordered to serve on 
active duty. Section 3532 of the bill increases the total amount of 
educational assistance to $80,000, and calls for regular increases from 
time to time.
    The bill also increases the range of programs that the educational 
assistance can be used for. This reflects the fact that various 
programs to prepare for future employment do not require the standard 
four years of college.

           H.R. 2247, the ``Montgomery GI Bill for Life Act''

    Although PVA has no specific objection to this legislation, we have 
some concern that it could change the underlying meaning of the MGIB. 
Education benefits, particularly the MGIB, are meant to be a 
readjustment benefit for servicemembers immediately upon leaving the 
service or in the interim 10-year period. By eliminating this 10-year 
period, the benefit would then be opened up to a generation of veterans 
who may have long since passed the need for readjustment.
    The one benefit that we do see to this legislation is it could 
allow a veteran to make a career change if he or she finds that their 
current career choice was not the right one. The availability of the 
MGIB benefit later in life would open many new doors. However, we do 
not want this change to open up the opportunity for veterans who may 
have retired from a career already to use the benefit simply to give 
them something to do. This could certainly occur.

         H.R. 2385, the ``21st Century GI Bill of Rights Act''

    PVA supports H.R. 2385, the ``21st Century GI Bill of Rights Act of 
2007.'' This bill will begin the process of providing for today's and 
tomorrow's veterans by increasing education, housing, and 
entrepreneurial opportunities. America has an obligation to uphold the 
spirit of the original GI Bill and Congress has a responsibility to 
enact legislation that will return similar comprehensive benefits to 
our veterans. This bill will extend eligibility to all servicemembers 
(active duty, National Guard, and Reserves) who have served since 
September 11, 2001 and deployed overseas in support of a combat 
operation. This would include active duty personnel who have served a 
minimum of two years on active duty since September 11, 2001 and 
National Guard and Reserve personnel who have served a minimum 
aggregate of two years on active duty since September 11, 2001.
    The legislation will pay eight undergraduate college semesters (or 
36 months) of tuition, fees, books, room and board, and other 
educational costs commensurate with costs paid by non-veterans. This 
would allow a veteran to attend college without accruing a large amount 
of debt.
    This bill also eliminates payments into the program as part of an 
enlistment contract as currently required in the Montgomery GI Bill. 
During previous wars, those serving in the military were exempted from 
fees for benefits. New recruits in the military begin their service 
receiving a relatively low rate of pay. They should not be penalized 
$100 each month simply because they may be considering attending 
college in the future.
    H.R. 2385 would also exempt veterans from paying loan fees when 
they receive a loan under the Veterans Affairs Home Loan Guaranty 
Program. Other types of home loans do not require a loan fee. A loan 
fee should not be required of a veteran.

    H.R. 2702, the ``Post-9/11 Veterans Educational Assistance Act''

    PVA supports H.R. 2702, a bill that would enhance the current 
educational benefits for the men and women who have served on active 
duty since September 11, 2001. The dollar amount of educational 
assistance would be equal to the established amount of tuition of an 
approved institution. This would give the veteran a greater selection 
of institutions to pursue their education since they would not be 
restricted to less expensive institutions. An additional amount of 
funding would be paid for the cost of room and board, and a monthly 
stipend of $1,000 would be paid to the student for other expenses. 
Tutorial assistance would also be available, and would be paid for a 
period up to 12 months to help the student with difficult courses. This 
amount would not be taken from the student's entitlement. The bill 
allows the veteran up to 15 years to take advantage of these benefits. 
This is an important addition since many returning veterans may not be 
emotionally ready right away to start school. This educational package 
offers the veteran many incentives to encourage them to enroll in 
school or continue with their educational program.

       H.R. 2910, the ``Veterans Education Tuition Support Act''

    PVA supports H.R. 2910, the ``Veterans Education Tuition Support 
Act of 2007.'' This bill would benefit members of the Armed Forces who 
use various forms of financial aid to fund their college education and 
are called to active duty. Currently, upon returning from active duty 
the servicemember must start paying back the educational loan after one 
month. However, transition from military service and service in the 
combat theater is a difficult challenge. This bill would allow a 13 
month transition period for these servicemembers to reenroll before 
beginning payment on their student loan. It also calls for a six 
percent interest rate cap on student loans of members of the Armed 
Forces that are deployed on active duty.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, this concludes our statement. PVA would like to thank 
you again for the opportunity to submit a statement for the record and 
we would be happy to answer any questions.

                                 <F-dash>
              Statement of Hon. Robert C. ``Bobby'' Scott,
        a Representative in Congress from the State of Virginia
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, I appreciate you holding this important hearing on 
pending legislation that would affect the Montgomery GI Bill.
    There are only a few events in our history that have galvanized all 
Americans to stand in unison to defend this great Nation. Sixty-six 
years ago, the attack on Pearl Harbor in 1941 was such a moment for 
what has been termed the ``Greatest Generation.'' The terrorist attacks 
of September 11, 2001 constituted such a moment for this generation of 
Americans.
    Since World War II, as a part of our recognition and appreciation 
of the great sacrifices of those who put their lives on the line in 
defense of our Nation, our government has offered educational 
assistance to our veterans when they returned home. The first GI Bill 
in 1944 helped veterans readjust to civilian life and afforded them the 
opportunity to do something that many had missed out on--getting a 
college education. The post-World War II GI Bill paid for veterans' 
tuition, books, fees and other training costs, and provided them a 
monthly stipend. Of the 15 million veterans who returned home from 
World War II, more than half used the GI Bill's benefits to better 
themselves through education.
    Since then, Congress passed several other GI Bills to grant 
educational benefits to veterans returning from the Korean war and the 
Vietnam War. After the Vietnam War, Congress passed two GI Bills that 
established peacetime educational benefits for members of the Armed 
Services--most recently the Montgomery GI Bill 1985. Although the 
Montgomery GI Bill provides educational benefits, it was not designed 
to meet the needs of our current situation in which several hundred 
thousand men and women in uniform are fighting full time in Afghanistan 
and Iraq. Our military operations in Afghanistan and Iraq have strained 
our all-volunteer military, forcing many of our men and women in 
uniform into extended tours of duty.
    Last year, I introduced H.R. 2702, the Post-9/11 Veterans 
Educational Assistance Act. H.R. 2702 is the companion bill to S. 22, 
introduced by Senator Jim Webb of Virginia. The House version of the 
Post-9/11 Veterans Educational Assistance Act currently has 88 
bipartisan cosponsors, including Veterans' Affairs Committee Chairman 
Bob Filner.
    The Post-9/11 Veterans Educational Assistance Act is designed to 
expand the educational benefits that our Nation offers to our brave men 
and women who have served us so honorably since the terrorist attacks 
of September 11, 2001. The House bill will provide for the entire cost 
of tuition for a 4-year public university and also provide a $1,000 
monthly stipend. The bill will also extend these benefits to members of 
the Reserve and National Guard who have been pulled out of college or 
away from their jobs to serve multiple tours of duty in Afghanistan and 
Iraq.
    The current Montgomery GI Bill is an adequate education benefit for 
peacetime service; however, it is not an adequate education benefit for 
the hundreds of thousands of men and women in uniform who have served 
in Afghanistan and Iraq. To receive benefits under the current 
Montgomery GI Bill, servicemembers are required to pay $100 a month for 
the first year of his or her enlistment. This required $1,200 
investment results in only a flat $800 monthly payment toward college 
tuition, which barely covers the cost of a college education today. We 
desperately need to reform the GI Bill to provide a stronger education 
benefit to our men and women in uniform that accurately reflects the 
cost of an education.
    Everyone on this Subcommittee understands the value of a college 
education. The men and women who have taken it upon themselves to 
enlist in our Armed Forces deserve to have access to a quality 
education with little to no cost. It is the least that we can to do for 
those who have sacrificed so much for this great Nation. I thank the 
Subcommittee for holding this hearing and I hope that you will take a 
close look at the provisions in H.R. 2702. We must pass comprehensive 
reform to the GI Bill program to truly honor and support those who have 
served and defended this Nation after the terrorist attacks of 
September 11, 2001.

                                 <F-dash>

            Washington State Council of Vietnam Veterans of America
                                                        Blaine, WA.
                                                   January 14, 2008

Hon. Stephanie Herseth-Sandlin
Hon. John Boozman
United State House of Representatives
House Committee on Veterans' Affairs
Subcommittee on Economic Opportunity
335 Cannon House Office Building
Washington, D.C. 20515

Dear Madame Chairman and Mr. Representative:

    I wish to respectfully submit the following for the record:
    The Washington State Council of the Vietnam Veterans of America 
fully endorses and supports passage of H.R. 2247 Montgomery GI Bill for 
Life Act.
    Since the end of WWII the GI Bill has played an important part in 
educating our Nation's veterans. Studies have shown that those 
receiving a college degree have gone on in life and made more money and 
paid more taxes then those without degrees. As returning Vietnam 
Veterans many of us took advantage of the GI Bill. A number of us found 
it difficult to live on just over $300 a month and we still had to pay 
tuition out of that amount. Over the years veterans had to make a 
decision either to put food on their table to feed their families or 
attend college. Those veterans with families had no choice but to go to 
work and leave behind their education opportunities hoping some day 
they will be able to return to school.
    Vietnam Veterans throughout this great Nation ask that you remove 
the 10-year Time limitation restriction to allow all veterans seeking 
to fulfill their dreams to do so.

            Sincerely,
                                                           Jim Pace
                                                          President

                                 <F-dash>
                CAMPUS KIT FOR COLLEGES AND UNIVERSITIES
                      Student Veterans of America
                       Compiled by John T. Powers
                              July 1, 2008
                        www.studentveterans.org
                        STUDENT VETERAN CONCERNS
GI Bill
Chapter 30
    ISSUE: The active duty GI Bill (Chapter 30) provides only $9,675 
per year to cover tuition, & fees, books, and living expenses. This 
covers only 60% the average cost of college.
    CONCERN: Student veterans may be forced to work multiple jobs on 
top of the GI Bill to pay for school. This is in addition to possible 
issues readjusting from deployment such as Post Traumatic Stress 
Disorder and Traumatic Brain Injury.
    MORE INFORMATION: https://www.gibill.va.gov
Chapter 31 (Vocational Rehabilitation)
    ISSUE: Incoming freshman students are often delayed in enrolling 
into classes until right before the semester begins. By this time many 
classes have been filled for weeks.
    CONCERN: To be eligible for this program the student veteran must 
be at least 20% disabled with an employment handicap or at least 10% 
disabled with a serious employment handicap. Delays in registering for 
classes adds stress and scheduling dilemmas for individuals with a 
employment handicap.
    MORE INFORMATION: https://www.vba.va.gov/bln/vre/index.htm
Delayed Schedule for Payment of Benefits
    ISSUE: Processing for Department of Veterans Affairs educational 
benefits can take up to eight weeks. Then these benefits are setup on 
an after the fact or monthly basis.
    Colleges & Universities require payment for tuition, fees, books, 
etc. up front or early in the semester before benefits have been 
received by the student veteran.
    CONCERN: Many veterans are unable to pay the costs of education up 
front. Student veterans often incur late fees while they wait to 
receive benefits to pay tuition.
    SUGGESTION: Offer deferred tuition payment or no late fees for 
students waiting on veteran's benefits.
Students Called to Duty
    ISSUE: Student veterans may be called to active duty during a 
semester.
    CONCERN: Preparing for deployment is difficult enough without 
having to deal with not completing their current classes either by 
withdrawing or taking an incomplete. Many student veterans report a 
wide disparity in options between professors, programs, and schools.
    SUGGESTION: Find your institutions policy for students called to 
duty. If you do not have one, establish one. Ensure this policy 
minimizes negative consequences for the student.
Full-Time Veteran Support Staff
    ISSUE: Student veterans often have to navigate multiple departments 
to utilize the range of benefits and resources available to them. They 
often are handed from one department or staff member to another until 
they find what they need or simply give up.
    CONCERN: Colleges & Universities often do not provide full time 
staff members to act as the point of contact for veteran's benefits and 
programs. This leads to frustration on the part of student veterans. 
The institution also losses out by missing resources available to it in 
order to better service student veterans and not understanding how well 
it serves students who are veterans.
    SUGGESTION: Establish positions in your institution to be a single 
point of contact for veteran's benefits and programs at your 
institution. Use this office for staff member to process paperwork and 
stay on top of the needs and issues of student veterans.
Availability of Information
    ISSUE: Information specific to veterans is often not easy to find 
or is organized with bits of information spread through many sources of 
information.
    CONCERN: It can be frustrating to not be able to easily find 
information specific to your needs as a student veteran. Delays in 
finding this information, or outdated information can have a negative 
impact for student veterans.
    SUGGESTION: Create online resources specifically for veterans and 
prominently promote it. Use this website to consolidate veterans 
information from throughout the institution.

              PLAN OF ACTION FOR COLLEGES AND UNIVERSITIES

Step One: Develop a Veterans Support Committee
    <bullet>  Include members from each department of your institution.
    <bullet>  Find out the number of student veterans and what types of 
benefits or resources they are using.
    <bullet>  Draft a letter to these students that shows support from 
the administration and ask for feedback on their needs.
Step Two: Support a Student Veterans Organization
    <bullet>  Contact all student veterans about establishing a student 
veteran's organization.
    <bullet>  Host a ``call out'' meeting to assist students in 
standing up the organization.
    <bullet>  Ensure they have access to all resources available to 
other student organizations.
    <bullet>  Realize that this student organization will have specific 
needs that other organizations may not have.
Step Three: Veterans Affairs Work Study Position(s)
    <bullet>  Determine if your institution is eligible for a 
Department of Veterans Affairs work-study position for a student 
veteran.
    <bullet>  File for the work-study position.
    <bullet>  Employ the work-study student veteran assisting other 
student veterans and prospective student veterans. Train the student 
veteran to carry out these duties. This will increase the credibility 
of the institution regarding student veterans.
    <bullet>  Provide office space and information technology resources 
as needed.
    <bullet>  LINK: http://www.vba.va.gov/pubs/forms/22-8691.pdf
Step Four: Develop Online & Print Resources
    <bullet>  Build a website to consolidate information for student 
veterans from throughout the institution.
    <bullet>  Create and distribute print brochures with the same 
information.
    <bullet>  Ensure they have access to all resources available to 
other student organizations.
    <bullet>  EXAMPLE: http://registrar.wisc.edu/students/vets/
Step Five: Educate Administration, Facility & Staff
    <bullet>  Incorporate educational material on student veterans into 
routine training programs.
    <bullet>  Utilize the presentation ``Understanding the Student 
Veteran.
    <bullet>  Ensure the on campus counseling resources are training to 
handle student veteran issues and are able to handle them.

                             VA WORK STUDY

Step One: Request to be an Approved Worksite
    <bullet>  A letter from the person who will be the work-study 
supervisor needs to fax a letter, on official letterhead from the 
institution, requesting to become a worksite. This letter needs to 
contain the following information:
      <bullet>  Who the supervisor is, along with contact information
      <bullet>  What the supervisor does (brief job description)
      <bullet>  Number of enrolled veterans at the institution (this 
will determine how many work study hours that will be allotted to the 
site).
      <bullet>  The mission of the veteran office or center. Include 
qualitative information such as number of veterans served.
      <bullet>  The anticipated job duties of the student worker.
        <bullet>  Do not use catch phrases such as ``and additional 
duties as assigned''.
        <bullet>  Include ``veteran'' in bullet points.
      <bullet>  This letter must be very clear and concise. Keep it to 
one page. It must be clear the student worker will work directly and 
only with veterans issues.
    <bullet>  Submit this letter to the VA Work Study Office.
    <bullet>  You will NOT be notified whether or not you are approved. 
You must contact the VA Work Study Office.
      <bullet>  After submitting the initial letter, call to verify 
they received it. Remember the phone hours for the VA Work Study Office 
is 10am to 2pm.
      <bullet>  They should be able to give you an anticipated approval 
date.
Step Two: Hiring a Student
    <bullet>  Once you have selected the student(s) you wish to hire 
for VA work study, call the VA Work Study Office to have them verify 
the student(s) qualify. Ensure you know the students Social Security 
number and which chapter they are using. The student must be actively 
receiving VA educational benefits. If the student has applied for 
benefits but not received their first check they will be denied.
    <bullet>  Have the student complete VA Form 22-8691--Application 
for Work Study Allowance.
      <bullet>  In Part III, Block #9 have then check ``no''. This will 
enable them to start much sooner. If they check ``no'', you can write 
in this block the date when you would like them to start (Contract 
Start XX-XX-XXXX). Contract will be backdated when approved.
      <bullet>  In Part III, Block #12 and #14 they can be very brief.
      <bullet>  In Part III, Block #13, if you are already an approved 
worksite, which you should be when filling out this application, put 
the exact location. The rest of the information (supervisor, contact 
info, worksite info) should be on the position description you send 
with it.
      <bullet>  Do NOT include a resume or any academic information.
    <bullet>  Position Description:
      <bullet>  The student and supervisor names must be clear and on 
top of the position description. There will be more than one 
supervisor. Only list one.
      <bullet>  The position description should be brief--condense part 
A and B of the description.
      <bullet>  Once again, they will not notify you if you were 
approved or not.
      <bullet>  After you fax this information, call to verify they 
received it. Ask when they expect it to be approved.
Step Three: Timesheets
    <bullet>  Students cannot work more than 25 times the number of 
weeks in the semester so, if they are working a full term they can only 
get 25 hours per week.
    <bullet>  Timecards need to be submitted after a student works 50 
hours. Depending on how many hours per week they work, they may not be 
paid every two weeks.
    <bullet>  Do not send a cover sheet--any communications should go 
in the ``remarks'' block of the time sheet.

                              SUGGESTIONS

For Administrators
    <bullet>  Survey your student veterans for their needs and 
concerns.
    <bullet>  Work with student veterans during registration periods to 
ensure they are able to quickly enroll in classes.
    <bullet>  Develop easy to use procedure to notify the institution 
(all parts of it to include professors, departments, programs, support 
offices) in the event they are called to duty. Ensure point of contact 
is promoted and easy to find.
    <bullet>  Add ``veterans sensitivity'' training in faculty and 
staff development programs.
    <bullet>  Maintain veterans Committee to host dialog between 
student veterans and others.
    <bullet>  Host events on campus to make sure veterans feel welcome 
on campus.
    <bullet>  Consider establishing a foundation account to assist 
student veterans with tuition, book, and other fees.
    <bullet>  Keep in mind that Department of Veterans Affairs benefits 
and programs do not cover all the needs of student veterans. Consider 
developing your own scholarships, programs and other student veteran's 
specific resources.
    <bullet>  Evaluate the admissions process to ensure veterans are 
not disadvantaged. Students transitioning out of active service face a 
host of admissions difficulties.
    <bullet>  Veterans have dramatically different life experiences, 
especially younger veterans. Do not treat them the same as you do 
student straight out of high school or other first time students.
    <bullet>  Develop veteran specific orientation. Partner with local 
veterans organizations and military units for presentations and 
assistance.
For Faculty
    <bullet>  Include veterans information on the syllabus
    <bullet>  Student veterans may not feel comfortable publicizing 
their veteran status. This is especially true for some topics. If your 
course covers war topics establish an atmosphere where they feel 
comfortable. Be understanding of veterans' different viewpoint on 
topics.
    <bullet>  Be flexible with attendance for student veterans who have 
appointments with Veterans Affairs. Rescheduling these appointments is 
often not possible or results in a long delay.
    <bullet>  Be aware of military spouses and family members with 
individuals deployed. This is a very difficult period for them as well.



Sample Letter to Student Veterans
Dear Student,

    We are contacting you in an effort to reach out to students that 
have been identified as military veterans.
    On behalf of the INSTITUTION community, thank you for your service 
to our country. You have undoubtedly made sacrifices and faced 
hardships unknown to most other students. You have experiences few of 
use will ever understand.
    INSTITUTION would like to assist you in your transition to academic 
life. We have many departments and individuals who are available to 
help veterans adjust to civilian and campus life. In particular are the 
programs below.

    <bullet>  Counseling Service provides XYZ services. It is located 
at ___ and can be contacted at 555-555-5555.
    <bullet>  Disability Services provides XYZ services. It is located 
at ___ and can be contacted at 555-555-5555.
    <bullet>  Veterans Support office provides XYZ services. It is 
located at ___ and can be contacted at 555-555-5555.

    In addition to on campus resources, please be aware of the many 
resources available to you. MilitaryOneSource 
(www.militaryonesource.com) is a very comprehensive source of 
information. Student Veterans of America (www.studentveterans.org) is 
an umbrella group of student organizations and can provide assistance 
as well.
    We would appreciate if you would complete the questions enclosed 
and return it to ___. Doing so will allow us to better understand your 
needs and assist you in succeeding in your academic life.

            Sincerely,
                                                               Name
                                                        INSTITUTION
                                          Service Branch: _________

    Interested in meeting other veterans: [yes] [no]
    How can we assist you in your transition to academic life?
    Would you like to schedule a meeting with supportive faculty & 
staff? [yes] [no]
    Do you have family members or close friends that would like 
information or support? [yes] [no]
    Would you prefer to NOT be contacted regarding your veteran status? 
[yes] [no]

    Name: _________ Phone: _________ Email: _________

                        QUICK LINKS & RESOURCES

VA & DoD Hotlines
VA Education Office 1-888-442-4551
VA Healthcare Office 1-877-222-8387
VA Benefits 1-800-827-1000
WAVE (Verify Your Attendance) 1-877-823-2378
VA Gulf War Help Line 1-800-273-8387
DoD Direct Veterans Hotline 1-800-497-6261
Suicide Hotline 1-800-273-8255
VA Websites
GI Bill http://www.gibill.va.gov
Apply for GI Bill Benefits http://vba.va.gov/pubs/forms/VBA-22_1990.pdf
GI Bill WAVE https://www.gibill.va.gov/wave/
Veterans Online Application (VONAPP) http://vabenefits.vba.va.gov/
vonapp/main.asp
VA Hiring--Student Programs http://www.va.gov/JOBS/
hiring_programs.asp#5
VA Medical Centers http://www1.va.gov/directory/guide/home.asp
VA Compensation & Pension http://www.vba.va.gov/bln/21/
Other Useful Government Websites
Defense Activity for Non-Traditional Education Support (DANTES) http://
www.dantes.doded.mil/Dantes_web/DANTESHOME.asp
Army/American Council on Education Registry Transcript System (AARTS) 
https://aartstranscript.army.mil
Community College of the Air Force Request Forms http://
www.maxwell.af.mil/au/ccaf/transcripts.asp
Coast Guard Military Transcripts http://www.uscg.mil/hq/cgi/
offical_transcript.asp
Sailor/Marine American Council on Education Registry Transcript (SMART) 
http://www.navycollege.navy.mil/transcript.html
National Center for PTSD http://ncptsd.va.gov
Veteran Service Organizations
Student Veterans of America http://www.studentveterans.org
The American Legion http://legion.org 1-800-433-3318
Veterans of Foreign Wars http://www.vfw.org 1-800-VFW-1899
Disabled American Veterans http://www.dav.org 1-877-426-2838
Paralyzed Veterans of America http://www.pav.org 1-800-424-8200
AMVETS http://www.amvets.org 1-877-726-8387
Vietnam Veterans of America http://www.vva.org 1-800-882-1316
Servicemember Opportunity Colleges (SOC)
    SOC Consortium member institutions provide flexibility to 
servicemembers, their families, and veterans seeking college degrees. 
In turn SOC colleges and universities benefit from the enrollment of 
mature, highly motivated adult students who make use of tuition 
assistance or the GI Bill. http://www.soc.aascu.org

                                  <all>

</pre></body></html>
